<html>
<title> - DEFENDING U.S. ECONOMIC INTERESTS IN THE CHANGING ARCTIC: IS THERE A STRATEGY?</title>
<body><pre>[Senate Hearing 112-234]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-234
 
 DEFENDING U.S. ECONOMIC INTERESTS IN THE CHANGING ARCTIC: IS THERE A 
                               STRATEGY? 

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-568 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK L. PRYOR, Arkansas              JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                     MARK BEGICH, Alaska, Chairman
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine, Ranking
JOHN F. KERRY, Massachusetts         ROGER F. WICKER, Mississippi
BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
MARIA CANTWELL, Washington           JOHN BOOZMAN, Arkansas
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia                DEAN HELLER, Nevada
























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2011....................................     1
Statement of Senator Begich......................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Klobuchar...................................    22

                               Witnesses

Ambassador David A. Balton, Deputy Assistant Secretary for Oceans 
  and Fisheries, Bureau of Oceans and International Environmental 
  and Scientific Affairs, U.S. Department of State...............     4
    Prepared statement...........................................     6
Admiral Robert J. Papp, Jr., Commandant, U.S. Coast Guard........     9
    Prepared statement...........................................    11
Rear Admiral David Titley, Oceanographer of the Navy and 
  Director, Task Force Climate Change............................    15
    Prepared statement...........................................    17
Peter E. Slaiby, Vice President, Shell Alaska....................    32
    Prepared statement...........................................    33
Scott Borgerson, Ph.D., Senior Fellow, Institute for Global 
  Marine Studies.................................................    43
    Prepared statement...........................................    45
Andrew T. Metzger, Ph.D., P.E., Assistant Professor, Department 
  of Civil and Environmental Engineering, College of Engineering 
  and Mines, University of Alaska, Fairbanks.....................    48
    Prepared statement...........................................    50

                                Appendix

Jane Lubchenco, Ph.D., Under Secretary of Commerce for Oceans and 
  Atmosphere, and Administrator, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce, prepared statement    61
Fran Ulmer, Chair, U.S. Arctic Research Commission (USARC), 
  prepared statement.............................................    66
Response to written question submitted to Ambassador David A. 
  Balton by:
    Hon. John D. Rockefeller IV..................................    68
    Hon. Mark Begich.............................................    68
Response to written questions submitted to Admiral Robert J. 
  Papp, Jr. by:
    Hon. John D. Rockefeller IV..................................    69
    Hon. Mark Begich.............................................    71
Response to written questions submitted by Hon. Mark Begich to 
  Rear Admiral David W. Titley...................................    74
Response to written questions submitted to Peter E. Slaiby by:
    Hon. John D. Rockefeller IV..................................    76
    Hon. Mark Begich.............................................    78
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Andrew T. Metzger, Ph.D., P.E................    79


                   DEFENDING U.S. ECONOMIC INTERESTS
                        IN THE CHANGING ARCTIC:
                          IS THERE A STRATEGY?

                              ----------                              


                        WEDNESDAY, JULY 27, 2011

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you all very much. Thanks for being 
here. The Ranking Member is on her way, but we may go ahead and 
start in just a second here. I appreciate you being patient 
while I came from a Veterans Committee meeting, in which we 
were talking about long-term care for our veterans. So I 
appreciate your patience.
    Today our topic is ``Defending U.S. Economic Interests in 
the Changing Arctic: Is There a Strategy?'' So today is the 
discussion of hopefully there is and, if not, we hope to have a 
long-term discussion and start to move forward.
    Again, good morning. I'd like to welcome our witnesses and 
thank them for taking the time to testify before the Committee 
today.
    Any Alaskan can tell you our State is ground zero for the 
changes apparent in the Arctic today. Sea ice disappearing 
faster than scientific models have predicted; open seas eroding 
the coastline and thawing permafrost, undercutting our many 
villages along the coast. And warm water temperatures are 
changing the migration patterns of our fish and marine mammals.
    The opening of this fifth ocean has broad implications for 
our nation. It's been said there's suddenly a lot more water up 
there, and it's our responsibility. We need to make sure our 
nation is prepared to fulfill that responsibility and address 
the implications for national security, energy development, and 
increased marine shipping and tourism.
    The responsibilities and opportunities of the changing 
Arctic are the subject of today's hearing on our nation's 
economic interests in the Arctic and whether we have a strategy 
to address these. Consider energy. The Beaufort and Chukchi 
Seas contain an estimated 28 billion barrels of oil, almost 
twice as much as has already been produced from Prudhoe Bay, 
and 38 trillion cubic feet of natural gas.
    I'm pleased that President Obama supported my push to start 
utilizing Alaska resources to support America's energy needs. 
As we look to future energy development, we need to proceed 
carefully, safely, and make sure communities are fully prepared 
and engaged. I welcome the testimony of Shell Oil's Pete Slaiby 
on the second panel today.
    The diminishing ice pack is also opening new routes for 
marine shipping, which can cut distances for transcontinental 
shipping in half. This year is expected to see a record number 
of sailings of cargo vessels through the northern sea route on 
top of Russia, including tankers.
    With increased energy development and maritime activity, 
our nation must ensure that the Coast Guard has the 
capabilities to operate in the Arctic waters, to guard our 
borders, protect life, safety, and the environment, and ensure 
safe commerce. That includes icebreakers, which we are sorely 
lacking. It also includes other cutters and aircraft hangars, 
crew quarters, communication capabilities, and other 
infrastructure needed to do the job. I look forward to 
exploring those needs in more detail today.
    We also need a strategy toward addressing the international 
issues that exist in the opening Arctic. On that front, the 
most important single step our nation needs to take for the 
future Arctic governance is the ratification of United Nations 
Convention on the Law of the Sea. Even while we have abided by 
its terms, the United States is among a handful of nations 
which have not ratified the Law of the Sea. And the company we 
keep by not ratifying this law, this convention, includes the 
likes of Libya, Iran, and North Korea, a list, honestly, we 
don't need to belong to.
    As the world's leading maritime power, the only way the 
United States can make sure that the rules are followed and to 
protect the freedom of navigation, to advance our commercial 
and national security interests, is by being party to the 
convention. And, only as a party to the convention can we 
protect our rights as a coastal state and secure international 
recognition of the outer limits of the continental shelf. The 
extended continental shelf in the Arctic is estimated at almost 
twice the size of California.
    It's huge, even by Alaska standards.
    There are other strategic needs in the Arctic as well, such 
as addressing border disputes, fisheries in international 
waters, and more, which we will talk about today.
    The coming years bring great challenge and opportunities to 
the Arctic and the United States has a major role to play. To 
fulfill that role and responsibility, we must address the 
broader policy and implications of an ice-diminishing Arctic on 
the diplomatic, scientific, and national security fronts. We 
must make the needed investments to maintain leadership at the 
top of our globe.
    Before I introduce the first panel, I will ask the ranking 
member, Senator Snowe, if she'd like to make a few statements. 
Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you very much, Mr. Chairman, for 
calling this hearing to explore our economic opportunities in 
the Arctic.
    With the release of the Coast Guard's High Latitude Study 
on July 20 of this year, it's certainly timely that we 
understand the infrastructure, research, and legislative 
priorities necessary to promote economic growth in the region. 
In June this subcommittee reviewed the Coast Guard budget and 
discussed the lack of icebreaking capacity and its implications 
for the Coast Guard, and I'm certain as well we'll hear from 
the Navy today about its reliance on the icebreaker fleet.
    At the same time, indisputably our hearing today stems from 
the fact that climate change has dramatically changed the 
Arctic environment and receding sea ice will require new patrol 
and response capacities as shipping routes open, vessel traffic 
increases, and competing claims to resources are made in areas 
previously inaccessible due to year-round ice.
    Scientists predict that the Arctic may shift from an ice-
covered environment to a recurrent ice-free ocean in the summer 
in as few as 20 years. In fact, scientists at the National Snow 
and Ice Data Center are seeing record ice melt this summer, and 
the ice extent is currently lower than it was in 2007, the year 
there was a shocking record low. As of July 17, Arctic sea ice 
extended only 2.9 million square miles, 865,000 square miles 
below the 1979 to 2000 average.
    New open waters will increase the potential for shippers to 
save several days and thousands of miles of travel between Asia 
and Europe or North America. While significant increases in 
vessel traffic remain impeded by operational costs in the 
northern latitudes, we cannot stand idly by and wait to address 
the capability of our Coast Guard and Navy to protect American 
safety and security interests.
    The Coast Guard has actively pursued an Arctic mission 
analysis and I'm pleased that the High Latitude Study is now 
available to guide Congressional decisionmaking. This study 
identifies significant capacity gaps in four key mission areas: 
defense readiness, ice operations, marine environmental 
protection, and port security.
    The Coast Guard takes seriously its statutory obligations 
to protect our sovereignty, human lives, infrastructure, and 
the unique Arctic environment and the root cause of its 
inability to perform at the level we expect is a stark lack of 
polar icebreaking capacity. The current status of our 
icebreaker fleet, with only one medium active vessel in 
operation, poses an unacceptable risk to our nation. Icebreaker 
construction would take 8 to 10 years after we make a decision 
to grow the fleet, of course, so it is imperative that we begin 
to identify concrete steps to address our nation's long-term 
requirements.
    Admiral Papp, you've commented on the Coast Guard budget 
hearing in April that one thing that keeps you up at night is 
the Coast Guard's inability to respond to any sort of disaster 
in the Arctic. It therefore comes as no surprise to you, I 
assume, that the High Latitude Study found that we were 
constrained currently by inadequate communications system 
capabilities, limited forward operating bases, and shortfalls 
in our environmental response and mitigation capabilities in 
ice-covered water.
    With small communities' cold climate transportation 
challenges, the most basic provisions will prove difficult to 
meet in the Arctic should we have to locate people to a remote 
site. We even lack adequate places to house people or vehicles.
    Unfortunately, in this difficult budget climate and due to 
the realities of acquisition and construction processes, 
meeting those infrastructure requirements is a goal that is 
years away. As a positive step, in 2009 the U.S. led the 
successful development of an international search and rescue 
initiative in the Arctic, negotiated under the auspices of the 
Arctic Council. Yet, given the security issues that may be 
posed by growing open water and the discovery of new sea 
routes, the United States must be at the table and have all the 
tools at the ready to address emerging threats to our nation's 
sovereignty, whether through competing resource claims or 
maritime passage along our shores and international straits.
    The United States as a maritime nation should continue to 
be a strong leader in the development of international ocean 
policy. A cornerstone of this will be how we address the 
significant changes occurring in Arctic waters and how we use 
the lessons we are learning there to inform mitigation and 
prevention efforts to address climate changes along our 
Atlantic and Pacific coasts. The effects of climate change are 
being felt already around this country, and the Arctic is the 
canary in the coal mine.
    I look forward to an illuminating discussion today and I 
welcome all of you here.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much, Senator Snowe.
    Again, we want to thank the first panel here today and look 
forward to your testimony. We have on the panel today: 
Ambassador David Balton, Deputy Assistant Secretary for Oceans, 
Fisheries, Bureau of Oceans and International Environment and 
Scientific Affairs, U.S. Department of State. That's a long 
title.
    Admiral Papp, again it's always good to see you, Commandant 
of the United States Coast Guard; and Rear Admiral Titley, 
Oceanographer and Navigator of the Navy, United States Navy.
    Again, thank you all three for being here. We'll start with 
Ambassador Balton, if you could go ahead, and then we'll kind 
of just go down the list here. Ambassador, thank you.

        STATEMENT OF AMBASSADOR DAVID A. BALTON, DEPUTY

         ASSISTANT SECRETARY FOR OCEANS AND FISHERIES,

        BUREAU OF OCEANS AND INTERNATIONAL ENVIRONMENTAL

        AND SCIENTIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Balton. Thank you very much, Chairman Begich, 
Ranking Member Snowe. I'm pleased to be here today. I have a 
written statement and ask that it be included in the record.
    Senator Begich. Without objection.
    Ambassador Balton. Mr. Chairman, as you noted, the Arctic 
is changing in fundamental ways. Much, though not all, of this 
change is resulting from the warming Arctic climate. As you 
noted, Arctic sea ice is retreating, Arctic land glaciers are 
receding, coasts are eroding, Arctic permafrost is thawing.
    Much of this change presents serious challenges for Arctic 
residents and for governments. But with these challenges come 
certain opportunities, particularly economic opportunities. 
Over the next few minutes I will try to outline some of the 
steps we are taking at the international level to facilitate 
and manage economic activity in the Arctic. I will close with 
some remarks about why the United States must accede to the Law 
of the Sea Convention if we are to advance our economic 
interests in the Arctic most effectively.
    Mr. Chairman, in early 2009 the U.S. Government released an 
updated U.S. Arctic region policy. That policy remains in 
effect. The impetus to update this policy arose from the many 
changes that had taken place in the Arctic in the previous 15 
years, including the region's emerging economic opportunities.
    The other Arctic nations are also moving ahead with 
policies to take advantage of these same economic 
opportunities. Part of our mission and our challenge is to 
manage economic development across the Arctic so that it 
proceeds in an orderly and responsible fashion. Here are just a 
few of things we are doing, the tip of the iceberg, no pun 
intended.
    Using our policy, we are working closely with Russia, which 
holds vast hydrocarbon and other mineral deposits in the 
Arctic, to share our experience in managing the development of 
such resources. The Russian government, the Geological Survey 
of Canada, and the United States Geological Survey have also 
jointly mapped mineral potential across the Arctic. The United 
States and Canada are conducting research to develop 
technologies to locate Arctic methane hydrate deposits for 
potential production. The United States and Canada also plan to 
cooperate on the regulatory process of the proposed Alaska 
Natural Gas Pipeline.
    Now, the main forum in which we work with other Arctic 
nations is the one that Senator Snowe mentioned, the Arctic 
Council. The Council is valuable on a lot of fronts, not least 
of which is because it serves as a venue in which the Arctic 
indigenous peoples can collaborate with governments there on 
many issues of concern.
    This council, the Arctic Council, is evolving in a number 
of very useful ways. In May, for example, Secretary Clinton 
signed the search and rescue agreement that Senator Snowe 
referred to. This is the first-ever legally binding agreement 
adopted under the auspices of the Arctic Council. This 
agreement will support economic activity in the Arctic where 
infrastructure and support services are sparse.
    While she was at the meeting, Secretary Clinton also joined 
with other colleagues at the Arctic Council in launching a new 
set of negotiations on oil spill preparedness and response, 
which the United States will co- chair.
    Let me say a word about Arctic fisheries. Outside the 
Arctic Council, we are advancing our interests in the 
management of the potential for increased Arctic fisheries as 
they may expand into the Arctic region with the warming of the 
waters.
    I note that the United States has taken an unprecedented 
step at home. We have closed the portion of the U.S. exclusive 
economic zone north of Alaska to new commercial fisheries. Why? 
Well, essentially because we don't yet have sufficient 
knowledge of those waters to manage fisheries in that area 
properly.
    We at the State Department have encouraged our immediate 
Arctic neighbors--Russia and Canada--to consider taking 
comparable action in waters under their jurisdiction in the 
Arctic. And we are seeking a broader agreement that nations 
should not authorize their vessels to fish in the high seas 
portion of the central Arctic Ocean until we have an 
international mechanism for managing fisheries in that area.
    Finally, Mr. Chairman, I must say that the most significant 
step we can take as a nation to advance our economic interests 
in the Arctic would be to accede to the Law of the Sea 
Convention. As you noted, the Convention provides the basic 
legal framework applicable to economic activities in all 
oceans, including the Arctic Ocean. The Convention contains 
highly favorable rules that benefit the U.S. oil and gas 
industry, the shipping industry, the telecommunications 
industry, and the fishing industry, among others. Only as a 
party, though, could the United States fully secure those 
benefits, and that is why these industries support U.S. 
accession to the Convention.
    While those benefits would apply in all regions, the Arctic 
region presents a particularly compelling case for why the 
United States must be party to the Convention. We are the only 
Arctic nation not party. We are the odd one out. We are the 
only nation bordering the Arctic Ocean that is not in a 
position to fully secure rights to our continental shelf, which 
may extend 600 miles north of Alaska.
    From a geostrategic perspective, we need to be a party to 
the Convention to take complete advantage of our stature as a 
major maritime power and as an Arctic nation.
    Thank you for this opportunity to testify. I would be 
pleased to answer any questions.
    [The prepared statement of Ambassador Balton follows:]

  Prepared Statement of Ambassador David A. Balton, Deputy Assistant 
Secretary for Oceans and Fisheries, Bureau of Oceans and International 
     Environmental and Scientific Affairs, U.S. Department of State
    Chairman Begich, Ranking Member Snowe, members of the Subcommittee, 
I am David A. Balton, the Deputy Assistant Secretary of State for 
Oceans and Fisheries. I am pleased to be here today to discuss with you 
how we work with our fellow Arctic nations to promote and advance our 
economic interests in the Arctic region.
    As you know, the frozen areas of the Arctic are melting and 
thawing, and this phenomenon is triggering ever-increasing public 
interest in this little-known and mysterious area of the world. We have 
all heard much lately about the oil and gas deposits in the off-shore 
areas of the Arctic, including Alaska, and though we hear less about 
other kinds of human activity in the Arctic such as increases in 
shipping and tourism. These things are happening now. We must be 
prepared to manage Arctic economic activity in ways that both secure 
our economic interests and also protect the environment. It is in part 
for these reasons that we reviewed and updated our Arctic policy in 
2009.
United States Arctic Region Policy
    On January 9, 2009, the past Administration released an updated and 
revised U.S. Arctic Region Policy for the first time since 1994. 
Shortly after the current Administration came to office, it reaffirmed 
that this policy remains in effect.
    The impetus to update the Arctic Region Policy arose from the many 
changes that have taken place in the Arctic over the previous 15 years, 
including growing interest in the region's economic assets. The policy 
sets forth seven areas of policy:

  <bullet> National Security and Homeland Security Interests

  <bullet> International Governance

  <bullet> Extended Continental Shelf and Boundary Issues

  <bullet> International Scientific Cooperation

  <bullet> Maritime Transport

  <bullet> Economic Issues, Including Energy

  <bullet> Environmental Protection and Conservation of Natural 
        Resources
Arctic Resource Potential
    The Arctic regions of Russia, the United States, and Norway contain 
the largest amounts of discovered Arctic oil and gas resources. Russia 
has 75 percent of known oil reserves and 90 percent of known gas 
reserves, and likely contains the vast majority of undiscovered 
resources of oil and gas. Russia ships up to 140 million barrels of oil 
per year along the Arctic Russian and Norwegian coasts. Norway 
transports up to 180 million barrels of oil and gas condensate per year 
from Norwegian Sea platforms. The potential for oil and gas in the 
areas of possible U.S. extended continental shelf is still largely 
unknown, but has the potential to be significant. Russia also holds 
vast non-energy mineral deposits and engages in significant mining 
activity in the Arctic.
    U.S. Government agencies are actively involved in sharing our 
experiences in the area of oil and gas management with Russia, which 
continues to express interest in cooperation in Chukchi Sea oil and gas 
activities. Russia also holds vast non-energy mineral deposits and 
engages in significant mining activity in the Arctic. The Russian 
Government, the Geological Survey of Canada and the United States 
Geological Survey have jointly mapped pan-Arctic mineral potential. The 
United States and Canada are conducting research to develop 
technologies to characterize Arctic methane hydrate deposits with a 
long-term goal of potential production of methane. Research is also 
underway in the United States, Canada, Norway, Germany and other EU 
countries on the methane hydrate role in terms of seafloor hazards and 
global climate change. The United States and Canada also plan to 
cooperate on the regulatory process of the proposed Alaska natural gas 
pipeline.
    The National Ocean Policy for the stewardship of the ocean, our 
coasts, and Great Lakes established by President Obama in 2010 
recognizes the Arctic as a national priority. Implementation of this 
policy will address environmental stewardship needs in the Arctic Ocean 
and adjacent coastal areas through the identification of better ways to 
conserve, protect, and sustainably manage Arctic coastal and ocean 
resources, effectively respond to the risk of increased pollution and 
other environmental degradation on humans and marine species, and 
adequately safeguard living marine resources. The policy stresses 
collaborations and partnerships and communicates to other Arctic 
Nations the commitment of the United States to support science based 
decision-making and an ecosystem-based approach to managing human 
activities at sea, including using tools, consistent with international 
law, such as coastal and marine spatial planning.
The Arctic Council
    The Arctic Council is the main forum we use to advance our 
economic, environmental and other Arctic interests with the Arctic 
nations. The Arctic Council also gives us a forum in which the 
indigenous peoples living in the Arctic collaborate on many issues of 
concern. The Council has been very successful for the United States in 
that we have led or co-led many of its important projects including the 
2004 Arctic Climate Impact Assessment, the 2008 Arctic Oil and Gas 
Assessment, and the 2009 Arctic Marine Shipping Assessment. In May 
2011, Secretary Clinton signed an agreement on Aeronautical and 
Maritime Search and Rescue Cooperation in the Arctic, the first-ever 
legally binding agreement negotiated under the auspices of the Arctic 
Council. This agreement is key to supporting economic development 
activity in the Arctic, where infrastructure and support services for 
search and rescue are sparse.
    Secretary Clinton also joined with her colleagues in creating a 
Task Force on oil spill preparedness and response, which the United 
States will co-chair with Russia. This Task Force is an excellent 
opportunity to join with our fellow Arctic nations to prepare for 
offshore oil exploration and development so that if a spill does 
happen, we will be better-positioned to address it. We will include the 
lessons learned from the Deepwater Horizon spill as we develop an 
international instrument on oil spill cooperation in the Arctic, where 
coordination of international efforts would likely be critical to 
mounting an effective response. The United States has recently proposed 
a new Arctic Maritime and Aviation Infrastructure Initiative which, if 
agreed by the other seven Arctic Council members, would examine the 
current state of Arctic infrastructure, how it measures up to current 
and future economic development needs, and recommend to governments 
what infrastructure investments they should consider in order to 
support sustainable economic development in the region such as oil and 
gas development, shipping, and tourism.
Arctic Fisheries
    The Department of State and other agencies are also working to 
advance our interests in the proper management of fisheries that may 
expand into the Arctic region. Over the past few years, two significant 
developments in the United States have encouraged us to take action on 
this matter. First, in 2008, Congress passed a Joint Resolution calling 
on the United States to work with other Arctic nations to develop one 
or more agreements for managing fisheries that may expand into new 
areas of the Arctic Ocean. Second, the United States took the 
unprecedented step of closing the portion of the U.S. Exclusive 
Economic Zone north of Alaska to new commercial fisheries--essentially 
because we do not yet have sufficient science and understanding of 
these Arctic ecosystems to manage new fisheries there appropriately.
    We have regularly engaged the other Arctic nations on this subject, 
both bilaterally and multilaterally. Last month, thanks primarily to 
the National Oceanic and Atmospheric Administration, the United States 
hosted a meeting of scientists to consider steps to improve our 
collective understanding of the marine environment in the Arctic so as 
to better predict when and where new fisheries may be possible. On a 
broader note, we are seeking agreement that nations should not 
authorize their vessels to fish in the high seas portion of the central 
Arctic Ocean until there is an adequate international mechanism in 
place for managing fisheries in that area.
International Science Cooperation
    We are benefiting from the increased investment in science during 
the International Polar Year (2007-2009). The intensified IPY science 
and education activities, coordinated by the U.S. National Science 
Foundation on behalf of many U.S. agencies, invigorated international 
science cooperation in polar regions. These enduring international 
science partnerships, that are fostered under science and technology 
agreements coordinated by the State Department as well as memoranda of 
understanding between research entities in the U.S. and foreign 
partners, advance diplomacy in the Arctic region. Moreover, joint 
international science activities leverage the U.S. ability to achieve 
understanding of the environment that underpins our economic activities 
in the Arctic.
Law of the Sea Convention
    Finally, we could significantly advance our economic interests in 
the Arctic by joining the Law of the Sea Convention.
    The Law of the Sea Convention provides the basic legal framework 
applicable to such activities, including the rules applicable to 
navigation, the determination of the outer limits of the continental 
shelf, fishing, environmental protection (including in ice-covered 
areas), and marine scientific research.
    Unfortunately, the Convention remains a key piece of unfinished 
treaty business for the United States.
    Of course the Convention's provisions are highly favorable to U.S. 
national security interests, because navigational rights and freedoms 
across the globe for our ships and aircraft are vital to the projection 
of sea power.
    In addition, the Convention's provisions are highly favorable to 
U.S. economic interests, in the Arctic and elsewhere.
    First, the Convention provides the legal certainty and 
predictability that businesses depend upon.
    Second, it sets forth rules that promote and protect their 
interests.

  <bullet> The Convention gives coastal States an exclusive economic 
        zone (EEZ) extending 200 nautical miles offshore, encompassing 
        diverse ecosystems and vast natural resources such as 
        fisheries, energy, and other minerals. The U.S. EEZ is the 
        largest in the world, spanning over 13,000 miles of coastline 
        and containing 3.4 million square nautical miles of ocean--
        larger than the combined land area of all fifty states.

  <bullet> The Convention also gives coastal States sovereign rights 
        for the purpose of exploiting and managing resources of the 
        continental shelf, which can extend beyond 200 nautical miles 
        if certain criteria are met. The United States is likely to 
        have one of the world's largest continental shelves, 
        potentially extending beyond 600 nautical miles off Alaska. 
        Only as a Party could we take advantage of the treaty procedure 
        that provides legal certainty and international recognition of 
        the U.S. continental shelf beyond 200 nautical miles.

  <bullet> The Convention provides a mechanism for U.S. companies to 
        obtain access to minerals of the deep seabed in areas beyond 
        national jurisdiction.

  <bullet> The Convention guarantees the ability to lay and maintain 
        submarine cables and pipelines in the EEZs and on the 
        continental shelves of other States and on the high seas.

  <bullet> The Convention secures the rights we need for commercial 
        ships to export U.S. commodities and protects the tanker routes 
        through which half of the world's oil moves.

  <bullet> The Convention is the foundation upon which rules for 
        sustainable international fisheries are based.

    More broadly, U.S. accession is a matter of geostrategic importance 
in the Arctic, in terms of both symbolism and substance. We are the 
only member of the Arctic Council that is not a Party. We are the only 
State bordering the Arctic Ocean that is not in a position to fully 
secure our continental shelf rights. We need to be a Party to the 
treaty to have the level of influence in the interpretation, 
application, and development of law of the sea rules that reflects our 
maritime status. We need to be a Party to the treaty to fully claim our 
rightful place as an Arctic nation.
    The United States has been an Arctic nation since the Alaska 
purchase in 1867. Although many Americans do not think about our 
country in connection with the Arctic, those of us in Alaska and in 
Washington, D.C. think about it a lot, and we are working hard to 
preserve this beautiful, pristine place, increase its resilience, and 
protect our important interests there.

    Senator Begich. Thank you very much, Ambassador.
    What I'd like to do now is, Admiral Papp.

  STATEMENT OF ADMIRAL ROBERT J. PAPP, JR., COMMANDANT, U.S. 
                          COAST GUARD

    Admiral Papp. Good morning, Chairman Begich and Senator 
Snowe. It's good to see you both again and thank you for having 
me up here for this hearing, and for your continuing support of 
our Coast Guard, especially our hardworking Coast Guard men and 
women. As I previously stated, it's my highest honor to lead 
and represent them.
    America is a maritime nation. Most of our citizens are 
keenly aware of the importance of our oceans. But America is 
also an Arctic nation. However, few Americans outside of Alaska 
are aware that we are also an Arctic nation, largely because 
the northern Arctic waters have been frozen and inaccessible.
    But rapid change is occurring, as has been noted here. 
Arctic ice is diminishing and in summer months an entire new 
ocean is emerging. These waters are spurring an increase in 
human activities, such as natural resource exploration, 
shipping, and ecotourism.
    For more than 221 years, our nation has relied upon the 
U.S. Coast Guard to protect those on the sea, to protect 
against threats delivered by the sea, and even protect the sea 
itself. Our challenge today is to ensure we have a Coast Guard 
capable of meeting these same responsibilities in this new 
area.
    However, posturing our forces to do so presents us with 
many challenges. Operations in the Arctic's extreme cold, 
darkness, and ice-infested waters require specialized 
equipment, infrastructure, and training. Our current Arctic 
capabilities are very limited. We have only one operational 
icebreaker. We do not have any coastal or shoreside 
infrastructure. We do not have a seasonal base to even hangar 
our aircraft or to sustain our crews.
    By way of example, after assuming my watch as Commandant 
last May one of the first things I did was to travel to the 
Arctic. One of the places I visited, along with you, Mr. 
Chairman, was Barrow, but we did not stay overnight. Next week 
I'm headed back up to the Arctic and I will return to Barrow. 
This time I'm planning to remain overnight. But it's also been 
a real challenge to find enough lodging even for our small 
travel party. Imagine if we had to mount a major pollution 
response. We'd have to create our own infrastructure.
    Last spring, a Russian ice camp unexpectedly broke up 630 
miles north of Point Barrow, within the U.S. search and rescue 
area of responsibility. Russia sent one of their icebreakers to 
respond. If we'd been asked to respond within our SAR area of 
responsibility, we could not have done so. Indeed, had it been 
a U.S. team we would likely have had to request a foreign 
icebreaker to conduct the rescue.
    This case highlights the need for sufficient Arctic surface 
capabilities. When weather prevents planes from flying, you 
need ice-capable ships to perform search and rescue. Ice-
capable ships will also be required to conduct any Arctic 
pollution response.
    The threat posed by the increase in Arctic shipping traffic 
is also very real and expanding. The use of Russia's northern 
sea route is increasing and in 2009 Russian icebreakers 
escorted the first several ships through the passage. Last 
year, in 2010, for the first time in modern history the 
northern sea route was completely ice-free and at least eight 
vessels transited through the passage. This year Russia is 
planning to do at least 15 escorts, including six convoys with 
oil tankers, as well as cargo vessels and bulk tankers.
    While this represents a moderate increase in traffic, all 
vessels sailing the northern route will have to exit into the 
Bering Sea. Therefore we have undertaken a Bering Strait port 
access route study to determine the navigational, vessel 
traffic, and other safety requirements.
    The bottom line is that shipping traffic through the waters 
containing our richest fisheries is on the rise. The Arctic is 
also rich in natural gas and oil. Oil companies continue to bid 
on leases in the Beaufort and Chukchi Sea. Royal Dutch Shell is 
seeking permits to drill five exploratory wells in the Chukchi 
and Beaufort Seas and other oil companies plan to submit 
exploration plans.
    Although private industry may assert they're adequately 
prepared to respond to a spill, we must also determine what 
response capability our Coast Guard and nation needs so we can 
mount an adequate response as exploration advances toward 
production.
    Arctic governance is also a challenge. The Law of the Sea 
Convention has emerged as the governing legal framework. 
However, the United States is the only Arctic nation that has 
yet to accede to the Law of the Sea Treaty. In order to 
exercise leadership and make claims to the extended continental 
shelf and effectively interact with other Arctic nations, we 
urgently need the Senate to accede to the treaty.
    Arctic waters are not limited to north of the Bering Sea, 
but also encompass the Bering Sea north of the Aleutian 
Islands. Our ability to provide persistent presence and operate 
in the harsh Bering Sea is essential to the protection of our 
fish stocks, our fishermen, and our fishing industry. This is a 
$4.6 billion industry that is responsible for thousands of 
jobs.
    Completion of our National Security Cutter is vital to our 
ability to continue this high seas mission. National Security 
Cutter Number 1, the Cutter BERTHOLF, just finished her first 
Alaska patrol, exhibiting remarkable seakeeping ability that 
enabled her to launch and recover her boats, boarding teams, 
and helicopters in sea states that would have challenged our 
existing legacy cutters.
    National Security Cutter Number 2, the Waesche, is 
completed and operating. Number 3, the Stratton, which was 
christened by the First Lady in July of 2010, is complete and 
undergoing builder's trials, and steel is being cut on Number 
4, and I'm going down to Pascagoula on Friday to see Numbers 3 
and 4. And I'm pleased to announce that we're completing our 
purchase negotiations on Number 5.
    But a stable, predictable funding strategy for the three 
remaining National Security Cutters will provide incentive for 
the shipbuilder for advantages in pricing, and we definitely 
need at least eight National Security Cutters to preserve our 
future ability to patrol the high seas, not just in the Bering 
Sea, but also to confront threats in other high seas 
approaches, such as illicit drug trafficking in the Eastern 
Pacific Ocean.
    You now have in hand our recently completed High Latitude 
Study. This is an outstanding first-time broad-based look at 
all our missions in the high latitude regions. This will serve 
as a building block to help look strategically at our 
requirements and risks in what is becoming one of the most 
important new regions of the world.
    The Department of Homeland Security Science and Technology 
Directorate, in cooperation with the U.S. Arctic Research 
Commission, is also assisting in studying our future needs for 
the Arctic infrastructure, communication and sensors.
    In the 1600s the British writer Thomas Fuller declared, 
``He that will not sail 'til all the dangers are over must 
never put to sea.'' Senators, I'm a sailor. The dangers, risks, 
and challenges of the Arctic exist. It's time to address them 
and we must put to sea.
    So thank you for this opportunity to testify today and I 
look forward to your questions.
    [The prepared statement of Admiral Papp follows:]

          Prepared Statement of Admiral Robert J. Papp, Jr., 
                      Commandant, U.S. Coast Guard
    Good morning, Chairman Rockefeller, Ranking Member Hutchison and 
distinguished members of the Committee. I am pleased to be here today 
to discuss the Coast Guard's operational presence in the Arctic. I 
thank you for the opportunity to testify before you today.
An Evolving Arctic
    The United States is an Arctic Nation, and the Coast Guard has been 
operating in the Arctic Ocean since Alaska was a territory to assist 
scientific exploration, chart the waters, provide humanitarian 
assistance to native tribes, conduct search and rescue, and law 
enforcement. Today our mission remains remarkably similar to what it 
was in 1867; however, as open water continues to replace ice, human 
activity is increasing. With increasingly navigable waters, comes 
increased Coast Guard responsibility.
    Along with our statutory responsibilities, U.S. Arctic policy is 
set forth in the 2009 National Security Presidential Directive (NSPD) 
66/Homeland Security Presidential Directive (HSPD) 25. The Arctic 
Region Policy directive identifies objectives for the Arctic while 
acknowledging the effects of climate change and increased human 
activity. Importantly for Coast Guard, NSPD 66 specifically directs 
relevant agencies, including the Department of Homeland Security to 
work with other nations and through the IMO to provide for safe and 
secure Maritime Transportation in the Arctic. NSPD-66 also directs the 
Secretaries of State, Defense, and Homeland Security, in coordination 
with heads of other relevant executive departments and agencies to 
carry out the policy as it relates to national security and homeland 
security interests in the Arctic. Executive Order 13547 (National 
Policy for the Stewardship of the Ocean, Our Coasts, and the Great 
Lakes) adopts and directs Federal agencies to implement the 
recommendations of the Interagency Ocean Policy Task Force. These 
recommendations include, as one priority objective, identifying and 
implementing actions to address changing conditions in the Arctic 
through better stewardship. Coast Guard is moving forward to execute 
its responsibilities under these directives.
    The Coast Guard is the Nation's principal maritime safety, 
security, environmental protection and law enforcement entity. We have 
the lead role in ensuring Arctic maritime safety, security and 
stewardship. To meet NSPD 66's and EO 13547's direction, the Coast 
Guard is working closely with its many inter-agency partners, and 
Alaska State, local and tribal governments. For the past 4 years, we 
have been conducting limited Arctic operations during open water 
periods. However, we face many challenges. Some Arctic operations 
demand specialized vessels, aircraft, and crews trained to operate in 
extreme climate.
    Operationally, in order to meet the NSPD 66's and EO 13547's 
requirements, we need to determine our Nation's vessel requirements for 
transiting in ice-laden waters, consider establishing seasonal bases 
for air and boat operations, and develop a force structure that can 
operate in extreme cold and ice. As a matter of policy and stewardship, 
we encourage the Senate to ratify the Law of the Sea Treaty. Law of the 
Sea has become the framework for governance in the Arctic. Every Arctic 
Nation except the United States is a party. As our responsibilities 
continue to increase in direct proportion to the Arctic's emerging 
waters, it is more vital than ever that the U.S. ratified to Law of the 
Sea.
Arctic Trends
    The Arctic domain has been gaining national attention. Gradually 
increasing accessibility to waters previously covered by ice has 
increased the significance of maritime issues including freedom of 
navigation, offshore resource exploration and exploitation, and 
environmental preservation. Observations and trends relevant to USCG 
operations include:

  <bullet> Dynamic changes in ice conditions: The recession of the ice 
        edge continues to open new water in the summer months. While 
        there is less ice and more water, the unpredictable movement of 
        existing ice flows and uncharted waters beneath a previously 
        frozen sea could present risks to ships that venture into these 
        waters.

  <bullet> Offshore Resource Development: Oil companies such as Shell 
        are in the process of taking advantage of drilling and 
        exploratory opportunities in the Arctic. In May 2011, Shell 
        submitted a plan of exploration to the Bureau of Ocean Energy 
        Management Regulation and Enforcement (BOEMRE) that details 
        company plans to drill exploratory wells in the Chukchi Sea 
        beginning in 2012. Other companies, including ConocoPhillips 
        and Statoil, own leases on the Arctic outer continental shelf 
        and may submit exploration plans as well. Shell is currently in 
        the process of retrofitting a mobile offshore drilling unit 
        (MODU), the Kulluk, designed for drilling in the offshore 
        Arctic environment and plans to have the drilling platform 
        operational in the spring of 2012.

  <bullet> Fish Stock Migration: As the ice edge recedes and water 
        temperatures change, there have been anecdotal reports that 
        fish stocks are moving northwest. The North Pacific Fishery 
        Management Council is currently conducting a study to gather 
        more reliable data on fish stock migrations. The Bering Sea 
        remains one of the world's richest biomasses, and if fish 
        stocks are in fact migrating north, fisherman will follow, 
        which could lead to increased foreign incursions into the U.S. 
        EEZ.

  <bullet> Extended Continental Shelf: This summer marks the fourth 
        year the U.S. Coast Guard Cutter (CGC) HEALY and the Canadian 
        icebreaker LOUIS S. ST. LAURENT will work together to collect 
        seismic and bathymetric data in the Arctic Ocean. This data is 
        necessary to delineate the outer limits of the continental 
        shelf beyond 200 nautical miles according to the criteria set 
        forth in the Law of the Sea Convention.]
Supporting Execution of the National Arctic Policy Objectives
    The vast Arctic is primarily a maritime environment and the U.S. 
Coast Guard has the same responsibilities in the Arctic Ocean as it 
does in all other waters it patrols. The Arctic, more so than any other 
ocean, is environmentally fragile, lacks infrastructure, and remains a 
very harsh operating environment. At the same time, within the risk 
reduction framework that drives our allocation of assets and resources, 
we recognize that the Arctic poses greater long-term planning 
challenges that overshadow the immediate tactical challenges we face 
today.
    Given the scope of these challenges, we have adopted a ``whole of 
government'' approach and are leveraging international partnerships to 
pursue our interests. The Coast Guard's strategic approach is to ensure 
we pursue the capability to perform our statutory missions so we can 
ensure the Arctic is safe, secure, and environmentally sustainable. 
This strategy is consistent with our Service's approach to performing 
its Maritime Safety, Security and Stewardship functions. In accordance 
with our risk reduction framework, we will do our part to build legal 
regimes, domain awareness, and a force structure that can operate in 
extreme cold and ice.
    Our approach also accounts for seasonal changes and conditions in 
the environment. While the Arctic is increasingly open in warmer 
months, its waters remain mostly ice-covered.
Meeting Homeland Security Needs in the Arctic
    As part of a multi-agency effort to implement the Arctic Region 
Policy, we continue to push forward and assess our Arctic operational 
limits. In 2008, 2009 and 2010 we set up small, temporary Forward 
Operating Locations on the North Slope in Prudhoe Bay, Nome, Barrow and 
Kotzebue, AK to conduct pulse operations with Coast Guard boats, 
helicopters, and Maritime Safety and Security Teams. We also deployed 
our light-ice capable 225-foot ocean-going buoy tenders to test our 
equipment, train our crews and increase our awareness of activity. 
Additionally, from April to November we fly two aircraft sorties a 
month to evaluate private, commercial, and governmental activities. 
These initial missions have provided valuable information that we are 
applying to future operations, infrastructure requirements and force 
structure development.
Protecting the Maritime Environment
    To protect the Arctic environment, we engage industry and the 
private sector to address their significant responsibilities for 
pollution prevention, preparedness, and response capability. 
Recognizing that pollution response is significantly more difficult in 
cold, ice and darkness, enhancing preventative measures is critical. 
Those engaging in offshore commercial activity in the Arctic must also 
plan and prepare for emergency response in the face of a harsh 
environment, long transit distances for air and surface assets and 
limited response resources. We continue to work to facilitate 
awareness, contingency planning, and communications.
    While prevention is critical, USCG must be able to respond to 
pollution incidents where responsible parties are not known or fail to 
adequately respond. We have exercised the Vessel of Opportunity 
Skimming System (VOSS) and the Spilled Oil Recovery System (SORS) in 
Alaskan waters, but we have yet to conduct exercises north of the 
Arctic Circle. Both of these systems enable vessels to collect oil in 
the event of a discharge. The VOSS is deployable and capable of being 
used on a variety of ships and the SORS is permanently stored and 
deployed from the Coast Guard's 225-foot ocean-going buoy tenders. 
However, these systems have limited capacity and are only effective in 
ice-free conditions.
    The Coast Guard needs to test and evaluate these systems in icy 
waters. Notably, the President's Fiscal Year 2012 Budget supports 
research and development work, including research on oil detection and 
recovery in icy water conditions.
    Fisheries are also a major concern. The National Marine Fisheries 
Service, based on a recommendation from the North Pacific Fisheries 
Management Council, has imposed a moratorium on fishing within the U.S. 
EEZ north of the Bering Strait until an assessment of the practicality 
of sustained commercial fishing is completed. Regardless of the outcome 
of this assessment the Coast Guard will continue to carry out its 
mission to enforce and protect living marine resources in this region.
Facilitating Safe, Secure, and Reliable Navigation
    We continue to update our Waterways Analysis and Management System 
to determine navigational requirements, vessel traffic density and 
appropriate ship routing measures. We are also moving forward with a 
Bering Strait Port Access Routing Study, which is a preliminary 
analysis to determine navigational and vessel traffic and other safety 
requirements. This study is in the initial phase and, because the 
Bering Strait is an international Strait, we require coordination with 
the Russian Federation before we can forward it to the International 
Maritime Organization (IMO) for consideration.
Supporting Multi-Agency Arctic Region Policy Implementation
    The Coast Guard continues to support international and multilateral 
organizations, studies, projects and initiatives. We are actively 
working with the Arctic Council, IMO and their respective working 
groups. We are also conducting joint contingency response exercises 
with Canada and we maintain communications and working relationships 
with Canadian and Russian agencies responsible for regional operations 
including Search and Rescue (SAR) and law enforcement. Additionally, 
Secretary of State Hillary Clinton recently signed an Arctic SAR 
agreement, which memorialized the intent of all Arctic nations to 
cooperate in SAR operations. We will continue to engage Arctic nations, 
international organizations, industry and Alaskan state, local and 
tribal governments to strengthen our partnerships and inter-
operability.
    In particular, our engagement with Alaska Native Tribes continues 
to be highly beneficial. Our efforts to learn from their centuries of 
traditional knowledge--and their willingness to share it with us--have 
made our operations safer and more successful. This year, we are again 
conducting small-scale visits to tribes in remote villages on the North 
Slope and along northwestern Alaska to conduct boating safety exchanges 
and provide medical, dental, and veterinary care. We are working hard 
to ensure tribal equities are recognized, considered and indigenous 
peoples and their way of life are protected to the greatest extent 
possible. We look forward to continuing to strengthen our partnerships 
with our Native Alaskan friends.
    CGC HEALY is presently supporting Arctic research efforts 
throughout the summer and into early fall. These operations are 
supporting research by the National Aeronautics and Space 
Administration (NASA), Naval Research Lab, National Science Foundation, 
Office of Naval Research, and the Department of State. Presently, NASA 
scientists are aboard CGC HEALY conducting their ICESCAPE mission--
``Impacts of Climate on Ecosystems and Chemistry of the Arctic Pacific 
Environment'' to study the impacts of climate change in the Chukchi and 
Beaufort seas. NASA does part of this mission from space--but also 
needs ``boots on the ice'' to better understand their satellite data in 
this complex and emerging region.
Law of the Sea Treaty
    All other Arctic nations and most other nations worldwide have 
acceded to the Law of the Sea Treaty. Arctic nations are using the 
treaty's provisions in Article 76 to file extended continental shelf 
claims with the U.N. Commission on the Limits of the Continental Shelf 
(CLCS) in order to expand the territory over which they have exclusive 
rights to resources on and beneath the Arctic seabed. If the U.S. made 
an extended continental shelf claim, we could potentially assert 
sovereignty over 240 miles of additional seabed territory out to 440 
miles from our land base line, far beyond the existing 200 nautical 
mile Exclusive Economic Zone. This area reportedly contains some of the 
richest, undiscovered deposits of oil and natural gas in the Arctic. 
However, until the U.S. accedes to the Law of the Sea Treaty, it is 
unlikely CLCS will entertain any U.S. submission of an extended 
continental shelf claim. Acceding to the Law of the Sea Treaty also 
provides us with standing to work within the Law of the Sea Convention 
framework with other Arctic Nations on issues such as environmental 
stewardship. As such, I join with a number of other senior 
Administration, military, industry, and academic leaders in supporting 
favorable action on the part of the U.S. Senate to accede to the Law of 
the Sea Treaty.
Current Arctic Capacities and Limitations
    The U.S. Coast Guard's extensive history of Arctic service provides 
both experience and an expansive network of governmental, non-
governmental, and private partnerships to draw upon. However, while our 
summer operations continue to provide valuable lessons and help us gain 
insights regarding the Arctic, we must acknowledge the seasonal 
limitation of these efforts and the fact that we still have much to 
learn about Arctic operations.
    There are few national assets capable of operating in the harsh 
Arctic maritime environment. As new capabilities are developed, the 
Coast Guard will work to ensure its force structure is appropriately 
sized, trained, equipped, and postured to meet its Arctic mission 
requirements. Currently, the Coast Guard has one operational ice 
breaker, the 11-year-old HEALY, a medium icebreaker or PC3, 
specifically adapted for scientific research. Our two heavy polar ice 
breakers are not operational. The 34-year-old POLAR SEA has been out of 
commission due to a major engineering casualty, and is now in the 
process of being decommissioned. The 35-year-old POLAR STAR, which has 
been in a caretaker status since 2006, is currently undergoing a major 
reactivation project, funded by 2009 and 2010 appropriations, and is 
expected to be ready for operations in 2013. Surface capability is 
vital to meet our responsibilities in the region. Although the risk of 
an incident in ice-covered U.S. waters is currently low, our Nation 
must plan for ice capable assets in the future that can effectively 
carry out search and rescue and environmental response in ice-laden 
waters. In the near term, the Coast Guard can utilize the HEALY to 
manage the response or rely on our foreign arctic partners that have 
icebreakers operating in the area.
    The Coast Guard's most immediate operational requirement, however, 
is infrastructure. Energy exploration is underway on the North Slope of 
Alaska, but the existing infrastructure is extremely limited. We need a 
seasonal facility to base our crews, hangar our aircraft and protect 
our vessels in order to mount a response.
Conclusion
    With an emerging Arctic Ocean come increased national operational 
responsibilities. National Security Presidential Directive (NSPD) 66/
Homeland Security Presidential Directive (HSPD) 25 and Executive Order 
13547 direct Coast Guard developing mission objectives. We also must 
meet our persistent statutory responsibilities. To meet these 
objectives and responsibilities, we have much work to do.
    We must build toward a level of mission performance and 
preparedness commensurate with the relative risks posed by Arctic 
activity; we must continue working amongst the interagency to refine 
future mission requirements, identify the precise mix of national 
assets, capabilities and infrastructure needed to meet these 
requirements, and look for collocation opportunities. We must continue 
to seek out opportunities with our Arctic neighbors and the global 
community to address the critical issues of governance, sovereignty, 
environmental protection, and international security.
    While there are many challenges, the increasingly wet Arctic Ocean 
also presents unique opportunities. The relatively undeveloped 
infrastructure, current low commercial maritime activity levels, and 
developing governance structure provide an opening to engage in 
proactive, integrated, coordinated, and sustainable U.S. and 
international initiatives. We look forward to working with the Congress 
on how we can support our national objectives and responsibilities in 
the emerging Arctic Ocean.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Senator Begich. Thank you very much, Admiral.
    The next person is Rear Admiral Titley, please.

            STATEMENT OF REAR ADMIRAL DAVID TITLEY,

            OCEANOGRAPHER OF THE NAVY AND DIRECTOR,

                   TASK FORCE CLIMATE CHANGE

    Admiral Titley. Thank you, sir. Senator Begich, Senator 
Snowe, Senator Klobuchar, colleagues: I wish to thank you for 
the opportunity to address you today regarding the Navy's 
interests, capabilities, responsibilities with respect to the 
changing Arctic.
    My name is Rear Admiral David Titley. I'm the Oceanographer 
of the Navy and the Director of the Navy's Task Force on 
Climate Change. I've submitted a written statement and request, 
sir, to include that in the record.
    Senator Begich. Without objection.
    Admiral Titley. Task Force Climate Change--the Chief of 
Naval Operations in 2009 in May established Task Force Climate 
Change to address the implications of climate change for 
national security and naval operations, with a near-term focus 
on the Arctic. Today I'm speaking about the Navy's strategic 
Arctic vision and Arctic road map.
    As both the Chairman and Ranking Member noted, the U.S. is 
a maritime nation and the Arctic is a maritime environment. The 
Navy is watching with great interest the changing environment 
in this region. Despite a consistent downward trend in Arctic 
sea ice extent and volume, the Arctic will remain ice-covered 
in the winter throughout this century and remains a very 
challenging operating environment at any time of year.
    The changing Arctic has important national security 
implications for the Navy. As you mentioned, Mr. Chairman, it 
is the opening of the fifth ocean, and what I like to say 
sometimes is this is for the first time in 500 years that the 
West has had a new ocean. The last time this happened was due 
to the actions of a gentleman named Columbus.
    Strategic guidance on the Arctic is articulated in National 
Security Presidential Directive 66, the Arctic region policy. 
The 2010 national security strategy and the 2010 Quadrennial 
Defense Review and the National Maritime Strategy provide 
additional strategic guidance on the Arctic.
    The Office of the Secretary of Defense recently released a 
report to Congress on Arctic operations and the Northwest 
Passage. This report states: ``The overarching strategic 
national security objective is a stable and secure region where 
U.S. national interests are safeguarded and the U.S. homeland 
is protected.''
    Potential impacts of a changing Arctic require adaptation 
efforts that are informed by the best possible science and 
initiated at the right time and cost. The Arctic report to 
Congress also states: ``Existing Department of Defense posture 
in the region is adequate to meet near to mid-term U.S. defense 
needs.''
    The report recognizes that assured Arctic access to support 
national interests could be provided by a variety of proven 
capabilities, including submarines and aircraft. The challenge 
is to balance the risk of being late to need with the 
opportunity cost of making premature Arctic investments.
    Navy action in the Arctic is guided by its Arctic roadmap, 
which was released in November 2009. Navy Arctic strategic 
objectives, released in May 2010, specify the objectives 
required to ensure the Arctic remains a stable and secure 
region. These objectives are aligned with Department of Defense 
priorities.
    The Navy is actively leveraging interagency, international, 
and academic partnerships to ensure it has access to the best 
science and information and to avoid duplication of effort. The 
Navy engages regularly and has friendly relations with all 
Arctic nations.
    To echo the comments of both Ambassador Balton and Admiral 
Papp, international relations are enhanced immeasurably by the 
rule of law. The United Nations Convention on the Law of the 
Sea provides that rule of law, which would help our forces best 
to protect United States interests in the Arctic. The Chief of 
Naval Operations iterated his support before the Congress 
several months ago in his Fiscal Year 2012 posture statement, 
recognizing that it is essential that the United States become 
a full party to the treaty.
    The Arctic is an ocean in the midst of rapid change, which 
is likely to change the nature of human maritime activity in 
that region. The Navy's job is to maintain readiness to operate 
in every ocean as required. The Navy understands the challenges 
and opportunities that a changing Arctic environment presents 
to its missions. We are conducting the assessments necessary to 
inform future investments and are initiating adaptation 
activities in areas where we have enough certainty with which 
to proceed.
    Thank you, Mr. Chairman, and I look forward to answering 
any questions the Subcommittee might have.
    [The prepared statement of Admiral Titley follows:]

 Prepared Statement of Rear Admiral David Titley, Oceanographer of the 
               Navy, Director, Task Force Climate Change
    Mr. Chairman, members of the Subcommittee and distinguished 
colleagues, I want to thank you for the opportunity to address you 
today regarding the Navy's interests, capabilities, and 
responsibilities with respect to the changing Arctic. My name is Rear 
Admiral David Titley and I am the Director of Navy's Oceanography, 
Space, and Maritime Domain Awareness programs, Oceanographer of the 
Navy and the Director of Navy's Task Force Climate Change. The Chief of 
Naval Operations, Admiral Gary Roughead, established Task Force Climate 
Change in May of 2009 to address implications of climate change for 
national security and naval operations with a near-term focus on the 
Arctic. Today I am speaking about the Navy's strategic Arctic vision 
and Arctic Roadmap.
    The U.S. is a maritime nation, and the Arctic is a maritime 
environment. The Navy is watching with great interest the changing 
environment in the Arctic. September 2007 saw a record low in sea ice 
extent and the declining trend has continued--September 2010 was the 
third lowest extent on record and the overall trend has shown an 11.2 
percent decline per decade in seasonal ice coverage since satellites 
were first used to measure the Arctic sea ice in 1979. Perhaps more 
significantly, estimates from the University of Washington's Applied 
Physics Lab show that the volume of sea ice continues to decrease 
dramatically. In September 2010, the ice volume was the lowest recorded 
at 78 percent below its 1979 maximum and 70 percent below the mean for 
the 1979-2009 period. Despite these changes to sea ice, the Arctic will 
remain ice covered in the winter through this century and will remain a 
very challenging operating environment. The changing Arctic has 
important national security implications for the Navy.
    Strategic guidance on the Arctic is articulated in National 
Security Presidential Directive (NSPD) 66/Homeland Security 
Presidential Directive (HSPD) 25, Arctic Region Policy.\1\ NSPD-66 
requires that naval forces be prepared to execute missions in the 
Arctic, including missile defense, strategic sealift, maritime presence 
and security, and freedom of navigation and overflight. The 2010 
National Security Strategy (NSS) and the 2010 Quadrennial Defense 
Review (QDR) provide additional strategic guidance on the Arctic. The 
QDR identifies the Arctic as the region where the influence of climate 
change is most evident in shaping the operating environment and directs 
DoD to work with the Coast Guard and Department of Homeland Security to 
address gaps in Arctic communications, domain awareness, search and 
rescue, and environmental observation and forecasting capabilities.
---------------------------------------------------------------------------
    \1\ Department of Defense, Office of the Undersecretary of Defense 
Policy. ``Report to Congress on Arctic Operations and the Northwest 
Passage.'' 19 May 2011.
---------------------------------------------------------------------------
    The Navy's Maritime Strategy identifies that new shipping routes 
within the Arctic have the potential to reshape the global 
transportation system. For example, the Bering Strait has the potential 
to increase in strategic significance over the next few decades as the 
ice melts and the shipping season lengthens, and the private sector 
begins to ship goods across the Arctic rather than through the Panama 
Canal. The Office of the Secretary of Defense recently released an 
``Arctic Report to Congress'' on Arctic operations that addresses 
strategic national security objectives, needed mission capabilities, an 
assessment of changing the Unified Command Plan (UCP), needed basing 
infrastructure, and the status of and need for icebreakers. This report 
states ``the overarching strategic national security objective is a 
stable and secure region where U.S. national interests are safeguarded 
and the U.S. homeland is protected.'' This objective is consistent with 
a regional policy that reflects the relatively low level of threat in a 
region bounded by nation states that have not only publicly committed 
to working within a common framework of international law and 
diplomatic engagement, but also demonstrated ability and commitment to 
doing so over the last fifty years.''
    The potential impacts of a changing Arctic require adaptation 
efforts that are informed by the best possible science, and initiated 
at the right time and cost. The Arctic Report to Congress also states:

        ``Existing DOD posture in the region is adequate to meet near- 
        to mid-term U.S. defense needs. DOD does not currently 
        anticipate a need for the construction of a deep-draft port in 
        Alaska between now and 2020. Given the long lead times for 
        construction of major infrastructure in the region, DoD will 
        periodically re-evaluate this assessment as the Combatant 
        Commanders update their regional plans on a regular basis.

        The United States needs assured Arctic access to support 
        national interests in the Arctic. This access can be provided 
        by a variety of proven capabilities, including submarines and 
        aircraft, but only U.S.-flagged ice-capable ships provide 
        visible U.S. sovereign maritime presence throughout the Arctic 
        region. Significant uncertainty remains about the rate and 
        extent of climate change in the Arctic and the pace at which 
        human activity will increase. The challenge is to balance the 
        risk of being late-to-need with the opportunity cost of making 
        premature Arctic investments. Not only does early investment 
        take resources from other pressing needs, but the capabilities 
        would be later in their lifecycle when finally employed. Given 
        the many competing demands on DOD's resources in the current 
        fiscal environment, the Department believes that further 
        evaluation of the future operating environment is required 
        before entertaining significant investments in infrastructure 
        or capabilities.''

    The Navy is already conducting further evaluation, guided by its 
``Arctic Roadmap'' that was released in November 2009. This Roadmap is 
a five-year plan that details specific action items related to 
assessing current readiness for Arctic operations, increasing 
operational experience through Arctic and sub-Arctic training 
exercises, increasing collaborative efforts with joint, interagency, 
and international stakeholders for operations and training, and 
improved environmental understanding. The Navy Arctic Strategic 
Objectives, released in May 2010, specify the objectives required to 
ensure the Arctic remains a stable and secure region where U.S. 
national and maritime interests are safeguarded and the homeland is 
protected.
    In the summer of 2010, the Navy participated in the national 
security portion of Canada's largest annual Arctic exercise, Operation 
NANOOK/NATSIQ, which provided our sailors valuable operating 
experiencing in the region. In March 2011 the Navy conducted its 
biennial ice exercise ICEX organized by the Navy's Arctic Submarine 
Lab, which allows the collection of valuable scientific data used by 
the Navy, Federal Government, and academic researchers to understand 
and better predict changing conditions in the region. The Navy has 
gathered experts at the Naval War College and other institutions to 
think through future scenarios, specifically focused on the Arctic 
region. The Navy is currently conducting a Capabilities Based 
Assessment for the Arctic to identify capabilities required for future 
operations in the region and possible capability gaps, shortfalls, and 
redundancies. Assessments such as these will inform Navy strategy, 
policy, and plans to guide future investments.
    Furthermore, the Navy is actively leveraging interagency, 
international, and academic partnerships to ensure it has access to the 
best science and information and to avoid duplication of efforts. We 
are participating, in coordination with appropriate DoD offices and the 
Coast Guard, in many of the interagency efforts focused on the Arctic, 
including the Interagency Arctic Research Policy Committee chaired by 
the National Science Foundation, the National Ocean Council's Arctic 
Strategic Action Plan, and the Arctic Policy Group coordinated by the 
State Department. As an example, the Office of Naval Research has 
developed initiatives that will improve monitoring and prediction of 
critical environmental changes in the Arctic, including the marginal 
ice zone in which the Navy and Coast Guard may be required to operate. 
The President requested funding for these initiatives in his FY12 
budgets. Finally, the Navy engages regularly with and has friendly 
relations with all Arctic nations.
    International relations are enhanced immeasurably by the rule of 
law. This is especially true in an austere environment like the Arctic, 
where access by U.S. forces in times of need is more challenging. The 
Law of the Sea Convention provides that rule of law which would help 
our forces best protect U.S. interests in the Arctic. However, our 
Nation has still not acceded to this important treaty. As stated by the 
Chief of Naval Operations before Congress several months ago in his 
FY12 posture statement:

        ``The Law of the Sea Convention provides a regime with robust 
        global mobility rules. I believe it essential that the United 
        States become a full Party to the treaty. The Convention 
        promotes our strategic goal of free access to and public order 
        on the oceans under the rule of law. It also has strategic 
        effects for global maritime partnerships and American maritime 
        leadership and influence. Creating partnerships that are in the 
        strategic interests of our Nation must be based on 
        relationships of mutual respect, understanding, and trust. For 
        the 160 nations who are parties to the Law of the Sea 
        Convention, a basis for trust and mutual understanding is 
        codified in that document. The treaty provides a solid 
        foundation for the U.S. to assert its sovereign rights to the 
        natural resources of the sea floor out to 200 nautical miles 
        and on the extended continental shelf beyond 200 nautical 
        miles, which in the Arctic Ocean is likely to extend at least 
        600 nautical miles north of Alaska. As a non-Party to the 
        treaty, the U.S. undermines its ability to influence the future 
        direction of the law of the sea. As the only permanent member 
        of the U.N. Security Council outside the Convention, and one of 
        the few nations still remaining outside one of the most widely 
        subscribed international agreements, our non-Party status 
        hinders our ability to lead in this important area and could, 
        over time, reduce the United States' influence in shaping 
        global maritime law and policy. The Law of the Sea Convention 
        provides the norms our Sailors need to do their jobs around the 
        world every day. It is in the best interest of our Nation and 
        our Navy to ratify the Law of the Sea Convention. We must 
        demonstrate leadership and provide to the men and women who 
        serve in our Navy the most solid legal footing possible to 
        carry out the missions that our Nation requires of them.''

    In conclusion, I will borrow a quote from Dr. John Holdren, 
Assistant to the President for Science and Technology, who says, ``We 
must avoid the unmanageable, and manage the unavoidable.'' The Arctic 
is an ocean in the midst of rapid change, which is likely to change the 
nature of human maritime activity in that region. The Navy's job is to 
maintain readiness to operate in every ocean as required. The Navy 
understands the challenges and opportunities that a changing Arctic 
environment presents to its missions. We are conducting the assessments 
necessary to inform future investments and are initiating adaptation 
activities in areas where we have enough certainty with which to 
proceed. Thank you Mr. Chairman and I look forward to answering any 
questions the Subcommittee may have.

    Senator Begich. Thank you all very much, and thank you for 
your opening statements. It's an impressive panel, and what 
we'll do is we'll probably have two rounds of 5 minutes each of 
questions. I'll start with the Ranking Member and then again 
we'll do 5 minutes each, and then do probably a second round, 
depending on where the discussion goes.
    Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman.
    Admiral Papp, I mentioned earlier in my statement your 
response to a question that was posed by Chairman Begich in the 
last hearing about what keeps you up at night--and this was 
obviously a serious concern about what could happen up in the 
Arctic. How does the Arctic Council's search and rescue 
initiative support the Coast Guard's mission requirements in 
the Arctic?
    Admiral Papp. The search and rescue agreement sets us up 
with the boundaries for each country, the area that they're 
responsible for, sets up regimes for communication and 
cooperation between the countries in the Arctic, and then there 
are still some responsibilities, though, that have to be 
fulfilled by the nation itself.
    So the challenge that I find is, while we have the regimes 
in place now by signing the treaty, I need the resources to be 
able to carry out those responsibilities in the Arctic. We were 
confronted by this just 2 weeks ago when there was a report of 
about 2 dozen fishermen from Barrow that were stuck out on the 
ice. The ice broke away. We had to send a helicopter from down 
in Kodiak, which is about a 1,000-mile trip over three mountain 
ranges, to get up there to perform a rescue.
    Fortunately, they have a small helicopter that's up on the 
North Slope, that was able to go out there very precariously 
and get the people off. But if we had had to respond, it would 
have been very difficult and put their lives at risk.
    Senator Snowe. Not to mention weather conditions, if they 
had been vastly different as well.
    So how long did that helicopter ride take from Kodiak?
    Admiral Papp. Actually, it takes them hours, and I don't 
have the exact number of hours. We were able to turn around 
before getting there because the other helicopter that's up 
there was able to recover the people off the ice. But we 
essentially have to fly up there and then have to refuel and 
then prosecute the case and, as I've stated before, there's 
very few facilities for us up on the North Slope once you get 
there.
    Senator Snowe. How many search and rescue cases have the 
Coast Guard been able to respond to?
    Admiral Papp. We--ma'am, I don't have any data or 
statistics on that. I would have to get back to you on that. 
There are cases that we've been unable to respond; other people 
have carried it out.
    The other challenge we find up there is we just don't know 
what we don't know. We've worked with the people in the 
villages and in the towns up there and in fact as we've studied 
the culture many times they have a belief that if they fall 
into the water it is preordained that they were supposed to 
fall in. We have tried to convince them to do things like 
wearing life jackets, which we've been somewhat successful at 
doing. But it's an entire change of culture.
    So we don't know how many have been lost up there over the 
years, and we have no way of communicating up there. So it's 
very difficult to find out in a timely fashion when something 
happens and how we would get up there.
    Senator Snowe. I think it would be helpful for the 
Committee to know exactly how many you were not able to respond 
to and where the Coast Guard had to rely on others to prosecute 
those rescues. Because I think it is critical.
    Admiral Papp. We'll be glad to provide that.
    [The information requested follows:]

    For FY 2008-2010, there were 296 Alaskan Search and Rescue (SAR) 
cases that required assistance from other government agencies, 
industry, and/or good Samaritans. Of these 296 Alaskan SAR cases that 
required assistance from other government agencies, industry, and/or 
good Samaritans, 46 were in the Arctic.

    Senator Snowe. On the High Latitude Study, do you agree 
with--and I'd like to also hear from you, Admiral Titley, as 
well--on the findings of requirements for Coast Guard vessels? 
As I understand it, the recommendation included three medium 
icebreakers. Am I correct in saying that, three medium 
icebreakers?
    Admiral Papp. I agree with the mission analysis. As you 
look at the requirements for the things that we might do up 
there if it's in the nation's interests, it identifies a 
minimum requirement for three heavy icebreakers and three 
medium icebreakers. Then if you want a persistent presence up 
there, it would require--and also doing things such as breaking 
out McMurdo and other responsibilities--then it would take up 
to a maximum of six, six heavy, and four medium.
    Senator Snowe. Right. Do you agree with that?
    Admiral Papp. If we were to be charged with carrying out 
those full responsibilities, yes, ma'am, those are the numbers 
that you would need to do it.
    Senator Snowe. Admiral Titley, how do you respond to the 
High Latitude Study? Has the Navy conducted its own assessment 
of its capabilities?
    Admiral Papp. Ma'am, we are in the process right now of 
conducting what we call a capabilities-based assessment, that 
will be out in the summer of this year. We're getting ready to 
finish that up.
    The Coast Guard has been a key component of the Navy's task 
force on climate change literally since day one, when the Chief 
of Naval Operations set this up. That morning, we had the Coast 
Guard invited as a member of our executive steering committee. 
So we've been working very closely with the Coast Guard, with 
the Department of Homeland Security.
    I think Admiral Papp said it best as far as the specific 
comments on the High Latitude Study, but we have been working 
very closely with the Coast Guard.
    Senator Snowe. Would the Navy and the Coast Guard be able 
to share capabilities and resources?
    Admiral Papp. Well, in a small way this is a ``Back to the 
Future'' type question. After World War II, we had eight 
icebreakers shared between the Navy and the Coast Guard. We had 
a requirement for it during the Cold War years because we had a 
national imperative. We had the Distant Early Warning system or 
the DEW line that was across the North Slope, and each summer 
the Navy led a task force to do the resupply of the DEW line.
    The Coast Guard always took part as a part of the task 
force in providing icebreakers. Over the years, though, we 
diminished. We went from--when the Navy finally transferred all 
the icebreakers to the Coast Guard, we had six WIND-class 
icebreakers. Progressively we gave up one after another, 
another. Then we built POLAR SEA and POLAR STAR in the early 
70s and decommissioned all the rest of them. So now we're left 
with two. Both of them are inoperable.
    Senator Snowe. What was the high water mark for the number 
of icebreakers that the Coast Guard had?
    Admiral Papp. Eight, ma'am.
    Senator Snowe. Eight was the high water mark?
    Admiral Papp. It's a very interesting story. We did a 
little research on this. It was--acquisition processes must 
have been easier in those days, because we went into our 
history books and there was actually a note from President 
Roosevelt in 1940 to Secretary of the Treasury Morgenthau 
saying: ``Henry: Build me the world's best icebreakers.'' And 
we launched on that and ultimately built six of the WIND-class 
and two others, for a total of eight after World War II.
    Senator Snowe. Those were the days.
    Senator Begich. Those were the days.
    [Laughter.]
    Senator Begich. Thank you very much.
    How easy it was.
    Thank you, Senator Snowe.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much to both the Chairman 
and Ranking Member. I was telling them how interested I am in 
this issue, I guess for a few reasons. One, I think it is 
really incredibly important, diplomatic and military and 
economic challenges. Second, I chair the Canadian-U.S. 
interparliamentarian group along with Senator Crapo and so 
we've been working with the Canadians on the issues.
    The third is that Minnesotans always have a fondness to the 
Arctic because we figure it's the only place colder than our 
state. But I will note the Arctic has not been the one where 
the cars have tested and said, if this car can go in a colder 
place maybe you should live somewhere else. It's testing in 
Embarrass, Minnesota, and Baudette, Minnesota. So we're just 
glad the Arctic's out there as a colder place.
    My first question really for you, Ambassador Balton, is--
and then maybe other panelists can chime in--is the U.N. 
Convention on the Law of the Sea Treaty. I share your view, as 
I know some of the other panelists, that we need to ratify that 
treaty. I continue to be concerned by the arguments by some who 
claim that ratifying the treaty somehow weakens our national 
security.
    Can you take a moment--I know you talked about the value of 
it--to address some of the concerns raised by opponents, such 
as fears that the international bodies administering the treaty 
will be hostile to U.S. interests or other things?
    Ambassador Balton. Thank you very much for this 
opportunity, Senator. I think any sober assessment of U.S. 
interests in the oceans leads to the conclusion that we should 
have been party to this Convention long ago. The rules built 
into the Convention are highly favorable on a number of 
grounds, including for national security. The rules allow U.S. 
military and, I would say, commercial vessels as well, to go 
wherever they need to go in the oceans. While most countries 
follow those rules most of the time, our status as a non-party 
does not give us the standing and stature we would have as a 
party to ensure respect for those rules all the time.
    We say those rules reflect customary international law, but 
that is a shaky basis on which to put such important rights. 
Customary international law, depending as it does on the 
practice of states, is subject to erosion over time. Only as a 
party to the Convention can we lock in these rights.
    Senator Klobuchar. How would it help us with the Arctic and 
some of the issues that we're dealing with?
    Ambassador Balton. The Arctic presents a particularly 
compelling reason for why we should be party. Here's just one 
example, perhaps the most interesting. Under the Convention, a 
nation such as the U.S. gets the first 200 miles of sea floor 
off its coast as its continental shelf outright. Then, if the 
area beyond 200 miles from shore meets certain criteria, the 
nation can claim that area as well.
    Why is that important? It gives the Nation exclusive rights 
to explore and exploit all of the resources of that sea floor--
oil, gas, minerals, sedentary species. All the other countries 
of the Arctic are party to the Convention and they're using a 
mechanism in the Convention to perfect their claim to areas of 
sea floor in the Arctic and elsewhere. For the United States, 
although we are investigating and collecting data on different 
areas that we may be able to claim, as a non-party we can't go 
through this process to secure title and international 
recognition for our extended continental shelf in the Arctic or 
elsewhere.
    Senator Klobuchar. Did you want to add anything to that, 
Admiral Papp or Rear Admiral Titley?
    Admiral Papp. Yes, ma'am. Maybe I can answer it more from 
the view of an operator. I've never really understood the 
resistance to this. We have an Antarctic Treaty. For sailors we 
have rules of the road that are agreed to through international 
organizations, such as the International Maritime Organization, 
which the Coast Guard leads the delegation to. And we all 
understand the predictability, the guidance that these rules 
give us on how we operate at sea.
    The sea is not like operating on the land, where you have 
streets and traffic signs and everything else. You have no 
markers out there, but you have rules and understandings on how 
you operate within the rules and predictability on how other 
people will operate in those rules as well.
    This treaty seems to me to give us great understanding and 
predictability on how we deal with freedom of the seas and how 
we operate on the seas. As a law enforcement agency that's 
responsible for operating within the laws, this is just vital 
for us to carry out our responsibilities in the Coast Guard and 
for the nation.
    Senator Klobuchar. Rear Admiral?
    Admiral Titley. Yes, ma'am. Thank you very much for the 
opportunity to comment on this. It's something the Navy--
accession to the U.N. Convention on the Law of the Sea--is 
something the Navy believes in very, very strongly. I'm sure 
many of you have heard in the media, especially a year or 2 
ago, people talk about the Arctic as the Wild West and it's the 
race for resources and it's like Oklahoma in the 19th century 
all over again. That really is not true, but the reason it is 
not true is because of the U.N. Convention of the Law of the 
Sea, which, as my colleagues have mentioned, has been ratified 
by every other Arctic nation except the U.S.
    That really does provide the governance structure. We are 
not looking for--the Arctic Council said, we don't need a 
treaty like the Antarctic Treaty, because we have the U.N. 
Convention on the Law of the Sea. But the Law of the Sea is not 
frozen in time. It's not immutable to change. And if we are not 
on the inside, then that change may take place in ways that is 
not advantageous to the United States.
    Senator Klobuchar. Because we're not on the treaty dealing 
with the other people on some of the economic issues.
    Admiral Titley. So the leadership is--other countries are, 
frankly, looking for the U.S. to be able to show leadership, 
and it's hard to show leadership in this treaty when we are not 
a party to it.
    Senator Klobuchar. Thank you very much.
    Senator Begich. Thank you very much.
    I have a couple quick questions. Let me follow up, Admiral 
Papp, with regards to the cutters, the icebreakers, the kind of 
infrastructure needs of the Coast Guard, not only for the 
Arctic, but overall. Obviously, we're focused on the Arctic 
today.
    Can you--you now have the High Latitude Study. You have 
knowledge of kind of the general range of things you might need 
based on the level of mission you need. What is the next step 
to be aggressive about fulfilling these needs if we're serious 
about what we want to do in the Arctic, no matter what we want 
to do? Maybe fisheries or management of the transportation 
routes, oil and gas development. What's the next step to be 
aggressive in ensuring that we do the job we need to do to make 
sure your missions have the infrastructure you need, so you 
don't have to have a helicopter from Kodiak coming 1,000 miles 
or having to borrow--probably it was the North Slope Borough's 
helicopter, I'm guessing, Mayor Itta's--in order to satisfy the 
need there?
    What's the next step? Funding I know is a critical piece, 
but is that the only piece, or what do we need to do here?
    Admiral Papp. As Commandant I've got three 
responsibilities. First is to carry out the real-time now 
operations. The next is to start preparing for the future; and 
then the third is looking out probably a couple of decades and 
trying to determine what our needs are. That's part of the 
leadership responsibilities, to look forward and determine what 
we're going to need, not just focus on year to year.
    So the High Latitude Study does that. That's part of the 
process, doing the mission analysis based upon the 
responsibilities that we have under statutes. That has given us 
a guideline to go by, and the next step for us in the Coast 
Guard is to work out a concept of operations. We're in the 
process in a number of areas, going back and taking our 
strategy and working out our concept of operations, whether 
it's terrorism, how do we provide layered security for the 
United States. We also have to begin work on our Arctic 
strategy.
    Another part that will play in there, as you saw last year, 
is our experimentation over the last three summers on what 
resources work up there, getting a better idea for what 
infrastructure that does exist, and then apply that along with 
our concept of operations, and then start putting resource 
proposals forward. And not just for the Coast Guard, but we 
need to look across the interagency at the other services and 
the other departments to determine who has resources out there 
that we might be able to leverage against, that we might be 
able to apply, and then our resource proposals should fill in 
those gaps.
    Senator Begich. Is there--is part of that looking at the 
other agencies, but also looking at, as we assume development 
will occur at some levels up there, maximizing some of the use 
of their capacity? I know, for example, that on the Aleutian 
Chain, when we had I can't remember what vessel it was that had 
run loose, and it was actually--I think it was an oil company 
vessel that assisted in moving that from potentially a 
hazardous situation, because the Coast Guard could not move 
fast enough or they didn't have equipment in the region.
    Is that part of it, not only agency, but to look at what 
other company and government resources, local government 
resources, might be available to maximize the whole plan?
    Admiral Papp. Yes, Mr. Chairman. If we focus on offshore 
drilling, that will be part of the permitting process. The 
Department of the Interior will review plans and, most 
importantly, whatever response plans are required for the 
potential discharges, spills, other disasters that might happen 
up there. The Coast Guard will get a review of those as well to 
look and use our judgment to see whether the companies are 
providing sufficient resources.
    But just as they did, clearly the Coast Guard didn't 
respond all by itself in Deepwater Horizon, we depended heavily 
upon the resources provided by the oil companies. The Oil 
Pollution Act of 1990 put that process in motion. We've learned 
some lessons and some shortfalls of OPA 1990. We probably will 
take those lessons and apply them in some way, shape, or form 
to response plans up on the North Slope.
    But if the company fails, if the response plan fails, the 
Federal Government must in some way be able to back it up with 
some level of resources. We had plenty of resources, starting 
from bases to communications systems to helicopters, air 
stations, etcetera, in the Gulf of Mexico. If this were to 
happen off the North Slope of Alaska, we would have nothing. 
We're starting from ground zero today.
    Senator Begich. Very good.
    If I can ask, Ambassador, to kind of follow up on that. I 
know the Arctic Council's passage of the search and rescue was 
one. Can you tell me the kind of status of similar agreements 
around oil and gas cleanup that may be being discussed or 
moving forward?
    Ambassador Balton. Yes, thank you, Senator. At the Arctic 
Council meeting in May, the ministers, including Secretary 
Clinton, agreed to launch a new round of negotiations. This 
would be to create some kind of instrument to cooperate on oil 
spill preparedness and response in the Arctic, just what 
Admiral Papp was talking about.
    The United States is not the only nation that is not well 
prepared for this. So through such an agreement we can at a 
minimum improve coordination and cooperation among the Arctic 
nations in the event of a spill. Then the agreement itself 
could provide the impetus for all Arctic nations, including the 
U.S., to actually secure increased resources to handle the 
spill.
    We are all very aware of what Admiral Papp just said, that 
if the Deepwater Horizon spill had happened north of Alaska the 
ability to clean it up would have been sorely lacking and the 
disaster would have been even worse.
    Senator Begich. Very good.
    Let me stop there and go to our second round. Senator 
Snowe.
    Senator Snowe. Thank you, Mr. Chairman.
    Let me follow up on that, Ambassador Balton. So are there 
assets or a plan in place on the part of the United States or 
in conjunction or concert with other countries in the event of 
an oil spill?
    Ambassador Balton: Yes, Senator, we do have agreements with 
a number of other nations on oil spill cleanup. We have a 
bilateral understanding with Russia. We have something else in 
place with Canada. What is lacking, however, is something that 
is pan-Arctic that would allow assets to be shared and 
communication to be enhanced across all Arctic nations. That is 
the advantage we see in producing an Arctic-wide oil spill 
preparedness response agreement much like the Arctic search and 
rescue agreement is intended to link or knit together the eight 
Arctic nations.
    Senator Snowe. I see. It is comprehensive; it does include 
all eight nations.
    Ambassador Balton. Yes, ma'am.
    Senator Snowe. Now this is very limited.
    Ambassador Balton. Yes.
    Senator Snowe. How long would it take to expand? Does that 
require another agreement?
    Ambassador Balton. Probably. We will--the first round of 
talks on an oil spill preparedness and response system will 
take place in October in Oslo. I will actually be co-chairing 
those talks. Our aim is to have a product for nations to 
consider by May 2013 when the Arctic Council next meets at the 
ministerial level.
    Senator Snowe. That's quite a ways away.
    Ambassador Balton. It is. That's about as much time as it 
took to do the Arctic search and rescue agreement. Maybe we can 
do this one a little faster. But that is actually the time when 
the ministers will next meet and would be able to sign such an 
agreement if we produce one by then.
    In the meantime, there is work we can do to improve on the 
status quo and I hope that goes forward on an operational----
    Senator Snowe. So you depend on industry's capacity? Would 
you depend on the shipping companies to do the cleanup at this 
point?
    Ambassador Balton. It depends on the nature of the spill. 
If it comes from a tanker, yes, shipping companies would have a 
responsibility, shared with the government, I would say. If it 
came from a drilling installation, it would be the drilling 
company, it would be the responsible party. But, as Admiral 
Papp says, if they do not have the resources in place it would 
be incumbent upon the government to do what we could to help in 
a disaster of that sort.
    Senator Snowe. Do we have any assets in place that could do 
that, Admiral Papp, currently?
    Admiral Papp. No, ma'am.
    Senator Snowe. No. So there are no assets. But if we had 
the assets, would having an adequate response capability 
require additional training, as well?
    Admiral Papp. Well, the response plans that the companies 
put in will have a requirement for response capability, and I'm 
sure that the oil spill response organizations, the OSROs, will 
respond to the economic incentive, the business that will be 
created by that.
    One of the things, though, that we learned from Deepwater 
Horizon was if you don't think through what is the worst 
possible case, it's difficult for you to plan on how much 
equipment is needed. We had to turn on oil boom manufacturers 
around the world to supply us. We had to employ thousands of 
fishing boats to go out there and do skimming operations. None 
of that exists up on the North Slope. We have zero to operate 
with at present. So now's the time to start thinking that 
through and determining what we'll need up there.
    Senator Snowe. Well, that is true of the Deepwater Horizon. 
It was the worst case scenario and there was no preparation, 
especially at that depth, and with that type of an explosion. 
But we had no preparation, no contingency plans, in place.
    I realize that Arctic drilling would not be comparable in 
depth, but it has other serious problems, with no 
infrastructure in place at all, and we are starting without 
response assets. So that is highly problematic.
    How long would it take to meet minimum requirements? Just 
to activate the POLAR STAR, which is obviously being repaired--
will take until 2013, is that correct?
    Admiral Papp. Yes, ma'am.
    Senator Snowe. So to build a new icebreaker--takes 8 years?
    Admiral Papp. Oh, years, yes, ma'am.
    Senator Snowe. So this is really a long-term planning that 
we're talking about.
    Admiral Papp. It is, and there are other demand signals 
that come in. We right now, as you well know, we only have the 
HEALY that's available and that's operating in the Arctic. Just 
this week we've gotten inquiries at the staff level about the 
possibility of breaking out McMURDO. The National Science 
Foundation has been contracting with a Swedish company to 
provide an icebreaker down there for the last couple of years 
and Sweden has decided that their national interests need that 
icebreaker, so that the ship is not available. We've gotten an 
inquiry to look at the feasibility of sending HEALY down to the 
Antarctic, which would leave us with nothing up in the Arctic, 
and we just can't turn around POLAR STAR quickly enough to 
start doing that business.
    So we're really in what we call a stern chase right now, 
we're in a bad position trying to catch up.
    Senator Snowe. Thank you.
    Senator Begich. Senator Klobuchar.
    Senator Klobuchar. Thank you very much.
    We've heard a lot of discussion today about expanding the 
options for travel and trade through Arctic waters. A lot of 
people, as you've acknowledged, have been talking about that. 
Yet, Admiral Papp, as you rightly point out, the dynamic 
changes in ice conditions appear at present to make it 
difficult with these ice cutters in the region.
    So in your opinion is it premature to start laying out 
ground rules for navigation in the seas, while we still can't 
navigate, or should we be drafting regulations so that we're 
ready when a northern sea route has opened?
    Admiral Papp. Ma'am, we're in the process of that right 
now. We're putting together our side and how we think we might 
operate and how we might control the traffic in the Bering Sea. 
That of course is going to require cooperation across the 
inter-agency, with the State Department, with the Navy and 
others, and then take it to Russia as well and start 
negotiating with them.
    Fortunately, we've got a number of venues to be able to do 
that, the Arctic Council being one of them. This fall I'll be 
traveling to Japan to take part in what we call the North 
Pacific Coast Guard Forum, in which we've got great 
relationships with the Russian border guards, our equivalent on 
the Russian side, and other countries over there, but most 
importantly Russia.
    We are continuously exchanging people between our Coast 
Guard's 17th Coast Guard District in the Russians to gain 
familiarity with procedures and cooperation up there.
    Senator Klobuchar. Thank you.
    Rear Admiral, Ambassador Balton and Admiral Papp have been 
talking about these diplomatic relations that we have with 
these other countries up in the Arctic. Do we have similar 
relations on the military side?
    Admiral Titley. Yes, ma'am. Thanks for the question. In 
fact, we were in Oslo not 3 weeks ago conducting the first ever 
Arctic military roundtable. It was a conference sponsored by 
the Office of the Secretary of Defense and the U.S. European 
Command. Navy was one of the players. We were able to have all 
eight Arctic militaries except for Sweden, and that was just a 
technical issue on their part. The Russians were represents by 
the border guard. As Admiral Papp mentioned, we have good 
relations with them.
    Really, it was not in any way to supplement or supplant the 
Arctic Council, but it was a way to start establishing 
relationships at the senior level in the militaries, to be able 
to work through issues of common concern. I believe we decided 
to hold another meeting here in about a year and we're starting 
working groups sort of at the captain level to start working 
specific agendas. So that's just one example, ma'am, of how the 
Navy and the Department of Defense are pushing to ensure that 
that type of relationship, in addition to the diplomatic and 
Coast Guard relationships, exist.
    Senator Klobuchar. I just want to end up back on Law of the 
Sea. I was asking our staff member here, Marian, about when, 
what the status, because I remember when it passed through the 
Foreign Relations Committee and I think she said that was in 
2007, I think. And it just seems to me when you have the 
military, the Coast Guard, diplomatic people, I know Shell, the 
oil company, people seeing the value of this treaty, why we're 
not moving forward. And I just wondered if you knew any, 
without getting into any of the politics of it, what the status 
is? Is there any movement right now to move this ahead when the 
Senate has to do its job and ratify this treaty?
    Ambassador Balton. Perhaps I can answer that. You're right, 
twice actually the Senate Foreign Relations Committee favorably 
voted on the Convention, once in 2003 and again in 2007. My 
understanding is that Senator Kerry as Chair of the Committee 
is interested in trying again this year.
    As far as the Administration is concerned, we very much 
support that. We see the Convention as nonpartisan. This 
Administration certainly supports it. So did the last one.
    Senator Klobuchar. Right. President Bush supported it.
    Ambassador Balton. So did the one before that. A wide range 
of U.S. businesses, companies that do business in the oceans, 
all support accession, as of course our national security and 
diplomatic teams, and many other stakeholders out there.
    So we are hoping that the Convention will be considered on 
the merits. It's not, it should not, be a political or partisan 
issue, and we think that any sober assessment of those merits 
would lead to the conclusion that we should join.
    Senator Klobuchar. Admiral Papp?
    Admiral Papp. From a very practical point of view, it ties 
our hands. We go to the International Maritime Organization and 
I don't think we ever enter into a conversation without them 
reminding us that we are not signatories to this, that we have 
not acceded to it. On an even down in the weeds practical 
matter, the Coast Guard deals with many bilateral agreements to 
allow us to conduct law enforcement operations with the 
countries of South and Central America, and just trying to get 
agreement on baselines, territorial seas, etcetera, which are 
governed by this, we run into difficulties in these bilateral 
negotiations because we are not signatories to the treaty, and 
we are reminded of it.
    The Coast Guard forums that I go to, almost all my 
bilateral meetings with the members who attend those meetings 
start off with a reminder to us that the United States is the 
one major power that has not acceded to the treaty. So I could 
probably get much more productive business done if we acceded 
to it and we took that off the table in terms of something that 
has to be worked through.
    Senator Klobuchar. Very good. Anything more?
    Admiral Titley. Yes, ma'am. Really, a very similar 
experience in the Navy to what Admiral Papp experiences in the 
Coast Guard. In fact, I have a running bet with the one person 
who travels with me whenever I speak internationally that 
either the first or second, no later than the second, question 
will be: Why isn't the United States----
    Senator Klobuchar. See, I try to make you at home here.
    [Laughter.]
    Admiral Titley. And that's every single time, every forum, 
we get that. Admiral Roughead tells me that at his level, at 
the Chief of Naval Operations, Navy staff, chief of Navy staff 
level internationally, he gets the exact same question.
    But more substantively, other nations are looking to the 
United States for leadership in this area and our allies, our 
partners, fervently wish we were a member of this treaty.
    Senator Klobuchar. Thank you. I just want to end by 
thanking you, Admiral Papp, for the work the Coast Guard is 
continuing to do at Lake Superior, and also the work where you 
helped with this fishing guide issue. I want to report I was up 
in International Falls on the Canadian border and everything 
appeared fine with the fishing guides. We had a tug of war over 
the Canadian border. I will not say which country lost, but in 
any case I want to thank you for the help that you've given us.
    Admiral Papp. Thank you very much, ma'am.
    Senator Begich. Let me ask just a couple quick questions. 
First, to close out this round, Admiral Papp, let me follow up 
a little bit on Senator Snowe's comments regarding the 
capabilities and what's available. There's a couple things. For 
example, we have control when there's oil and gas development 
in the Arctic by permitting process to ensure that capabilities 
would be in place, to a level that all Federal agencies at some 
point, if they agree, are capable; is that a fair statement? In 
other words, they're not going to get a permit if they're not 
capable of cleaning it up.
    Admiral Papp. Oh, absolutely. And we are working hand in 
glove with the Department of Interior's Bureau of Ocean Energy 
Management Regulation and Enforcement, or OEMRE or BOEMRE or 
whatever we want to call it nowadays. But as you know, we've 
worked together with them on the investigation process of 
Deepwater Horizon, and we will be joined at the hip as we 
approach these new drilling options up in the Arctic.
    Senator Begich. My biggest concern is at the end of the 
day--and we'll see on the next panel, but I believe that the 
oil and gas industry will do the necessary precautionary 
measures. My biggest concern is those vessels that are coming 
from one country to the next. As mentioned, I think you 
mentioned 15 escorted vessels, up from 8 or 7 or so. Those are 
the ones that make me nervous because I have no clue where 
they're flagged from, what their safety standards are, even 
though we do have international rules to some extent.
    That is what concerns me most. As we know, I think it was 
last year, if I remember right--maybe it was the year before; 
time flies around here, but I think it was last year--when one 
ship ran aground with I think it was 1,500 gallons if I 
remember right. That's what concerns me most, not necessarily 
the industry of oil and gas, because they're going to be 
required by our regulatory process.
    Is that an issue that also as the Coast Guard looks at oil 
and gas, they look at this other piece, which is the shipping 
and what's going to happen there, and how we manage that? 
Because it's both life, rescue, as well as if they run around 
and they're carrying a full load of diesel fuel to operate? Is 
that a fair statement?
    Admiral Papp. Yes, Mr. Chairman, and that's probably what 
gives me the most concern, is because the increase of shipping 
through the Bering Straits. I mean, my goodness, just with the 
last 2 years we've had people trying to cross the Bering Strait 
with parasails and with jet skis. So the activity is picking 
up. At some point in time, you will have an oil tanker or a 
freighter or something up there that breaks down, goes adrift, 
and in all likelihood would drift toward our shores, and it's a 
narrow strait.
    Right now, we're generally only able to maintain one high-
endurance cutter in the Bering Sea. The ability to get up 
there, I'm sure we could probably get up there in time to 
provide some sort of response.
    Senator Begich. But it would be tight.
    Admiral Papp. It's tight, and plus they're becoming 
increasingly unreliable in terms of being 40-plus-year-old 
ships. So getting the National Security Cutters up there is 
important. But also having an ability to get aircraft there on 
short notice is important as well, some way of basing aircraft 
up on the North Slope and having the facilities to sustain 
them, at least seasonally, when the ship traffic is going 
through there.
    Cruise ships. One of the things that keeps the Coast Guard 
in business in the Caribbean is going out and picking injured 
or ill passengers off cruise ships. We have the helicopters and 
the air stations to do it. We don't have that up in the Arctic 
and cruise ships are going through there as well.
    Senator Begich. That's right. Those will increase. We know 
that.
    Let me ask, to both Admiral Papp and Admiral Titley: 
deepwater port and infrastructure. I know in Alaska we're 
debating, can we do a port, some sort of infrastructure, and I 
think the High Latitude Study tells us a lot, as well as other 
studies, that the water is so shallow you can't really do it on 
shore. You've got to probably end up in federal waters, doing a 
deepwater port of some concoction.
    Do either one of you have comments on that? I just 
visualize that if industry progresses, the tourism industry 
progresses, shipping progresses, the needs of infrastructure, a 
deepwater port is going to be critical up there. And I'm not a 
scientist, I'm not in your guys' business, but I just think, 
based on the dimensions and the depths, it's going to be in 
Federal waters in order to accomplish the deepwater capacity.
    Admiral Papp. Well, as you remember, Mr. Chairman, that was 
one of the first things I was looking for up there.
    Senator Begich. Right.
    Admiral Papp. The real nearest deepwater port is Dutch 
Harbor, which is about 1,400 miles away from the North Slope, 
Barrow for instance. So any ship that goes up there really has 
to be self-sustainable. It has to have enough fuel, supplies, 
food, water, to be able to sustain itself at present.
    Icebreakers are able to do that. They can go up there for 
months at a time. They have a hangar, they have a helicopter or 
two helicopters. They are almost like a floating city. That's 
one of the reasons why I feel very strongly about the ability 
for us to carry out operations requires us to have a ship that 
can sustain itself up there, because there are no deepwater 
ports to pull into.
    Nome comes about the closest right now, and I was impressed 
to see that pier, because the first time I went to Nome there 
was no pier. But even with that----
    Senator Begich. They really want a port. That's why they're 
building that.
    Admiral Papp. But I think the maximum depth there was 24 
feet, and to extend that pier out there I think it would only 
be carried away by the ice. So a deepwater port is going to be 
a severe challenge, and there won't be places for the ships 
that travel through there to pull into, at least in the 
foreseeable future.
    Senator Begich. Rear Admiral?
    Admiral Titley. Yes, sir, thank you. I would really echo 
Admiral Papp's comments on the challenges of a deepwater port. 
It was one of my takeaways when I was up in Barrow, and I did 
stay overnight. But it's really just this sandy, shoaly spit, 
and Prudhoe Bay really isn't much better as far as getting 
ships anywhere near the shore. So you either have to do either 
small boat or helicopter type transfer.
    When we've looked at Nome, we came up with very similar 
conclusions to what Admiral Papp did. If I understand my 
scientists right, it's a granite bottom, so you can't just 
bring in a dredge and say, well, let's make that 24 feet 30 
feet or 32 feet. So there are real, real challenges, and I 
believe there are some locations that might potentially be 
suitable, but then there's no land-based infrastructure. And 
with the permafrost changing, that is a non-trivial issue.
    So in the Navy, ships like our oilers, like our amphibious 
ships that have long legs, are the kinds of--we have to think 
about how do you self-deploy, how do you sustain yourself in 
this very, very austere environment. Right now, sir, the 
Department of Defense, we believe we can meet today's missions 
with today's capabilities, but we're constantly reassessing 
that, sir.
    Senator Begich. Very good.
    Well, again, thank you all very much. Thank the panel for 
being here. There is additional questions I know people have 
that they will submit for the record. Again, thanks to the 
first panel. We'll line up the next panel. Thank you all very 
much. Next panel.
    [Pause.]
    Senator Begich. Our third panelist may have stepped out. He 
may not have realized. Maybe he's out lobbying the admirals.
    [Pause.]
    Senator Begich. Let me go ahead and we'll start this next 
panel, and they'll search and rescue. We'll send the Coast 
Guard out for Dr. Metzger.
    But we wanted to thank you for being here, thank you for 
being patient in our first panel. We wanted to get some 
additional items on the record. We are joined by Pete Slaiby, 
Vice President of Alaska Ventures, Shell Oil Company; Dr. Scott 
Borgerson, Senior Fellow, Institute for Global Maritime 
Studies; and hopefully Dr. Andrew Metzger, Assistant Professor 
at the University of Alaska-Fairbanks.
    Let me again thank you all for being here. Your testimony 
will also be entered into the record, your written testimony. 
But please, we'll start with Mr. Slaiby. We'll give it a second 
as they close the door.
    Go ahead.

                 STATEMENT OF PETER E. SLAIBY, 
                  VICE PRESIDENT, SHELL ALASKA

    Mr. Slaiby. Well, thank you very much, Mr. Chairman and 
members of the Subcommittee. I appreciate your invitation to 
speak to you today on the economic opportunities in the Arctic. 
My remarks focus on the vast and long-term economic benefits of 
developing Alaska's extraordinary offshore oil and gas 
resources, resources potentially large enough to create 
generations of jobs and vitalize entire economies.
    Our government estimates Alaska offshore holds world-class 
resources in the realm of 27 billion barrels of oil and over 
120 trillion cubic feet of natural gas. It could be much more. 
With Alaska's offshore production, we can reduce foreign 
imports, improve our balance of trade, and keep U.S. dollars at 
home to fuel our own economy. With Alaska offshore production, 
nearly 55,000 jobs per year will be created for generations. 
These are long-term, well-paying jobs, both in Alaska and the 
Lower 48.
    Alaska OCS production will generate, conservatively, $197 
billion in government revenue from royalties at a modest oil 
price, at today's oil price probably closer to $300 billion.
    Finally, it will continue to contribute to the long-term 
viability of an asset of national importance, the Trans-Alaska 
Pipeline System, or TAPS. For the last 30 years, TAPS has been 
a major supply line to the U.S., delivering more than 17 
billion barrels of oil. Because of the declining oil production 
in Alaska, TAPS is running at one-third capacity and is at the 
risk of shutting down unless more oil, Alaskan oil, is 
produced.
    We firmly believe the estimated reserves in the offshore 
provide Alaska the best chance to fill that pipeline once 
again. We believe these potential resources may become a 
national--excuse me--an asset of national significance as well, 
and, most importantly, Senator, we believe that these assets 
can be safely produced. We remain ready to prove it.
    Shell has been prepared to explore in Alaska's offshore 
since 2007. After years of regulatory wrangling, I'm hopeful 
that our exploration program will go forward in 2012. Unlocking 
the economic opportunity in the Alaskan offshore has been 
delayed too long.
    At the government's invitation, Shell participated in 
offshore lease sales in Alaska beginning in 2006. Since then, 
we have paid the government more than $2 billion for those 
offshore leases in the Beaufort and Chukchi Seas and invested 
more than $1.5 billion to prepare for an exploration program 
that meets and exceeds regulatory requirements. Despite our 
most intense efforts, we have yet to drill a single well, and 
this is highly unusual.
    When the Federal Government holds a lease sale, it is in 
fact saying offshore exploration and development is desired. If 
a company presents a plan that meets these regulatory 
requirements, that plan should be permitted.
    It's important to keep in mind that exploration is a 
temporary, short-term operation. Our initial Alaska wells will 
take approximately 30 days to drill and evaluate. Data will be 
gathered and the well will be permanently plugged and 
abandoned. These are not complex wells.
    There is no question the bar should be high in the Arctic. 
We support high standards and a robust permitting process. But 
the process must work and currently the government's permitting 
and regulatory process is not equipped to deliver. Delays are 
frustrating and disappointing, you might even say 
irresponsible. The delays undermine the confidence of those who 
would seek to invest in the U.S. and create economic value 
here.
    To fully unlock economic opportunities in Alaska, 
policymakers should support a regulatory process that is clear 
and efficient, one that ensures development is done in a 
responsible and sustainable way. Specifically, statutes and 
regulations must be clear, with firm time lines for delivery of 
permitting, and funding must be provided to regulatory agency 
staff and analysts for the required permits. Current budgeting 
constraints should not be allowed to undermine the long-term 
value of the Alaskan offshore development.
    In addition, we believe the U.S. should ratify the Law of 
the Sea Treaty and evaluate what additional resources should be 
deployed in Alaska.
    Thank you and I look forward to answering your questions.
    [The prepared statement of Mr. Slaiby follows:]

  Prepared Statement of Peter E. Slaiby, Vice President, Shell Alaska
Introduction
    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to testify today. I would like to thank you for this 
hearing to examine the economic opportunities in the Arctic areas of 
the United States.
    My name is Pete Slaiby. I am the Vice President of Shell Alaska and 
I lead a team of professionals who since 2007 have been ready to begin 
exploring for domestic oil and gas reserves off the coast of Alaska. It 
has long been Shell's belief that Alaska's offshore holds world-class 
hydrocarbon volumes. Shell has invested more than $3.5 billion for the 
opportunity to validate that optimism.
    Alaska should continue to play a major role in meeting the energy 
needs of American consumers and American businesses, but achieving this 
requires action and political will. Developing these Arctic resources 
will extend the life of the Trans-Alaska Pipeline System (TAPS) and 
also create thousands of jobs; amass hundreds of billions in revenue 
for local, state and Federal coffers; reduce imports; and improve the 
balance of trade.
    Although regulatory and legal challenges have blocked the drilling 
of even a single well, I am hopeful that in 2012 we will be able to 
move forward with exploration wells in the Beaufort and Chukchi Seas. 
Since returning to Alaska to purchase leases in 2005, Shell has drilled 
more than 400 exploration wells around the world. I remain hopeful that 
the barriers to exploring in Alaska's Outer Continental Shelf will be 
addressed so that Shell can begin its exploration drilling in 2012.
    Today I will focus on the economic benefits of developing our 
Nation's Arctic oil and gas resources. Specifically:

  <bullet> Global energy demand forecasts, and the critical role that 
        oil and gas will play in meeting future energy needs and in 
        fueling the economy.

  <bullet> Alaska's offshore resource potential, and the benefits to 
        the Nation of developing those resources.

  <bullet> Shell's proposed exploration program in Alaska and the 
        challenges that have blocked the program.

  <bullet> And finally, recommendations for moving forward.
Global Energy Demand
    The world must grapple with the reality that global energy demand 
is projected to increase by roughly 50 percent over the next 20 years 
and could double by 2050. The global recession will eventually fade and 
as economies recover, demand will accelerate. A key driver will be 
strong economic growth and a vast, emerging middle-class in developing 
nations.
    To address this demand, we will need all sources of energy--
hydrocarbons, alternatives, renewables and significant progress in 
energy efficiency. Oil and gas will be the dominant energy source for 
decades. Renewables and energy efficiency will play an ever-increasing 
role. Shell is actively pursuing research and development into next-
generation biofuels. We also have a wind business in North America and 
Europe.
    Future growth for alternative energy forms will be paced by the 
speed of technological development, public and private investment 
capacity, government policies, and the affordability of energy supply. 
Still, it takes several decades to replace even one percent of 
conventional energy with a renewable source. The effort to tip the 
scale toward more renewable sources of energy is worthwhile but even 
unprecedented growth in renewables would leave an enormous energy gap 
that must be filled with oil and gas.
    As we move to meet the world's energy needs, environmental 
challenges must be met and policies kept in place to ensure responsible 
energy development that allows our economy to grow.
    Governments have a role to play in defining policies to foster a 
viable, efficient and workable marketplace that allows technology and 
innovation to move forward. Industry--and most particularly the energy 
industry--has an important role to play as well.
U.S. Oil and Gas Resource Potential
    The President recently acknowledged that reducing dependence on 
imports was a national policy imperative. We agree. The U.S. is 
resource-rich in many ways, especially in oil and gas. Yet, in recent 
years our country has imported more than 60 percent of its petroleum.
    This comes at a significant cost. According to the EIA:

  <bullet> Petroleum net imports will average 9.7 million barrels per 
        day in 2011 and 10 million barrels per day in 2012, comprising 
        50 percent and 52 percent of total consumption, respectively.

  <bullet> Imports cost the U.S. more than $350 billion last year.

    Producing more oil and gas in our own country is a ``win-win'' 
proposition. It provides real economic and security benefits. With 
increased domestic production, less money is exported from the U.S., 
more money is invested here and federal revenues increase through 
royalties and taxes. Resources can be developed with appropriate 
environmental protections based on solid science and an understanding 
of ecosystems and the impact of oil and gas activities on them.
    I offer an example from the OCS:
    According to the U.S. Government, 420 trillion cubic feet of 
natural gas and more than 86 billion barrels of oil are yet to be 
discovered on the OCS, including Alaska.
    The greatest offshore resource potential lies in four key areas: 
the Gulf of Mexico, Alaska and the Atlantic and Pacific Coasts.

  <bullet> Gulf of Mexico--This has been the heartland of U.S. offshore 
        activity. The industry has been in the Gulf for more than 60 
        years, producing more than 10 billion barrels of oil and more 
        than 73 trillion cubic feet of natural gas. Estimates state 
        there are at least 45 billion barrels of oil and more than 233 
        trillion cubic feet of gas remaining.

  <bullet> Alaska OCS--World Class Potential--The Alaska offshore 
        likely holds some of the most prolific, undeveloped 
        conventional hydrocarbon basins in the world. Conservative 
        estimates from the Bureau of Ocean and Energy Management 
        Regulation and Enforcement (BOEMRE) place roughly 27 billion 
        barrels of oil and more than 120 trillion cubic feet of gas in 
        the Alaska OCS.

  <bullet> Atlantic and Pacific Coasts--Assessments of these areas have 
        not been updated in decades, but the estimate is that the 
        Atlantic Coast holds 4 billion barrels of oil and 37 trillion 
        cubic feet of gas and the Pacific Coast holds 10 billion 
        barrels of oil and 18 trillion cubic feet of gas.
History of Alaska OCS
    The world has long been aware of the Arctic's vast resources. In 
total, more than 500 exploratory, production, and disposal wells have 
been drilled in the Arctic waters of Alaska, Canada, Norway and Russia. 
As a result of Federal OCS lease sales in the 1980s and 1990s, more 
than 35 wells have been safely drilled in the U.S. Beaufort and Chukchi 
Seas.
    Shell is proud of its offshore legacy in Alaska, having produced in 
the state waters of Cook Inlet in Alaska for more than 30 years 
beginning in 1964. In the late 1970s and mid 1980s, Shell drilled 
exploration wells offshore in the Gulf of Alaska, St. George Basin and 
the Bering Sea. In the late 1980s and early 1990s, Shell drilled 
exploration wells in the Beaufort Sea and later drilled four of the 
five exploration wells ever drilled in the Chukchi Sea.
    Although oil and gas were found, Shell chose not to proceed to 
development. We plugged and abandoned those exploratory wells for 
economic reasons--including the fact that, at that time, TAPS was 
already running near capacity.
    Since 2005, the Federal Government has held several more OCS lease 
sales in Alaska. Shell participated in these lease sales and, in fact, 
is now the majority leaseholder in the Alaska offshore. Shell has paid 
the Federal treasury nearly $2.2 billion for ten-year leases in the 
Beaufort and Chukchi Seas. Additionally, Shell has invested more than 
$1.5 billion and 6 years preparing for an exploration drilling program 
with unparalleled mitigation and safety measures. Shell's work includes 
multiple years of 3D seismic data collection, first-of-its-kind 
baseline science, shallow hazard surveys, geotechnical programs, 
numerous social investment initiatives and hundreds of meetings with 
North Slope residents.
The Benefits of Developing the Alaska Offshore
    The benefits of developing Alaska's offshore oil and gas resources 
are many--not only to Alaska, but also to the Lower 48. Development 
would fuel U.S. economic growth for decades to come.
    A study conducted in 2010 by Northern Economics and the Institute 
for Social and Economic Research (ISER) at the University of Alaska 
(using USGS resource data) details the potential national benefits of 
developing the oil and gas resources of the Alaska OCS:

  <bullet> An annual average of 54,700 new jobs would be created and 
        sustained through the year 2057, with 68,600 jobs created 
        throughout decades of production and 91,500 at peak employment;

  <bullet> A total of $145 billion in new payroll would be paid to 
        employees through the year 2057, including $63 billion to 
        employees in Alaska and $82 billion to employees in the rest of 
        the U.S.; and

  <bullet> A total of $193 billion in government revenue would be 
        generated through the year 2057, with $167 billion to the 
        Federal Government, $15 billion to the state of Alaska, $4 
        billion to local Alaska governments, and $6.5 billion to other 
        state governments at a modest oil price.

    Several important implications for national policy and domestic 
supply are raised in the study including:

  <bullet> Alaska OCS development maximizes the value of Alaska's and 
        the Nation's oil and gas resources by enhancing both value and 
        volume. Using TAPS' existing infrastructure, which is currently 
        operating far below capacity, would enhance value by lowering 
        transportation costs. Further, the new expanded infrastructure 
        needed to connect to TAPS would enable potential development of 
        satellite fields such as the National Petroleum Reserve-Alaska 
        (NPRA).

  <bullet> Alaska OCS development would extend the operating life of 
        TAPS and increase the viability of an Alaska gas pipeline, due 
        to greater certainty of the available gas resource base to fill 
        it.

    To elaborate, Alaska's OCS likely has at least one-third more oil 
than has been produced in Prudhoe Bay, moved through TAPS and used to 
fuel the U.S. for the past 30 years. It is two-and-a-half times what 
has been produced in the Gulf of Mexico since 1990.
    An independent assessment of industry-wide development of Alaska's 
Beaufort and Chukchi Sea OCS concluded that an average of about 700,000 
barrels of oil per day would be produced for 40 years. This is 
equivalent to our 2010 oil imports from Iraq (506,000 bbl/day) and 
Russia (137,000 bbl/day) combined. This same study found that Alaska 
OCS production would peak at 1.45 million barrels of oil per day in 
2030 (and 2.1 billion cubic feet of gas per day in 2050). This is more 
than our 2010 oil imports from some of our major importing nations, 
e.g, Mexico (1.03 million bbl/day), Saudi Arabia (958,000 bbl/day), 
Nigeria (996,000 bbl/day), or Venezuela (827,000 bbl/day).
    Such production numbers, which could potentially eliminate the need 
for imports from one of our largest foreign suppliers, is significant, 
and even more so in a world of increasing geopolitical instability.
    A major benefit from Beaufort and Chukchi development would be the 
long-term viability of TAPS. Since 1977, Alaska has supplied the U.S. 
and its refineries with vast quantities of domestic oil via TAPS, 
totaling roughly 17 billion barrels through 2010. The construction and 
operation of the pipeline has also provided hundreds of thousands of 
high paying jobs in Alaska and the nation, helping lift America out of 
one of its worst economic downturns. A generation of Americans worked 
to build TAPS; and it remains not only an economic engine, but a symbol 
of American know-how and ingenuity. Unfortunately, without a reliable 
new resource base, TAPS' future is uncertain.
    Production in Prudhoe Bay has fallen significantly in recent 
decades. At its height, TAPS supplied the Nation with 2.1 million 
barrels of oil per day or about one-third of the Nation's oil 
production.
    Today, TAPS supplies only 600,000 barrels per day; still 11 percent 
of our domestic supply but far from its peak throughput of more than 2-
million barrels a day in the early 1990s. If the throughput in the 
pipeline continues to decline and no new supplies are developed, TAPS 
will eventually be shut down, cutting access to one of the largest 
sources of domestically produced oil in the country. A recent low-flow 
impact study sponsored by TAPS operator, Alyeska Pipeline Service, 
concluded that corrosion, wax build-up and potential freezing of the 
pipeline could occur at 350,000 barrels per day. At the current rate of 
decline, that number could be reached in less than 15 years. In a 
shutdown scenario, our already increasing dependence on imported oil 
will accelerate and the U.S. balance of payments and Federal revenues 
will both get worse.
    Unfortunately, we have already witnessed a preview of life without 
TAPS. A temporary shutdown of TAPS earlier in 2011 had an immediate 
impact on crude prices, jeopardized the continuity of the U.S. West 
Coast refinery infrastructure, and resulted in a spike in U.S. reliance 
on Russian crude supplies. This could be a harbinger of things to come 
unless we develop new resources in Alaska.
    Fortunately, the U.S. has an opportunity to prevent this scenario 
from reoccurring. According to Northern Economics and ISER at the 
University of Alaska in the report previously discussed, if OCS oil is 
transported through TAPS, the higher volume of throughput would reduce 
the TAPS tariff and extend the life of TAPS for decades. Doing so would 
require new pipelines that connect offshore fields in Camden Bay and 
the Chukchi Sea to TAPS. These projects would certainly rank among the 
largest private sector construction projects in U.S. history.
    It is clear that resource development, such as OCS oil and gas 
production, is the first step in wealth creation. It has an enormous 
economic multiplier effect. Jobs and revenues created by oil and gas 
development reverberate throughout our economy, producing long-term, 
high paying jobs. It creates a need for domestic manufacturing 
capabilities, steel production, transportation, infrastructure 
development, electronics and high-tech components. Alaska OCS 
development is a genuine long-term economic stimulus plan.
    In addition, by exploring and developing our Alaska OCS resources, 
the U.S. has an opportunity to reaffirm its global role as an Arctic 
nation. It is no secret the Arctic is becoming a critical location from 
a geopolitical and strategic perspective. Arctic nations are 
increasingly interested in international boundaries and opportunities 
for resources and economic development.
    Recently, Norway and Russia signed a maritime border delimitation 
agreement that settled a long-standing seaward boundary dispute in the 
Barents Sea. The motivation for the agreement was mutual cooperation 
that would allow the development of offshore Arctic oil and gas 
resources. Elsewhere, Arctic nations are asserting their claims to 
continental shelf borders in accordance with the United Nations 
Convention on the Law of the Sea. For instance, reports indicate 
Denmark is considering claiming the North Pole as an extension of 
Greenland territorial waters. Even nations outside the Arctic are 
positioning themselves for Arctic resource development.
    Without action, our country risks falling even further behind the 
rest of the world in developing its Arctic resources. In Norway, 
Russia, Greenland and Canada, Arctic resources are highly valued and 
new exploration is already underway. We have an opportunity to develop 
our own Arctic resources and the infrastructure appropriate to 
facilitate our presence in this valuable region, especially during 
tough economic times.
Offshore Safety Standards
    Before moving to a discussion of Shell's Alaska OCS exploration 
program, it remains appropriate to acknowledge the Deepwater Horizon 
incident in the Gulf of Mexico. The incident forced a re-examination of 
offshore operations and led to new regulatory requirements that have 
raised the bar on safety and led to substantial changes in the way the 
industry operates. There is no question that the industry must be held 
to the highest standards for protecting the environment and the health 
and well-being of our workers and the communities in which we operate.
    The following are just a few of the new regulatory requirements 
systems recently adopted by the Federal Government and industry:

  <bullet> The Interim Final Drilling Safety Rule is focused on 
        minimizing the likelihood of an incident and addresses barriers 
        that should be in place to prevent a hazard. Preventing an 
        incident is a top priority.

  <bullet> Responding to an incident is now substantially enhanced with 
        new requirements for containment capability. The Marine Well 
        Containment Company (MWCC), which Shell initially formed in 
        partnership with three other oil and gas companies, is designed 
        to do just that. The MWCC is a stand-alone organization 
        committed to improving capability for containing a potential 
        underwater well control incident in the Gulf of Mexico.

  <bullet> A new Center for Offshore Safety will be created to promote 
        the safety of offshore operations and enhance the government's 
        regulatory role. The Center will provide an effective means for 
        sharing best practices. Members will be subject to independent, 
        third-party auditing and verification to ensure integrity. The 
        Center will operate around an existing safety framework known 
        as RP75, or ``Recommended Practice for Development of a Safety 
        and Environmental Management Program for Offshore Operations 
        and Facilities.''

  <bullet> Industry has also greatly increased its resources to respond 
        to a major oil spill by adding vessels, equipment and 
        personnel. Significant research and development is ongoing for 
        oil spills in ice.

  <bullet> Shell has taken the lead as operator of the Subsea Well 
        Response Project (SWRP) to be based in Stavanger, Norway. Nine 
        major oil and gas companies will work pro-actively and 
        collaboratively progress development of subsea well 
        intervention and oil spill response equipment that can be 
        deployed swiftly to different regions in the world.

    In addition to regulatory requirements, a company must foster and 
promote safety relentlessly each day. At Shell we call this Goal Zero. 
Everyone who works for us--both employee and contractor--is expected to 
comply with the rules; intervene when anything looks unsafe; and 
respect people, the environment and our neighbors. Compliance is not 
optional.
    We have personal safety systems and procedures with clear, firm 
rules; simple ``do's and don'ts'' covering activities with the highest 
potential safety risk, such as getting proper authorization before 
disabling safety-critical equipment and protecting against falls when 
working at heights.
    We have process safety systems to ensure the safety and integrity 
of our operations and assets. Process safety is also managed through a 
variety of tools, such as well and facility design standards; 
established ``operating envelopes'' not to be exceeded; maintenance and 
inspection intervals for safety critical equipment; and an effective 
Management of Change process.
    Our approach also requires that all our drilling contractors 
develop a Safety Case to demonstrate major risks are properly managed. 
A Safety Case shows how we identify and assess the hazards on the rig; 
how we establish barriers to prevent and control the hazards; and how 
we assign the critical activities needed to maintain the integrity of 
these barriers. Further, it guides the rig and crews in risk 
management; and ensures staff competency, especially for those new to 
the rig.
Shell's Alaska Exploration Program
    Shell is planning an offshore oil and gas exploration program in 
Alaska's OCS in 2012 during the four-month open water season. This 
program could include drilling multiple wells in both the Beaufort and 
Chukchi Seas, site clearance surveys and baseline science studies. It 
is important to note that an exploration program, unlike a development 
and production program, is a temporary, short-term operation. In the 
Alaska OCS, an exploration well is anticipated to take approximately 30 
days to complete, at which time the well will be permanently plugged 
and abandoned and the site cleared. Shell's exploration program will 
meet or exceed all applicable regulatory requirements for the 
protection of health, safety and the environment.
    Shell has been committed to employing world-class technology and 
experience to ensure a safe, environmentally responsible Arctic 
exploration program--one that has the smallest possible footprint and 
no negative impact on North Slope stakeholders or traditional 
subsistence hunting activities. Aspects of the 2012 program have been 
under evaluation by Federal agencies since 2006. At every step, Shell 
has worked with Federal agencies, the State of Alaska, and local 
communities to develop a program that achieves the highest technical, 
operational and environmental standards.
    My discussion here focuses on the following points:

        1.The currently available science regarding the Arctic is 
        extensive and more than adequate for an exploration program;

        2.The shallow water, low pressure Alaska OCS wells differ 
        significantly from Gulf of Mexico deepwater exploratory wells; 
        and

        3.The oil spill prevention, containment, mitigation and 
        response plans included in Shell's 2012 Arctic exploration plan 
        are robust and comprehensive and were largely in place even 
        before the BP Macondo incident.
Arctic Baseline Science
    Some argue that there is insufficient scientific data regarding the 
Arctic and, therefore, exploration in the Chukchi and Beaufort Seas 
should not go forward. This is not accurate. In fact, the available 
scientific data is more than adequate to identify and evaluate the 
impacts of an exploration program that is, by definition, a short-term, 
temporary operation.
    The recent release of the United States Geologic Survey (USGS) 
scientific gap analysis commissioned by Secretary Salazar does not 
differentiate between exploration and development, nor does it satisfy 
the original mission of accurately cataloguing existing scientific data 
specific to the Arctic. The cursory review that was done is merely a 
compilation of selected reports done over the years but does not 
analyze the present landscape.
    The report also fails to acknowledge the data available from years 
of Arctic oil spill response research, technology development, as well 
as the tested tools, techniques and assets capable of Arctic oil spill 
recovery and response. Regional Alaska Native Corporations, North Slope 
and Northwest Arctic communities, Federal agencies, marine mammal 
commissions and industry have volumes of current scientific data that 
were not considered as part of this analysis.
    The categories of scientific data available include: tides and 
ocean currents, weather (e.g., wind and its effect on currents, 
precipitation), ice conditions, baseline environmental data related to 
species found in the arctic (e.g., benthic, fish, birds, marine 
mammals, etc.), assessments regarding the impacts of oil and gas 
exploration activities on those species, and, specifically, information 
assessing the impacts of an oil spill on those resources, in the highly 
unlikely event of an incident during exploration drilling.
    Since 1973, Federal agencies have performed more than 5,000 
environmental studies to better understand the Alaska OCS and coastal 
environment, and document or predict the effects of offshore oil and 
gas activities. The former Minerals Management Service Environmental 
Studies Program spent more than $600 million dollars (more than $1 
billion in inflation adjusted dollars) for studies under the guidance 
of the OCS Scientific Committee, which advises the Secretary of 
Interior. About half of these funds have been directed to Alaska.
    The advancement of scientific knowledge will continue. This 
expanded knowledge is critical because it informs government regulators 
who must issue permits, it informs policymakers who must develop sound 
energy and environmental policy and it informs our operational 
decisions. In fact, Shell is contributing to advancing Arctic science 
in several ways. Since returning to Alaska in 2005, Shell has spent $60 
million engaging in an aggressive environmental studies program in the 
Arctic offshore. Shell has worked in a collaborative manner with a wide 
range of stakeholders, including industry partners, local, state, and 
Federal Governments, universities, and non-government organizations to 
share resources and facilitate the further development of our 
understanding of the Arctic marine ecosystem.
    Shell has also taken the lead in the development and implementation 
of new technologies, including unmanned aerial systems, acoustic 
recorders, and integrated ecosystem studies to advance capacities to 
work in this challenging offshore environment. Shell fosters and funds 
such diverse research as computer assisted identification of marine 
mammal calls, greatly enhancing the capacity to utilize acoustic 
sampling technologies, satellite tagging of whales and seals, ice and 
weather forecasting and physical oceanography.
    Recently, the North Slope Borough (NSB) and Shell entered into a 
multi-year collaborative science agreement that will enable impacted 
North Slope communities to build capacity for scientific research and 
independent review of studies, exploration and development plans and 
regulatory documents. The research program established under this 
agreement will be guided by an Advisory Committee of representatives 
from each of the coastal communities (Point Hope, Point Lay, 
Wainwright, Barrow, Nuiqsut and Kaktovik), scientists from the NSB and 
Shell, and independent scientists. This committee will be responsible 
for identifying critical issues, setting investigative priorities, and 
integrating traditional knowledge with science. The current agreement 
is between the NSB and Shell, but it anticipates expansion of the 
studies program through additional funds from third parties, which may 
include private or public sources.
    If exploration leads to a commercial discovery, even more science 
will be needed. Consistent with the Outer Continental Shelf Lands Act's 
(OCSLA) multi-stage process, development and production activities will 
build on the information gathered through the exploration stage. The 
first development in the Arctic OCS will require the preparation of an 
additional environmental impact statement. The issues to be addressed 
in that document will be determined during a public scoping process. 
Since 2006, Shell has spent almost $90 million pre-investing in data 
acquisition, studies, and research and development that will support 
environmentally sound offshore development. Information gathered during 
these earlier OCSLA stages (including exploration) will form the basis 
for that scoping process, as well as the identification of any issues 
that may require additional research or study before informed 
decisionmaking.
    This approach was recently validated in the final version of the 
President's Oil Spill Commission report, which states: ``The need for 
additional research should not be used as a de facto moratorium on 
activity in the Arctic, but instead should be carried out with specific 
time frames in mind in order to inform the decisionmaking process.''
Exploration in Alaska's OCS Compared to Exploration in Deepwater Gulf 
        of Mexico
    The drilling conditions for Shell's proposed 2012 Alaska OCS 
exploration program are typical of wells that have been safely drilled 
for decades in shallow water around the world. The Alaska OCS wells are 
in shallow waters and have much lower reservoir pressure, which is 
vastly different from the conditions found in the deep waters of the 
Gulf of Mexico. This increases the safety margin.
    The Deepwater Horizon was drilling the Macondo well in 5,000 feet 
of water and down to a depth of 18,000 feet. The pressure encountered 
in the Macondo well was about 15,000 psi based on mud weight at total 
depth. The water depth, well depth and pressure make the Macondo well 
and other deepwater Gulf of Mexico wells far more technically complex 
than the shallow wells that will be drilled off the coast of Alaska.
    In Alaska's Beaufort Sea, the wells will be in 150 feet of water or 
less. The wells will be between 7,000 to 10,000 feet deep. We have 
reservoir pressure models based on previously drilled wells in the 
Chukchi and Beaufort Seas that show the pressure at total depth in our 
initial exploration wells will be no more than 6,000 psi.
    With lower anticipated bottomhole pressure in the Alaska wells, all 
of the mechanical barriers in Shell's well design have higher overall 
safety margins between operating pressure and mechanical barrier design 
pressures. Even if the riser from the drill rig to the blow-out 
preventer on the seafloor was breeched, as it was in Macondo, the 
weight of the drill mud in the downhole pipe would maintain well 
control and prevent a blowout. To reiterate, Shell's 2012 Arctic well 
program is exploratory. The well will not be converted to a production 
well. It will be permanently plugged and abandoned per Federal 
regulations.
Oil Spill Prevention and Response
    Oil spill prevention and response planning remains a top priority. 
Shell's Oil Discharge Prevention and Contingency Plan is robust. We 
have invested in an unprecedented oil spill response capability to 
support our drilling plans in the Beaufort and Chukchi Seas. Our spill 
recovery equipment is state-of-the-art, widely acknowledged by experts 
as proven and effective under cold-climate conditions and designed to 
remove the worst-case discharge.
    Shell developed a three-tier or layer system for use in the Alaska 
OCS in 2007.

        1.The first tier is located onsite, always less than an hour 
        from the drilling rig. It is a dedicated fleet of purpose-built 
        vessels and specialized oil containment equipment, which will 
        be on-site 24/7 before a drill bit ever touches the sea floor.

        2.The second tier is located to capture oil that might move 
        away from the drill rig; termed near-shore recovery.

        3.The third layer involves pre-staged shoreline protection. 
        This, along with the first two tiers involves extensive use of 
        both local residents and traditional knowledge.

    Shell's oil spill response personnel routinely practice and conduct 
spill response drills. The response system consists of dedicated oil 
spill response assets including:

  <bullet> Offshore recovery vessels with skimmers and boom,

  <bullet> Near-shore barges with skimmer and boom,

  <bullet> Shallow water vessels with skimmers and boom,

  <bullet> Pre-identified protection strategies and equipment for 
        environmentally and culturally sensitive sites, and

  <bullet> Onshore oil spill response teams to deploy and support the 
        above.

    These assets are staffed during operation around the clock with 
trained crews provided by Alaska Clean Seas, Arctic Slope Regional 
Corporation, and Ukpeagvik Inupiat Corporation.
Design Prevention, Containment and Spill Response
    Shell has design standards and practices that have enabled us to 
safely drill many deepwater and shallow water wells worldwide in a 
variety of conditions, including the Arctic. Shell will rigorously 
apply these standards in all well operations on the Alaska OCS. As 
described above, the conditions of the well mean that prevention 
through the mechanical barriers built into the design have a high 
margin of safety.
    The blow out preventers (BOPs) that Shell will use have been 
extensively maintained, inspected and tested by third party 
specialists. The BOPs have been validated to comply with the original 
equipment manufacturer specifications, in accordance with API Recommend 
Practice No. 53. Shell's BOPs will have two sets of shear rams and 
comply with all regulatory requirements and NTLs (Notice to 
Leaseholders).
    We will also maintain the ability to mechanically cap the well in 
the unlikely event of a BOP breach. In fact, all existing Shell wells 
in deep water around the globe can be capped. The design and 
construction of these wells allows them to withstand the pressure 
build-up that results when the well is capped. If the blow-out 
maintains mechanical integrity in the borehole and wellhead, a 
``capping and containment'' operation would be employed. Mechanically 
capping the well, for example with an additional pre-engineered BOP, 
has the ability to reduce or even stop the flow, but may require a 
surface collection system. The benefit of this response methodology is 
that it reduces or completely halts the flow of oil entering the water 
column. This capping method was eventually proven successful in 
terminating the well bore flow even at Macondo, and has been an 
integral part of well control descriptions in industry's recently 
approved permits in the deepwater Gulf of Mexico return to drilling.
    In the extremely unlikely event that the wellhead integrity is 
compromised and an uncontrolled flow occurs, we would employ a pre-
fabricated ``subsea collection'' system. This would consist of a 
capping stack that would be located on top of the blowout preventer, 
collecting fluids to a surface barge where gas, oil and water can be 
separated prior to storage and disposal. Separated gas would be flared; 
separated oil and water would be stored in tanks for subsequent 
disposal offsite or flared.
    Collecting the flowing fluids close to their source of origin 
prevents or limits the flow of oil into ocean waters, and optimizes the 
suite of surface oil spill response capabilities by engaging the 
problem at its source. This is a key part of the strategy that Shell 
has employed in Alaska, even pre-dating the Macondo blowout. Surface 
oil spill response equipment would remain on station in the immediate 
area. Given we will have two functional drilling vessels in our 2012 
exploration operations, each drilling rig will act as the relief backup 
well drilling unit for the other. Each can immediately stop operations 
and respond to drill any ultimate relief well.
Oil in Ice
    A significant amount of oil-in-ice research has been completed over 
the last 30 years and more is underway. A four-year program known as 
the Joint Industry Project (JIP), under the management of SINTEF 
Norwegian Research Institute, was sponsored by six international oil 
companies, including Shell, and involved a host of international 
scientists including those from the Department of the Interior.
    The purpose was to advance knowledge, tools and technologies for 
oil spill response in ice-covered waters. The program examined:

  <bullet> The fate and behavior of oil spilled in Arctic conditions;

  <bullet> In-situ burning of oil in Arctic and ice-covered waters;

  <bullet> Mechanical recovery of oil in Arctic and ice-covered waters;

  <bullet> Use of chemical dispersants in Arctic and ice-covered 
        waters;

  <bullet> Monitoring and remote sensing of oil in and under ice;

  <bullet> Preparation of a generic oil spill contingency plan; and

  <bullet> Field experiments at Svalbard, Norway, in offshore ice-
        covered waters.

    In May 2009, the group spent two weeks in the pack ice in the 
Norwegian Barents Sea to study the behavior of oil spills in Arctic 
waters and to test various response options in realistic oil-in-ice 
conditions. The tests proved that ice can act as a natural boom or 
protective barrier to confine and reduce the spread of an oil spill and 
to provide a longer window of opportunity in which clean-up 
technologies can be used effectively. These tests are the most wide-
ranging research and development programs ever undertaken to evaluate 
Arctic oil spills.
    These real-world offshore tests marked the final stage in the 
largest and most wide-ranging international research and development 
program ever undertaken to enhance detailed understanding, to further 
improve and develop spill-response technologies and to increase the 
ability to react rapidly in the event of an accidental oil spill in 
ice-covered conditions. The summary of that research showed that by 
using a suite of available tools (all of which are part of Shell's 
Alaska tool kit), including Arctic-tested booms and skimmers, and in-
situ burning and dispersants, the majority of oil could be cleaned up 
in a variety of Arctic conditions; including broken ice and slush.
    Shell has already committed to several more years or oil-in-ice 
research in Norway. Beyond those large-scale field trials, we are also 
pursuing test projects in Alaska that will better inform our approach 
to oil spill response. In Situ Burning is well-proven in open water 
conditions and in an effort to expand our ability to ignite a large 
pool of oil using a fixed-wing aircraft, Shell recently conducted a 
``Proof-of-Concept'' test program at the Beacon Training Center in 
Kenai, Alaska in 2010. The tests were successful in showing that safe 
and effective ignition was possible from a fixed wing aircraft. That's 
key as we consider the long distances our aircraft may have to travel 
if an in situ burn is necessary offshore.
    Shell is also a leading sponsor of a Joint Industry Project that 
will help determine the sensitivity of key Arctic species to chemically 
and physically dispersed petroleum under Arctic conditions. Partners in 
the project include the University of Alaska Fairbanks and Barrow 
Arctic Science Consortium, with all dispersant testing being done at 
the Barrow Arctic Research Center in Barrow, Alaska.
Regulatory Challenges in the Arctic OCS
    Shell participated in several Alaska OCS lease sales at the 
invitation of the Federal Government. Although the leases were issued 
to Shell, the government's permitting and regulatory process has not 
been equipped to deliver. As a result, Shell has been blocked from 
drilling even a single exploration well.
    Let me stress that this is highly unusual. The Federal Government's 
decision to hold a sale is, in effect, a decision that OCS exploration 
and development is desired. The Federal Government performs years of 
in-depth analyses before holding an OCS lease sale. Therefore, an 
exploration or development plan that meets regulatory requirements is 
approved. In the case of Shell in Alaska, we have met and exceeded the 
regulatory requirements and still have not been able to drill a well.
    Each of our 414 leases in the Beaufort Sea and the Chukchi Sea has 
a ten-year term. A lease will expire and return to the Federal 
Government at the end of its term, if substantial steps to develop it 
are not taken.
    So, Shell is in a ``Catch-22.'' We have invested more than $3.5 
billion in leases and in supporting infrastructure--equipment, support 
vessels, baseline studies, and workforce training--in order to take the 
first step to explore for oil and natural gas. We have assembled what 
is arguably the most environmentally sensitive and thoroughly 
responsible exploration plan in history. Yet, for reasons largely 
beyond our control, permits have not been issued. Since our leases are 
only valid for a limited time, we are ready to move forward.
A Robust Regulatory Process Is Critical
    Let me be clear, Shell fully supports a robust permitting process. 
Shell does not seek lower environmental standards for Arctic OCS 
activities or a less exhaustive public permitting process. Such a 
process protects people and the environment and ensures safe and 
responsible operations. The bar is high in the Arctic, and it should 
be. Shell fully understands and supports this. We are ready to proceed 
with an exploration program that does precisely that.
    But the regulatory framework should be clear and consistent; and 
the regulatory process should be properly funded, efficient and robust. 
The process should lead to timely decisions. Regardless of one's views 
on oil and gas development, we can all agree that endless delays by our 
government are wasteful to the taxpayer and should not be tolerated. 
Permitting for oil and gas activity must be done thoroughly and to the 
letter of the law. Without that, legal challenges are likely and can 
also act to block a program.
    The recent formal creation of Federal working group dedicated to 
pursuing domestic energy solutions in Alaska is welcome news to Shell 
and builds on conversations we have had with this administration 
related to responsible offshore exploration in the Arctic. We're 
hopeful this effort to coordinate various regulatory workstreams will 
lead to more data, a more efficient permitting process and ultimately, 
a stronger permit.
Recommendations: How Do We Move Forward?
    Now I would like to look forward--to where we go from here and what 
policymakers should do.
    Developing the oil and gas in our Nation's Arctic OCS will require 
governments at all levels--Federal, state and local--to work together 
to develop a workable regulatory framework and to provide focused 
funding and staff for the work.
    Specifically:

  <bullet> Federal permitting agencies must have adequate, trained 
        staff with appropriate expertise and direction to execute the 
        program. Alternatively, the agencies must be given the 
        authority and the direction to do the permitting work through 
        outside experts. This can be accomplished through arms-length 
        funding from pre-approved third-party contractors. Lack of 
        staff should be no excuse for delaying permitting work.

  <bullet> The Federal Government must pursue data collection and 
        analysis necessary for environmental studies, ecological 
        characterization and baseline science required for potential 
        development activities. I stress that existing data is 
        available for exploration. This critical work is required by 
        various statutes and underpins permitting of work in the Arctic 
        OCS. Again, if funding is an issue, the government should be 
        allowed to do the work through arms-length funding from third 
        parties.

  <bullet> Federal and state regulatory agencies must work through a 
        coordinated permitting process. Multiple agencies are now 
        involved in issuing multiple permits for a single offshore 
        project. Duplication and inefficiency lead to delay and waste.

  <bullet> Statutes and regulations should be clear and the permitting 
        process transparent. Agencies should be forced to set and meet 
        milestones for reviewing and processing permit applications. 
        They should have firm timelines for permit delivery. These 
        activities should be coordinated through one office that works 
        with all needed agency participants and contractors to ensure 
        timelines are followed. In short, the government must respond 
        to permit applications in a timely and competent manner.

    Second, looking more broadly to Arctic economic opportunities for 
our country, the U.S. should ratify the Law of the Sea Treaty. While 
Shell's Alaska OCS program is not dependent upon this action, U.S. 
ratification of the Treaty is in the best interest of both national and 
economic security. The Treaty provides a clear and well-accepted 
framework for resolving maritime border questions and for ensuring that 
the U.S. controls the OCS off its coast.
    Ratification could lead to international cooperation (such as the 
maritime border delimitation agreement recently signed between Norway 
and Russia). Ratification could also provide future protection for the 
import and export of petroleum and production and improved capabilities 
for search and rescue and environmental protection.
    Third, policymakers should consider what physical presence the 
Federal Government should have along Alaska's Arctic coastline. At a 
time when nations both in and out of the Arctic are mapping the Arctic 
surface and seafloor, it seems appropriate to develop a strategic plan 
for how and when U.S. manpower will be deployed in the U.S. Arctic and 
what the U.S. government's contribution will be to that deployment.
    Even though the lack of a U.S. Government presence and 
infrastructure in the Arctic does not inhibit or hinder Shell's 
proposed exploration program, we support funding for the U.S. Coast 
Guard and other Federal agencies to identify and pursue resources 
needed to ensure responsible development of economic opportunities in 
the Arctic.
Conclusion
    Oil and gas will remain critical sources of energy for decades to 
come. There are broad and sustained benefits in developing our own 
resources in the Arctic OCS. The U.S. Arctic is resource-rich and 
tapping those resources will create jobs, power the economy, put 
billions into dwindling government coffers, provide energy security, 
reduce imports and reduce our trade deficit. We can ill afford not to 
embrace this momentous economic opportunity.
    Thank you. I am happy to answer any questions.

    Senator Begich. Thank you very much.
    Dr. Borgerson.

 STATEMENT OF SCOTT BORGERSON, Ph.D., SENIOR FELLOW, INSTITUTE 
                   FOR GLOBAL MARINE STUDIES

    Dr. Borgerson. Good morning, Mr. Chairman, Senator Snowe. 
Thank you very much for the opportunity to be here today.
    My short answer to the title of today's hearing, ``Is There 
a Strategy?,'' is no. I'll elaborate why and what we might do 
to fix it in my testimony. So as to not repeat what we heard on 
the first panel about the realities of climate change, the 
facts of the Arctic's opening, I'll skip over that part of my 
testimony, but would like it to be noted that it's submitted 
for the record.
    Senator Begich. It is.
    Dr. Borgerson. Creative local, state, and federal 
initiatives can ensure that we seize this historic economic 
opportunity presented by the Arctic's radical transformation 
and do so in a way that I think is sustainable, both for the 
environment and for local populations, and this is important, 
as well as in the Nation's clear-eyed national security 
interests. I'm advocating that the U.S. embrace and embrace in 
a big way, as I did in an op-ed in the Wall Street Journal last 
Friday along this theme, what might be the world's last and 
potentially most attractive emerging market.
    It's a mistake to leave Alaska in the proverbial icebox. In 
addition to the oil and gas resources we just heard about, the 
Arctic is home to some of the world's largest precious metals 
deposits, as well as fresh water, which is increasingly 
important in a warming world. Another resource is the Arctic 
sea routes, which if realized would be many thousands of miles 
shorter than traditional sea ways around the two capes or 
through the two canals. With massive tidal, wind, and 
geothermal capacity, the Arctic also has renewable energy 
potential.
    While the U.S. sits on the sidelines, other Arctic nations 
are moving forward with ambitious development programs. Russia 
is actively working to open the Barents region. Canada is doing 
the same in the Yukon. Norway and Iceland each of multi-billion 
dollar energy projects under way. And Greenland, for now still 
under Danish rule, is exploring 31 billion barrels of oil 
estimated to be off its coast.
    Before detailing what kinds of strategic investments should 
be given priority in the American Arctic, let me say generally 
first that I think the overall approach needs to be balanced. 
In my view, neither extreme of the ``Drill, Baby, Drill'' crowd 
and the idea that Alaska can somehow build a bright future on 
oil and gas extraction alone, versus the equally unrealistic 
position that the entire State is to be set aside as a nature 
preserve with zero development, is acceptable or realistic.
    Rather, I believe a comprehensive approach should be 
undertaken that is predicated upon environmental best practices 
to ensure we meet our responsibilities as stewards of this 
pristine frontier, is sensitive to the economic and human 
rights of indigenous communities, is supportive of increasing 
domestic oil and gas production, while simultaneously and 
aggressively accelerating renewable energy projects, is 
appreciative of the central importance of resource owners, and 
is forward-looking in positioning the State 1 day that it will 
ultimately transform from primarily an exporter of natural 
resources to a vibrant, innovative, and dynamic economy further 
up the value chain.
    Some other comments and thoughts are in my testimony, but 
let me skip ahead, submit it for the record--but let me skip 
ahead to some policy suggestions for your consideration that 
might help the U.S. have a twofold strategy, one of both 
mitigating the risks, which you heard a lot about in the first 
panel, as well as, importantly, embracing the opportunities in 
the new Arctic.
    First--and I put it first for a reason--let me add my voice 
to the chorus. It's long overdue that the U.S. accedes to the 
U.N. Convention on the Law of the Sea. I wrote a study at the 
Council on Foreign Relations articulating all the reasons why 
it's in our national security interest to do so. It has broad 
bipartisan support. I think there is not a serious voice in the 
national security establishment that would not endorse our 
acceding to the treaty, and it's embarrassing, frankly, as a 
Nation that we've not yet. I'd be happy to speak to that during 
the question-answer session if there are questions tied to the 
treaty.
    Second, one creative idea that came out of a recent 
conference I attended in Anchorage, I know you spoke at, 
Senator Begich, The Arctic Imperative, is the idea of somehow 
using Alaska's really incredible budget reserves and the 
permanent fund, which is especially unique in this current 
budgetary environment, in a sovereign wealth fund-type model, 
and there are established models abroad, and I can speak to 
that a little bit, to facilitate private investment.
    Three, tied to that, craft ambitious federal-state 
strategies for attracting foreign capital. I think that's 
consistent with the President's recent statement along these 
lines. We're open for business and should welcome foreign 
capital to help develop the American Arctic.
    Four, unshackle local commerce. Frankly, Washington, D.C., 
needs to get out of the way of Alaskan development and I think 
can strike an important balance between environmental 
sustainability and development with some overarching 
legislation.
    Fifth, work with Canada on the Beaufort maritime boundary 
line and Northwest Passage disputes.
    Sixth, recapitalize the nation's icebreaker fleet, as we've 
heard about today.
    Seventh, amend the U.S.-build provision of the Jones Act. 
That's sometimes controversial, but I think important.
    A deepwater port, studying other emerging markets, and then 
supporting science, which is an important foundation for these 
policy decisions.
    I look forward to speaking to any of those ideas or 
answering any questions you might have in the question-answer 
period. Thank you.
    [The prepared statement of Dr. Borgerson follows:]

     Prepared Statement of Scott Borgerson, Ph.D., Senior Fellow, 
               Institute for Global Maritime Studies \1\
---------------------------------------------------------------------------
    \1\ The Institute for Global Maritime Studies is a publicly 
supported, non-profit educational organization, dedicated to exploring 
a wide range of policy issues relating to the sea. The Institute's 
purpose is to foster greater public awareness of the importance to 
humankind of the oceanic world, and it is committed to advancing the 
national welfare and the public good.
---------------------------------------------------------------------------
    Mr. Chairman:

    Thank you for the opportunity to participate in today's hearing 
``Defending U.S. Economic Interests in the Changing Arctic: Is There a 
Strategy?'' My short answer is NO. While I have seen some interesting 
proposed legislation in Juneau and Washington, from my perspective I 
have not yet heard a strategic vision articulated for America's future 
in the new Arctic.
    The radical climate change underway in the high latitudes is well 
chronicled and an accepted fact among the scientific community. It is 
happening and undeniable no matter what one's political stripes. My 
testimony, however, is not concerned with the causes of the warming or 
potential mitigation remedies that are indeed important, but rather 
with what practical steps should be taken because of this new reality.
    Creative local, state and Federal initiatives can ensure that we 
seize this historic economic opportunity presented by the Arctic's 
radical transformation and do so in a way that is sustainable both for 
the environment and for local populations as well as being in the 
country's clear-eyed national security interests.
    I am advocating that the U.S. embrace, and embrace in a big way, 
what might be the world's last and potentially most attractive emerging 
market as opposed to leaving Alaska in the proverbial icebox.
    Long literally and figuratively frozen to outside investors, the 
Arctic now has melting sea ice and thawing tundra that are yielding 
huge resource opportunities. According to the U.S. Geological Survey 
and Alaskan state studies, 22 percent of the world's undiscovered oil 
and gas reserves are to be found in the Arctic. On the North Slope 
alone, there are an estimated 40 billion barrels of oil and 236 
trillion cubic feet of gas.
    The Arctic is also home to some of the world's largest precious 
metals deposits, as well as fresh water, which is increasingly 
important in a warming world. Another resource is the Arctic's sea 
routes, which, if realized, would be many thousands of miles shorter 
than traditional seaways around the two capes or through the two 
canals. With massive tidal, wind and geothermal capacity, the Arctic 
also has renewable energy potential.
    While the U.S. sits on the sidelines, other Arctic nations are 
moving forward with ambitious development programs. Russia is actively 
working to open the Barents region. Canada is doing the same in the 
Yukon. Norway and Iceland each have multibillion-dollar energy projects 
underway. And Greenland, for now still under Danish rule, is exploring 
31 billion barrels of oil estimated to be off its coast.
    Before detailing what kinds of strategic investments should be 
given priority in the American Arctic, let me say generally first that 
I think the overall U.S. approach needs to be balanced. In my view, 
neither extreme of the ``drill baby drill'' crowd and the idea that 
Alaska can somehow build a bright future on oil and gas extraction 
alone, versus the equally unrealistic position that the entire state is 
to be set aside as a nature preserve with zero development is 
acceptable.
    Rather, I believe a comprehensive approach should be undertaken 
that is predicated upon environmental best practices to ensure we meet 
our responsibilities as stewards of this pristine frontier, is 
sensitive to the human and economic rights of indigenous communities, 
is supportive of increasing domestic oil and gas production while 
simultaneously and aggressively accelerating renewable energy projects, 
is appreciative of the central importance of resource owners, and is 
forward looking in positioning the state one day to transform from 
primarily an exporter of natural resources into a vibrant, innovative 
and dynamic economy farther up the value chain.
    For example, why aren't Anchorage, Fairbanks and other Alaskan 
cities already mostly powered from green sources and world leaders in 
the development of alternative energy technologies? Why isn't Alaska 
more centrally part of the explosive growth in Asian economies that are 
in relative close geographic proximity? Why isn't Alaska aggressively 
pursuing a host of exciting investment opportunities including 
infrastructure expansion and rare earth mineral projects? Why isn't 
Alaska with its vast Arctic resources at the forefront of leading the 
Nation out of its current economic funk? Why shouldn't the American 
Arctic be the future financial, intellectual, and logistics epicenter 
for this increasingly important region?
    Here are some policy proposals for your Committee's consideration 
that might better position Alaska and the United States to mitigate the 
risks and embrace the opportunities of the new Arctic:

        1. Formally accede to the U.N. Convention on the Law of the Sea 
        (UNCLOS). There are numerous global strategic imperatives for 
        why this is long overdue and urgently needed. In the Arctic, 
        more specifically, the convention includes provisions for 
        extending U.S. sovereignty over its extended continental shelf; 
        allows for stricter environmental standards over Arctic 
        shipping; establishes protocols for managing the Bering Strait 
        which will become a key maritime choke point; and protects the 
        mobility of U.S. flagged vessels and those of our allies in new 
        Arctic transit routes, to name but a few.\2\
---------------------------------------------------------------------------
    \2\ For a summary of the arguments for and against acceding to the 
Convention see ``The National Interest and the Law of the Sea,'' 
Council on Foreign Relations Special Report by Dr. Scott Borgerson, May 
2009.

        2. Consider enabling Alaska's $13 billion constitutional budget 
        reserve and its $40 billion Triple-A rated permanent fund to 
        function like an Alaskan Sovereign Wealth Fund. Deploying this 
        capital reserve smartly alongside private monies would allow 
        Alaska to accelerate Arctic development projects that are 
        shovel-ready. If the money were steered toward increasing oil 
        production and financing renewable energy projects--both 
        administration priorities--it would have the added benefit of 
        helping the country reduce its dependence on Middle East oil. 
        The Alaska Industrial Development and Export Authority and an 
        envisioned State Infrastructure Bank might be useful vehicles 
---------------------------------------------------------------------------
        for promoting these investments.

        3. Craft ambitious Federal and state strategies for attracting 
        foreign capital. This would be consistent with the President's 
        formal commitment last month to an open national investment 
        policy. As our recent deficit challenges underscore, welcoming 
        any investor interested in the American Arctic would create 
        meaningful new jobs and contribute to economic recovery. Of 
        course, any foreign investment will need to navigate the 
        interagency Committee on Foreign Investment in the United 
        States designed to safeguard national security interests.

        4. Unshackle local commerce. This might be aided by a 
        congressional ``Arctic Preservation and Development Act'' that 
        could lay out the rules of the game, balancing environmental 
        protection and the state's economic interests. This legislation 
        should be pursued irrespective of ANWR, and focus more on 
        creative ideas of how environmentalists and industrialists can 
        sit around the same table working in common cause to open 
        Alaska up to development while doing so with the highest 
        conservation standards.

        5. Resolve our differences with Canada over our Beaufort Sea 
        maritime boundary line and the Northwest Passage. The U.S. and 
        Canada enjoy a special relationship and I believe conditions in 
        Ottawa are ripe to strike a deal. We should come to agreement 
        on a compromise maritime boundary line in the Beaufort Sea so 
        that offshore energy production can proceed there. We should 
        also deepen and widen our collaboration over the Northwest 
        Passage, creating a joint-Arctic Navigation Commission to 
        promote and safeguard commerce through both nations' waters 
        using the St. Lawrence Seaway as a model. In general, the U.S. 
        should approach the Arctic in a spirit of enthusiastic 
        diplomacy and champion other collaborative diplomatic 
        initiatives such as strengthening the Arctic Council, 
        formalizing an Arctic Ambassadorship, and establishing a North 
        Pole marine preserve.

        6. Recapitalize the nation's icebreaker fleet. The country 
        finds itself in a dire predicament of being an Arctic nation 
        with one dying heaving icebreaker. Icebreakers are needed for 
        the same Coast Guard missions that exist on America's other 
        four coasts such as supporting commercial shipping, research 
        and science, search and rescue, oil spill response, and 
        projecting sovereignty. Given the precipitous decline in this 
        nation's shipbuilding capacity, even if Congress appropriates 
        monies for new ships today, given the long lead time to build 
        these complex vessels they likely wouldn't be operational until 
        after the Arctic is already seasonally ice free. An interim fix 
        might be to lease foreign icebreakers until new ships can be 
        built, but by doing this we are in effect outsourcing our 
        sovereignty, which is unthinkable for the world's greatest 
        naval power but probably necessary as an interim fix.

        7. Amend the U.S. ``build'' provision of the Jones Act. The 
        Jones Act--a protectionist policy that requires all domestic 
        maritime cargo be carried on vessels that are owned, flagged, 
        crewed, and built in America--has killed the U.S. merchant 
        marine and hurts Alaska and other noncontiguous states and 
        territories more than it does the rest of the country. Because 
        of the market distortions created by the U.S. build provision, 
        constructing a commercial tanker in the U.S. costs 2-3 times 
        more than building the equivalent ship abroad, even in 
        countries with higher labor and environmental costs. Relaxing 
        this restriction to allow foreign built vessels into domestic 
        trade routes would decrease the cost of Alaska's seaborne 
        imports and make its exports more competitive. Commercial 
        shipping is also a less carbon intensive form of transportation 
        for freight intensive cargo. Waving the domestic build 
        requirement would have the added benefit of helping rejuvenate 
        America's shipyards with the likely effect of reducing the cost 
        of building new icebreakers.

        8. Develop a deep-water port for both private shipping and as a 
        regional Coast Guard base. This port should be built with the 
        vision of 1 day becoming a high latitude equivalent of 
        Singapore which profits handsomely from its geostrategic 
        location on the Malacca Straits. Careful study should be given 
        to the optimal port among existing candidates, and then a 
        public-private partnership pursued to build out new Coast Guard 
        facilities alongside commercial piers. In addition to Coast 
        Guard and other military traffic, this port should be designed 
        to support fishing boats, dry bulk tankers, offshore support 
        vessels and cruise ships.

        9. Study other emerging markets. What are the best practices to 
        emulate and pitfalls to avoid from previous emerging market 
        examples that are more or less analogous to Alaska's position 
        today such as Mongolia, Peru and Brazil? What are optimal 
        investment models in the American Arctic? How can creative 
        public policies in the form of tax incentives jumpstart 
        innovation and entrepreneurism?

        10. Support science. Looking to the Arctic Research Commission 
        for direction, how can strategic investments in scientific 
        research help jump-start economic development? Some examples 
        include bathymetric surveys, climate studies, fish stock 
        accounting, and seismic research. Sound science leads to better 
        public policy and therefore solid foundations for spurring 
        economic growth.

    America and Alaskans have a rare multigenerational opportunity of 
facing a relative blank canvas for greenfield investments. It would be 
a mistake to press ahead hastily and exploit the American Arctic with 
reckless abandon. At the same time, it's neither fair to Alaskans nor 
good for the country to use litigation and legislation to stonewall 
progress. No other state would settle for being made into a theme park. 
The uncertainty created by the absence of a comprehensive U.S. Arctic 
development strategy is an investment killer.
    If the U.S. can wake up to the Arctic potential it possesses, 
Secretary of State William Seward's 1867 purchase of Alaska for $7.2 
million could turn out to be the single greatest investment in American 
history.
    Thank you and I look forward to answering your questions and 
expanding on any of these points during the follow on question and 
answer period.

    Senator Begich. Thank you very much.
    Dr. Metzger.

    STATEMENT OF ANDREW T. METZGER, Ph.D., P.E., ASSISTANT 
 PROFESSOR, DEPARTMENT OF CIVIL AND ENVIRONMENTAL ENGINEERING, 
               COLLEGE OF ENGINEERING AND MINES, 
                UNIVERSITY OF ALASKA, FAIRBANKS

    Dr. Metzger. Thank you, Mr. Chairman, and thank you for the 
opportunity to provide the testimony on the challenges of 
infrastructure in the Arctic. As an engineering professor at 
University of Alaska-Fairbanks, I've been studying the topic of 
Arctic marine civil infrastructure for the past 2 years as a 
researcher. During this time I've traveled in the region and 
conversed with many Arctic stakeholders from government, 
industry, and local communities.
    On the topic of infrastructure challenges for stakeholders, 
early in the study I was immediately struck by the overall lack 
of infrastructure. Existing roadways are generally undeveloped 
and not connected to the contiguous highway system. There is no 
rail system. Transportation typically consists of annual barge 
service along with air service that is more frequent. Any 
materials missing from the barges have to be either flown in or 
barged in the following year.
    As far as existing port and harbor facilities, there is a 
port in Nome. This facility has a draft of approximately 24, 25 
feet, and has limited dockage. There's a pier servicing the Red 
Dog zinc mine, but this facility is specialized for loading 
ore. There's a number of shallow-draft barge facilities in the 
region as well.
    There's an extensive network of air strips. The majority of 
these are intended for small aircraft, although jet service is 
available in a few locations. Presently, the norm in the Arctic 
coastal communities is that existing housing, water, 
wastewater, and power utilities only marginally meet the 
demands of the community. Communities would likely be 
overwhelmed with an influx of people.
    Rigors of the Arctic cannot be overstated. People and 
facilities in this environment must contend with extreme cold, 
permanently frozen soil, or what we call permafrost, and lack 
of daylight in the winter. In addition, coastal areas must 
endure intensive wind and wave conditions, subsea permafrost, 
accelerating erosion, and potential catastrophic hazards from 
sea ice.
    Due to severe winter temperatures, many activities are 
hindered or cease altogether. Because of this, construction is 
often confined to 3 or 4 favorable months of the summer. 
Permanently frozen soil extending out into the sea is known to 
exist, but is not well documented or studied. This so-called 
subsea permafrost will affect dredging and requires 
extraordinary care when building on it.
    Delays caused by adverse wind, waves, and ice movement are 
commonplace and delivery schedules are routinely altered by 
days or longer. Coastal erosion will significantly impact 
marine infrastructure in the Arctic. The soil that is washed 
away from shore eventually settles on the sea floor. This 
action can fill dredged navigation channels and the erosion 
itself can consume shoreside infrastructure. The latter has and 
is occurring in Arctic coastal communities.
    The presence of sea ice is cause for concern and must be 
handled with care. Massive ice flows pushed by wind move along 
and in to the shore. These ice flows can be thought of, if you 
will, as enormous bulldozers. This mass of ice will impact 
marine structures with extraordinary force. It's not uncommon 
for these bulldozers to ride up on shore some distance, and a 
spectacular example of this occurred at Barrow this spring.
    Ice flows gouge the sea floor and can destroy subsea 
pipelines, as well as dredged navigation channels. It must be 
noted that each year there's thousands of these bulldozers at 
work along the coast.
    These facts must be addressed in locating and designing 
infrastructure along the Arctic coast. In a broader context, we 
design civil infrastructure for the extreme, not the mean. 
Quantitative information about extremes of waves, winds, 
currents, and sea ice conditions is not readily available for 
the Arctic, and there are few engineers and construction 
contractors that have considerable experience in the region.
    I'd like to be clear that none of these comments are meant 
to indicate Arctic marine infrastructure is impractical. 
Rather, they are meant to briefly outline some of the 
challenges we face and information we need to be successful.
    On the topic of investments in infrastructure, based on the 
information I've gathered from Arctic stakeholders, I'll 
summarize the sentiments concerning Arctic infrastructure as 
follows: Build it and we'll use it.
    The ability to refuel and resupply at higher latitudes 
appears to be a limiting factor for maritime operations. An 
adequate refuel and resupply point much farther north than 
Dutch Harbor would greatly benefit a number of stakeholders.
    Such a facility could be a port. It could also be a 
lightering facility, an offshore fuel mooring, and there are 
other possibilities. While the port option may be most 
desirable to some stakeholders, latter options are potential 
near-term goals that would enhance our ability to operate in 
the Arctic, possibly serving as interim measures until a port 
can be built.
    The presence of a port in the Arctic will likely promote 
diverse economic development. However, a port facility is just 
that, a port, a portal or a doorway, a transition between modes 
of transportation. One side of the door is, of course, marine 
transportation. A port driven by economic opportunity will 
require a companion project on the other side of the door. The 
companion project would likely be rail, roadway, or even 
aviation infrastructure.
    A key area of need is basic shoreside civil infrastructure. 
Facilities with adequate lodging, water, wastewater, and 
storage facilities are not generally available, but will be 
needed to support any significant operations or developments. 
In my opinion, development of shoreside civil infrastructure is 
necessary before any other infrastructure development.
    Thank you. That concludes my statement.
    [The prepared statement of Dr. Metzger follows:]

    Prepared Statement of Andrew T. Metzger, Ph.D., P.E., Assistant 
 Professor, Department of Civil and Environmental Engineering, College 
                                  of 
         Engineering and Mines, University of Alaska, Fairbanks
    Thank you for the opportunity to provide testimony on the 
challenges of infrastructure in the Arctic. As an engineering professor 
at the University of Alaska Fairbanks that specializes in marine civil 
infrastructure, I have been studying the topic of Arctic Marine Civil 
Infrastructure, in the context of engineering design and construction, 
for the past 2 years. During this time, I've visited communities on the 
North and Northwestern Alaska coastlines and conversed with many Arctic 
stakeholders including Federal and State Agencies, oil-and-gas and 
mining interests as well as residents of communities in the region.
    Before I continue, I would like to clarify that by marine civil 
infrastructure, I am referring to civil engineering infrastructure that 
supports maritime operations.
Infrastructure Challenges for Stakeholders
    When I began my work on this topic, I was immediately struck by the 
overall lack of infrastructure. Existing roadways are generally 
undeveloped and not connected to the contiguous highway system. There 
is no rail system. Transportation consists of annual barge service 
along with air service that is more frequent. Since barge traffic is 
sporadic during the one or two months of ice free seas, all materials 
must be carefully scheduled as much as a year in advance. Any missing 
materials must be either flown in or sent via barge the following year.
    I've also come to understand that the lack of infrastructure has 
precluded development of significant mineral resources in Arctic 
regions of Alaska.
    As far as existing port and harbor facilities: There is a port in 
Nome, Alaska. This facility has a draft of 25 feet and limited dockage. 
There is a pier servicing the Red Dog zinc mine, but this facility is 
specialized for loading ore onto vessels that lighter to larger vessels 
offshore. An assortment of other facilities servicing barges also exist 
in the Arctic; along the coasts and in some of the major river systems. 
These barge facilities are characterized by shallow depth; 
approximately 10 feet or less.
    Presently, the norm for Arctic coastal communities is that existing 
housing, water, wastewater and power utilities only marginally meet 
community needs. Consequently, shore side support for escalating 
maritime activities, as well as development of any new marine 
infrastructure, will likely overwhelm these communities.
    The rigors of the Arctic cannot be overstated. People and 
facilities in this environ must contend with extreme cold, permanently 
frozen soil (permafrost) and lack of daylight in winter. In addition, 
coastal communities and marine infrastructure must contend with intense 
wind and wave conditions, subsea permafrost, accelerating erosion and 
potentially catastrophic hazards from sea ice. These harsh conditions 
will significantly shape development of marine infrastructure in the 
Arctic as well as stakeholder activities.
    Extreme cold impedes the ability of humans to do tasks and can 
cause equipment to operate at a diminished rate or not at all. There is 
a point at which productivity is essentially zero and activities must 
be stopped; primarily due to the inability of emergency responders to 
operate. During the winter months it should be anticipated that 
operational and construction activities will be hindered or halted 
altogether. Because of this, most construction activities will be 
confined to three or four favorable months in the summer.
    Permanently frozen soil extending out into the sea is known to 
exist but is not well documented or understood. This subsea permafrost 
presents two challenges. First, it may make dredging impractical since 
frozen soil tends to be more like rock. Second, if exposed by dredging, 
and as climatic warming continues, the permafrost will melt. This will 
require carefully designed foundation structures which can either keep 
the permafrost frozen or perform well should the permafrost melt. The 
presence of subsea permafrost will also affect navigation channel 
design and construction.
    Those who routinely transport freight in the Arctic are keenly 
aware of intense winds and waves that can occur. Delays caused by 
adverse winds, waves or ice movement are commonplace. Committee members 
may be familiar with the popular television show, Deadliest Catch, and 
can imagine these challenges, and understand how delivery schedules are 
routinely altered by days or even weeks. Another way to think of this 
is to contemplate a long route crossing intense weather and rough seas, 
to a remote location, with no supplies or safe haven along the way. It 
is easy to see the challenge of planning and logistics for operations 
or construction in the Arctic.
    Eroding coastlines, exacerbated by longer periods of exposure to 
wave action (a result of diminishing sea ice) will impact marine civil 
infrastructure in the Arctic. The soil that is washed away from the 
shore could be described as flowing mud. Water transports this mud 
which eventually settles on the seafloor. This action can fill dredged 
navigation channels and the erosion itself can consume shore side 
infrastructure. The latter has and is occurring in some Arctic coastal 
communities.
    The presence of sea ice is cause for concern and must be handled 
with care in the design and construction of coastal infrastructure. 
``Ice out,'' when the ice finally breaks away from the shores in late 
spring and summer, is an exciting time for every community along 
Alaska's northern coastline because it allows fishing and the delivery 
of supplies. However, just as the ice is moved offshore by the wind, it 
can be blown back to shore in a matter of hours. When this happens, an 
ice floe can act like a bulldozer as it is blown toward shore. The ice-
mass will impact marine structures with extraordinary force. And, it is 
not uncommon for these ``bulldozers'' to ride up on shore for some 
distance. These facts must be addressed in siting and designing 
infrastructure along the Arctic coast. The portion of the ice floe 
beneath the water will gouge the seafloor, excavating soil and forming 
trenches. This action can destroy subsea pipelines as well as dredged 
navigation channels. And it must be noted that each year there are 
thousands of these bulldozers in the shallow waters along the Arctic 
coast of Alaska. Virtually no portion of the U.S. Arctic coast is 
unaffected by sea ice.
    Creating new infrastructure in the Arctic will be constrained by 
the fact that researchers know so little about it--from an engineering 
perspective. Arctic infrastructure challenges are unique and there are 
few engineers and construction contractors that have considerable 
experience with them.
    In a broader context, reliably engineered systems--systems with an 
acceptably low probability of failure--require adequate knowledge of 
demands placed on the system. Simply stated, we design engineered 
systems for the extreme, not the mean. Quantitative information about 
the extremes of environmental conditions in the Arctic, including 
waves, wind, currents and, sea-ice conditions, is not readily 
available. Therefore, information needed to design reliable 
infrastructure in this region is generally not available.
    I would like to be clear, none of these comments are meant to 
indicate Arctic Marine Infrastructure is impractical. Rather, they are 
meant to briefly outline some of the challenges we face and information 
we need to be successful.
Investments in Infrastructure
    In the venues I've attended on the Arctic and its challenges, and 
comments from the various stakeholders, I will summarize sentiments 
concerning arctic marine infrastructure as follows: ``Build it and 
we'll use it.''
    In the context of maritime operations, the most limiting factor 
appears to be the ability to refuel and resupply in the higher 
latitudes of the Arctic. In light of this, an adequate refuel and 
resupply point, much further north than Dutch Harbor, would greatly 
benefit arctic maritime operations for a range of stakeholders. Such a 
facility could be: a port; a lightering facility--in which fuel and 
supplies are stored on land and transported to vessels offshore via 
smaller craft; offshore fuel moorings--a vessel mooring connected to a 
subsea pipeline conveying fuel from storage tanks onshore (this option 
could be coupled with lightering for supplies). There are other 
possibilities beyond what I have stated.
    While the port option may be most desirable to some stakeholders, 
the latter options are potential near term goals that would enhance our 
ability to operate in the Arctic. Concepts like the lightering facility 
or the fuel mooring may also be approached as interim measures that 
will provide some level of service until a port can be built.
    In consideration of new economic opportunities in the Arctic, the 
presence of a port will likely promote diverse economic development. 
However, a port facility is just that, a ``port,'' a ``portal'' or 
``doorway''; a transition between modes of transportation. On one side 
of the ``door'' is, of course, marine transportation. An economically 
driven port will require a companion project on the other side of the 
door. This is the case for all other economically orientated ports in 
the Nation. The companion project would likely be rail, roadway or even 
airport infrastructure.
    Another key area of need is basic shore side civil infrastructure. 
Facilities with adequate lodging, water, wastewater and storage 
facilities necessary to support significant seasonal or sustained 
operations by private or government entities are not generally 
available. In my view, development of shore side civil infrastructure 
is necessary before any other infrastructure development.
    Thinking long term, and in consideration of all stakeholders' 
needs, it may be beneficial to pursue the question of marine 
infrastructure needs in terms of an Arctic Marine Transportation 
System. While a single infrastructure asset will benefit one or more 
stakeholders, a well-planned system of civil infrastructure assets 
could potentially be even more beneficial to a wider set of 
stakeholders. Defining such a system beforehand will surely result in 
more efficient use of resources than a system pieced together in a 
discretionary manner.
    Thank you.
    This concludes my written testimony.

    Senator Begich. Thank you very much. Thank you all for 
giving your testimony. We'll open for questions. I'll start 
with Senator Snowe in a 5-minute round.
    Senator Snowe. Thank you, Mr. Chairman.
    Mr. Slaiby, last week I understand that your colleagues 
briefed the Committee staff regarding prevention and oil spill 
response strategy that Shell has developed for the Arctic 
leases. I know that we're in the exploratory phase and there's 
a difference in terms of depth between the wells your company 
is exploring as opposed to what occurred in the Gulf with the 
Deepwater Horizon explosion.
    Your contingency plan is predicated on a multi-tiered 
vessel strategy, as I understand, one for the skimming vessel 
and then of course having containment vessels to come to the 
scene before the skimming vessels would be filled. The Pew 
Environment Group disputes your company's claim that the oil 
response vessel, the NANUQ, would be able to deploy fast enough 
to respond to a spill in the Chukchi Sea, that your response 
vessels are not actually on the scene and would take longer 
than you claim to arrive there. What is your response to that 
assertion?
    Mr. Slaiby. Senator Snowe, thank you for the question. We 
are required to have vessels deployed within 60 minutes of a 
spill. This is something that we have done in full recognition 
that we are in a remote area and have to design our operating 
practices along that line. It's actually more than one vessel, 
Senator. It's a number of vessels that would be responsible for 
deploying a boom.
    Senator Snowe. So you could meet that requirement of 
response within 60 minutes?
    Mr. Slaiby. We will beat that requirement of 60 minutes.
    Senator Snowe. So you're saying that what the Pew 
Environment Group indicates is wrong?
    Mr. Slaiby. I won't comment specifically on what's in the 
report. I did read the report and we take exceptions to certain 
areas that they report.
    Senator Snowe. On this one specifically?
    Mr. Slaiby. This one specifically.
    Senator Snowe. We thought, as you know, and we talked about 
it earlier, that BP was prepared for the worst case scenario, 
having been approved by our agency, the MMS, and ultimately we 
discovered otherwise. Now, the Interior Department estimated 
recently that a hypothetical blowup in an oil well on the 
Chukchi Sea could release 1.4 million barrels within 39 days. 
Has your contingency planning been based on that scenario?
    Mr. Slaiby. Senator, the study that was done by the DOE 
involved a worst case discharge of a particular sand. We will 
not be drilling those type of sands. We will be using the 
required notice to lessees to calculate the worst case 
discharge for the reservoirs that we will drill, and BOEM will 
agree--we will come to an agreement on our ability to recover 
that worst case discharge.
    Senator Snowe. So they're saying--you're saying that it's 
in different types of sand than they were using for estimates?
    Mr. Slaiby. The worst case discharge that was presented as 
part of this supplemental EIS, Senator, was to inform the 
decisionmaker, Secretary Salazar, of what could be the possibly 
worst worst case if, hypothetically, all were to go wrong.
    Senator Snowe. So what would be your worst case scenario? 
What have you designed your contingency plans for?
    Mr. Slaiby. We have designed our contingency plans to 
recover 25,000 barrels a day mechanical recovery. We would have 
additional recovery available beyond that, in other words, in 
situ burning, dispersants, capping and containment, that 
actually fit above and beyond the mechanical skimming.
    Senator Snowe. Does the Interior Department agree with 
that?
    Mr. Slaiby. The Interior Department agrees with that, but 
wants to see the mechanical efficient--the mechanical skimming 
agree with the worst case discharge number.
    Senator Snowe. Speaking of dispersants, that was the other 
dimension to the Deepwater Horizon. There, the use of 
disperants was unprecedented in terms of amount, and obviously 
we're still learning about the effects and the impact on sea 
life. We know that, ironically, the dispersants that were used 
in the Gulf became more toxic to some sea life after they had 
been mixed with oil.
    I understand that you completed a $2.5 million 2-year study 
in collaboration with the University of Alaska at Fairbanks to 
look at the impact of dispersant use on marine life and living 
sources. You've tested those in cold water, both in the ocean 
and the Ohmsett test facility, in collaboration with the Bureau 
of Ocean Energy Management Regulation and Enforcement.
    What differences do you see in the impact of dispersants in 
the cold waters where you tested and the Gulf of Mexico?
    Mr. Slaiby. Well, Senator, I'm not familiar with all the 
details on exactly what the differences are. I know that the 
study that we are doing right now in Barrow, Alaska, actually, 
has not been completed, but the results have been encouraging 
with respect to the preservation of biota and the ability to 
actually make an impact over there. There are bacteria that 
will eat the oil.
    Senator Snowe. Will there be further reports on the results 
of this study?
    Mr. Slaiby. The study will have to be peer reviewed and 
then it will be released, I suspect by the end of the year.
    Senator Snowe. Thank you.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much. We'll probably have a 
couple more back and forths here, but, Mr. Slaiby, let me ask 
you a couple for the record so we understand the differences. 
The depths that you'll be exploring in will be what? How deep 
of water will you be in?
    Mr. Slaiby. Senator, it will be in about 140 feet to about 
120 feet of water.
    Senator Begich. What is the pressure per square inch 
compared to the Gulf? I know in the Gulf it was a couple 
thousand, if I remember. I can't remember it exactly. The 
depths were 5,000. What's the pressure that you'll be dealing 
with or you think you'll be dealing with?
    Mr. Slaiby. We actually have a pretty good idea because we 
have drilled wells here.
    Senator Begich. Right, in the early 80s, right?
    Mr. Slaiby. In the 80s and 90s.
    Senator Begich. Right.
    Mr. Slaiby. So we believe we've got a very good handle on 
the pressures. They'll be about a third of the pressure that we 
saw on the BP Deepwater Horizon, anywhere from 5 to 7,000 
pounds.
    Senator Begich. You had noted, and I knew you had done 
this, that you had done drilling in the 80s and 90s, 
exploratory wells. Would it be fair to say when you did those 
wells to where we are today the scientific knowledge for 
cleanup and other activity and just the technology has advanced 
somewhat?
    Mr. Slaiby. Senator, I would say more than somewhat. I 
mean, clearly the drilling technology is vastly improved. I 
think cleanup technology and actually well control technology 
were able to be--were improved last year in the Deepwater 
Horizon incident. We will be deploying a capping system that 
will be in the theater when we start. We're also deploying and 
started contracting for a containment system. So these are huge 
advances and really work to our benefit of keeping the oil on 
the scene.
    Senator Begich. And blowout preventers, how does that work 
in your business?
    Mr. Slaiby. We have very simple wells, so we are able to 
put--and I know that everybody became a drilling engineer last 
summer.
    Senator Begich. 308 million engineers now.
    Mr. Slaiby. It's quite impressive.
    But we have gone to using a weekly inspection--weekly 
testing, excuse me, of the BOPs, functional testing. We're also 
putting in two of the shearing rams in our BOP. Because these 
are very simple wells, we're able to do that.
    The one other thing I might add is, even if the BOP were to 
become inoperable, there will be, because of the lower 
pressures of these wells, enough drilling fluid in that well to 
control the outflow. A very different situation than in 
deepwater Gulf of Mexico.
    Senator Begich. And access to the well, because it's 
obviously a lot more shallow, is--robotics were used in the 
deep water. What is used here if you have to get to the well? 
Is it a combination?
    Mr. Slaiby. We could use divers, we could use remote-
operated vehicles.
    Senator Begich. So people could actually be down there?
    Mr. Slaiby. People would be. This would be within the 
range. We will probably use--we'll have divers, but we would--
our first recourse would be the remote-operated vehicles.
    Senator Begich. Remote operation.
    Again, thank you for that. You heard my question to Admiral 
Papp. I will say this as an Alaskan. Any time we think of oil 
and gas, we get sued. You don't have to do anything. But the 
standards I think are much higher because of that in a lot of 
ways, because of the process you go through. The review is much 
higher.
    Is the statement that I made--I know Admiral Papp responded 
to it, and that is, you're not going to be able to drill there 
unless you have a plan that's going to take the worst case 
scenario, as well as other conditions that are around your 
efforts, as well as other efforts; is that fair to say?
    Mr. Slaiby. It's clear to say from a number of different 
fronts. Shell would not be working in the Arctic had we 
believed that there was something, an event that we could not 
control. We simply would not be there. I believe we have the 
best oil spill response plan anywhere in the world.
    Senator Begich. Very good.
    Dr. Borgerson, let me go to the broader sense. And I 
appreciate you had kind of a shopping list of things that could 
be done. We've taken a little time here on oil and gas, but 
there are other opportunities in the Arctic. You had made the 
note, how do you balance this between kind of both extremes, 
lockup or let anything happen everywhere.
    How do you get to that balance when you're talking about 
oil and gas or you're talking about potential mineral, 
fisheries, tourism, shipping opportunities? It's a wide range. 
Can you give me kind of a sense, how you think there's an 
ability to get to a balance here? I believe there is because it 
is a unique frontier of development, but we have to protect the 
unique environment up there. Give me a little bit more thought, 
if you could? I know you have some in your written testimony, 
but if you could.
    Dr. Borgerson. Of course, the devil is in the details 
there, and this town is great at compromise and balance, this 
week in particular.
    Senator Begich. I'm not sure if you were going to say there 
are a lot more devils around for a second there.
    Dr. Borgerson. Maybe true.
    I think the key is getting all the stakeholders in at the 
beginning and not just sort of paying lip service or rhetoric 
to one side or the other, but trying to get sort of reasonable 
Alaskans and non-Alaskans around the table buying into the 
process, buying into the effort. Some of the environmentalists 
that I know are at Anchorage and have Alaska in their 
portfolio. I sort of approached them informally with this sort 
of concept before coming down here, and they were sort of: Wow. 
The notion of being brought to the table to help shape the 
guidelines in a very collaborative way I think was very 
appealing to them.
    I think it should be more than, of course, just the 
environmental side versus industry. I think in particular local 
indigenous communities have a huge voice to play here, and I 
know they want to be heard. So whether it's a commission--I've 
heard some ideas in Juneau about infrastructure banks or other 
kinds of ways to facilitate both the investment and the 
dialogue around those things. My sense is to sort of get the 
various stakeholders around the same table, rolling up their 
sleeves, try and strike the right balance, and then getting out 
of the way and letting progress proceed.
    Senator Begich. Very good. Let me stop there and see if 
Senator Snowe has some additional questions. Then I have one 
and I'm going to talk about deepwater ports in my next 
questions.
    Senator Snowe. Dr. Borgerson, you heard earlier this 
morning and obviously are very familiar with the fact that 
other than one medium icebreaker, that we virtually have no 
capacity in that regard, and it's going to take quite some time 
before we can obtain additional capacity. There was some 
discussion actually yesterday in the House Committee on 
Transportation and Infrastructure about the whole idea of 
leasing icebreakers.
    You wrote an article in the Huffington Post in 2008 saying 
that leasing icebreakers outsources our sovereignty. What are 
your concerns with leasing?
    Dr. Borgerson. I think that op-ed in the Huffington Post 
was reprinted from the New York Times. But if we want to be an 
Arctic power, just like in the world's other oceans off our 
other coasts, we can't essentially lease foreign icebreakers 
and put our flag on the back and pretend somehow we're the 
world's naval power, which we are. If you look at how much we 
spend on our Navy and the size of the Navy vis-a-vis the other 
countries, we dwarf them in naval capacity.
    The Coast Guard is not blameless here, by the way. In some 
ways, the Coast Guard sold icebreakers out for the deepwater 
program to recapitalize its other assets. There's a lot of 
blame to go around for why the country finds itself in this 
position.
    The reality is we've got sort of one and a half, however 
you count, of tired icebreakers, and you've heard, even if the 
Senate or the Congress were to allocate dollars today, they 
likely wouldn't be launched until years after the Arctic is 
seasonally ice free and, depending what scientists you talk to, 
maybe even longer than that.
    So we're stuck. There has to be a bandaid solution, I 
suppose, in trying to bridge the gap here. But I think it's 
just unacceptable for a number of reasons beyond oil spill 
response, but search and rescue, projecting sovereignty, 
regulating shipping, and the other sort of things that the 
Coast Guard and Navy do on all of our coasts and around the 
world's oceans are true in the Arctic Ocean as they are 
elsewhere.
    Senator Snowe. I don't disagree with the concerns that you 
raise. Obviously, we want to have our own icebreakers. But how 
do you envision that the Coast Guard fills this gap in the 
meantime? It's going to be a long-standing gap, obviously, and 
based on the High Latitude Study it would indicate that the 
capacity needs to be six heavy and four medium basically. 
That's a dramatic gap, considering where we stand today.
    I understand about the Deepwater acquisition issue. I lived 
the whole saga, unfortunately, having many concerns about that-
-how it came about and what happened. But we were starting 
basically from a very difficult position in terms of what needs 
to be done, and then of course all the contractual problems 
that emerged as a result. So that set back the program, not to 
mention the appropriations process, all in combination. So I 
understand what you're saying.
    So how do you think the Coast Guard should respond, and-or 
the Navy, for that matter?
    Dr. Borgerson. Well, the Navy is in even worse shape than 
the Coast Guard. Its surface vessels are not, as I understand 
it, capable of sailing in water that's filled with ice. So 
submarines are a whole other bag. So take those off the table.
    It depends on who you ask on time. I'm a bit of a skeptic 
here and I'll hedge and say I think 10 years is optimistic. I 
think you're talking 15 to 20 maybe, in between. Some of the 
climate scientists I talk to, just as a footnote to that, think 
we could be ice-free in summer in the next 5 years, maybe 10. 
All the models have been overly conservative.
    So the proposals I've heard are you have to look to 
foreign-built ships--this speaks to the Jones Act a bit--or 
beginning to build U.S. vessels for this purpose, have them 
essentially be civilian-crewed, maybe put a Coast Guard officer 
as a shipwrighter on board, where he could exercise sort of 
classic boarding officer authorities and that kind of thing. 
But they would not be taxpayer-built or operated vessels. They 
would have to be built in foreign yards, or built here--and 
I've seen some proposals of what those ships might look like, 
but they couldn't be sort of a full Coast Guard contingent. It 
would just be sort of an outsourced type thing, as an interim 
fix.
    The danger of those interim fixes is they can become 
permanent. So in this fiscal environment it can be easy to say, 
oh, that's working, etcetera, and not build the icebreakers and 
just sort of prolong what I think is a non-optimal situation.
    Senator Snowe. So at the very least, we ought to be 
pursuing aggressively the icebreaking capacity.
    Dr. Borgerson. We should have been building icebreakers----
    Senator Snowe. Your concern is that the last thing we ought 
to do is turn to other countries for building ships. We ought 
to be able to do that here.
    Dr. Borgerson. 5 years ago we should have started building, 
laying steel for these replacement ships.
    Senator Snowe. Absolutely. And there's a host of problems 
as to why in terms of what happened here in the appropriations 
process, given the lead time and how much money you give in 
which years above and beyond everything else. There was a lack 
of capitalization for this project.
    And you had a Coast Guard dealing with 50-year-old ships, 
in some cases 60. It was horrific, given the environment 
they're generally working under. Not exactly a calm 
environment. They're generally in stressful situations and 
that's why they do what they do.
    In any event, it's remarkable. Think about Hurricane 
Katrina. That's a good example. They were doing, with some very 
aged aircraft and ships, remarkable things. So you could say, 
well, we ought to put Members of Congress in that equipment, 
and maybe they would think very quickly and very differently.
    Dr. Borgerson. Just a footnote to that. I was a Coast Guard 
patrol boat captain in 2001. Driving ships in hurricanes that 
were built for Vietnam rivers is sobering.
    Senator Begich. Good to see you here.
    Senator Snowe. Yes, right.
    [Laughter.]
    Senator Begich. Thank you.
    Senator Snowe. Well, thank you.
    Senator Begich. Thank you very much.
    Let me ask, Dr. Metzger or whoever might feel comfortable 
answering this, in regards to--again, in the last panel I asked 
about a deepwater port and the capacity, and there was some 
discussion of Nome, but distance and so forth. Some have 
approached me and talked about an idea of a freestanding 
deepwater port in federal waters. I'm not an engineer. I don't 
claim to be one. I don't want to be one, no disrespect. It's a 
lot of work in figuring out how that all will work in the 
Arctic.
    But is there any credibility to that kind of thinking, that 
there is--we're going to need a deepwater port, because these 
ships--correct me if I'm wrong--the ships you're building, 
they're 300-plus feet long. These are deep. I don't know what 
the draft is, probably 40 feet or more. So these are huge ships 
and will be bigger, is my bet, based on what's going to happen 
up there.
    Does that make sense, to do a deepwater port in those 
federal waters, and maybe it's a freestanding? When I say 
freestanding, an anchored port.
    Dr. Metzger. Yes, yes, it does. That is a model that would 
keep you away from having to dredge so far out to sea because 
it's so shallow. A fixed structure, fixed permanently, 
permanently built structure, that's one option.
    There are also ideas that some people on my side have been 
kicking around, seasonally deployed facilities, a floating 
facility that can be taken out and moved away, stored, so to 
speak, for when the ice is in. So yes, there are definitely 
possibilities for having--moving the facility, mooring 
facility, port facility, further offshore to avoid dredging.
    Senator Begich. Very good.
    Mr. Slaiby, I'm not going to get into the coastal zone 
management issue of the state of Alaska and the lack that they 
have one there, but I will put that on the record. Without 
that, it creates some problems for a deepwater port development 
in Federal waters, but that's another battle, not for you to 
take on, but one that I need to deal with with the Governor and 
the state.
    But I'm assuming as you see the future, if we can step, and 
actually for Dr. Borgerson, too, as you see the future of 
development, yours specifically in oil and gas and maybe yours 
in kind of a broader sense, the need for that deepwater port, 
at least from my perspective--and I'm asking if this makes 
sense, again--is multifaceted. It is oil spill servicing, it is 
oil and gas servicing, it is servicing for those in rescue 
potential, Coast Guard capacity, and dependent on defense 
needs, because I think that is becoming--NORAD I know is now 
reexamining their role, as we heard briefly here--that if there 
is a port, it could be multi-functional, as long as we think 
long term.
    Whoever wants to answer that first.
    Mr. Slaiby. I can start maybe on the first part. I do 
believe that a port offshore can be designed to withstand ice 
conditions. Senator, you grew up looking at it in the Cook 
Inlet. Those platforms have been out there for over 40, 45 
years.
    Senator Begich. Yes.
    Mr. Slaiby. The second point I would make is that there 
does need to be a solution that incorporates the stakeholders. 
I've--we've spent about 400 trips into the North Slope Borough 
talking with different stakeholders. Huge issues about how that 
port is located, where it sits, who it sits with. It's one that 
really needs to incorporate the federal government, state 
government, local governments, and industry, which bridges to 
the third point.
    I'm very, very content that we can do what we need to do in 
our exploration plan, including servicing oil spill response, 
with the assets we have in place. For longer term, yes, I do 
think it would be very helpful for servicing platforms on 
prolonged periods of time and the other industries and 
infrastructure needed to support that.
    Senator Begich. Very good.
    Dr. Borgerson.
    Dr. Borgerson. I always think of Singapore when this issue 
comes up. It also sits on an important strategic choke point 
linking oceans. Once a sleepy town with not much 
infrastructure, now the world's largest seaport. Could Alaska 1 
day host a future Arctic Singapore? It's sort of interesting to 
think about.
    Should the--I'm not sure what the exact candidate or port 
should be. I've heard different ports mentioned. Adak has got a 
lot of facilities there. I know there's a number of candidates 
in the running for who might get that port. To me, though, 
maybe more importantly is the model. I think a public-private 
model makes perfect sense up there, to share the cost, to be 
force multipliers on the resources there, and that there should 
be--there are models in the Lower 48 for how that might work 
with various port authorities, of how you might sort of 
leverage private capital, industry, along with the need for, 
we've heard, a regional Coast Guard base, not just regional 
traffic, but also some of the inter-ocean traffic that Admiral 
Papp spoke to you about as well.
    Senator Begich. I think you got to my next question, which 
was can it be a public-private partnership. My sense is yes, 
because you're starting really from scratch. So you don't have 
necessarily port jurisdictional issues. You have interested 
communities right now, but none of them have ports of this 
potential magnitude if you design it--you can design a quick 
port, maybe service a few industry folks.
    But I guess my vision is that this goes to where you just 
talked about, that it has a much larger capacity, if we do this 
right and think about not just the next 10 or 15 years, but the 
next 50 years, of how do we service what could be going on up 
there as long as we can engineer it right. There is probably 
something that will be needed, no matter who's transporting 
what.
    Dr. Borgerson. I couldn't agree more. It's really, from 
sort of a planning point of view, an exciting opportunity to 
have a greenfield in which to do it right from scratch. If you 
look at L.A.-Long Beach, which has a lot of urban issues around 
it, or Port Authority of New York-New Jersey, obviously, 
interesting geography. The Bayonne Bridge has essentially 
limited how much the Port of New York can grow, and there were 
parochial interests that dictated the height of that bridge and 
now New York is not built to be the port of the future with 
that sort of limitation.
    I think definitely, as far as I understand it, the private-
public model and sort of doing it with the strategic long view 
in mind is the way to go in the Arctic.
    Senator Begich. Let me thank the panel very much for being 
here today. Your written testimony is all part of the record. 
We'll keep the record open for 2 weeks. I know there are some 
other questions that I have that I'll just submit for your 
response.
    But again, thank you. This is very enlightening, both of 
the panels. The Arctic is an incredible last frontier for all 
of us and the question is how do we manage it for all the 
economic opportunities and make sure it works for the 
environment that it's in.
    Thank you all very much. This hearing is adjourned.
    [Whereupon, at 12:31 p.m., the hearing was adjourned.]
                            A P P E N D I X

    Prepared Statement of Jane Lubchenco, Ph.D., Under Secretary of 
    Commerce for Oceans and Atmosphere, and Administrator, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce
    Chairman Begich, Ranking Member Snowe, and distinguished members of 
the Subcommittee, thank you for the opportunity to submit testimony on 
U.S. strategies to address the changing Arctic and to highlight some of 
the actions NOAA is taking to address Arctic issues. My name is Jane 
Lubchenco, Under Secretary of Commerce for Oceans and Atmosphere and 
the Administrator of the National Oceanic and Atmospheric 
Administration (NOAA). On behalf of NOAA, I would like to thank the 
Committee for its continued attention to the issues associated with a 
changing Arctic and the myriad impacts to its people and the ecosystems 
on which they depend. I would also like to recognize Chairman Begich 
and the other Members of this committee for their leadership and 
support on Arctic issues, including the Arctic-related legislation that 
you are working to advance in this Congress.
    I will now describe some of the actions NOAA is taking to address 
Arctic issues. This hearing puts a well-deserved spotlight on emerging 
Arctic opportunities and challenges, and the Federal Government's role 
in helping the United States to take advantage of those opportunities. 
The Administration is currently working to implement the January 2009 
Directive (National Security Presidential Directive 66/Homeland 
Security Presidential Directive 25) on Arctic Policy, the July 2010 
Presidential Memorandum on arctic research policy, which reinvigorates 
interagency research coordination in the Arctic, and the July 2010 
National Ocean Policy's recognition of the Arctic as an area of special 
emphasis. Adopted by the President via Executive Order 13547 on July 
19, 2010, the National Ocean Policy calls for ``better ways to 
conserve, protect, and sustainably manage Arctic coastal and ocean 
resources . . . new collaborations and partnerships to better monitor 
and assess environmental conditions . . . [and] improvement of the 
scientific understanding of the Arctic system and how it is changing in 
response to climate-induced and other changes.'' On July 12, 2011, the 
President issued Executive Order 13580 to establish an Interagency 
Working Group on Coordination of Domestic Energy Development and 
Permitting in Alaska. The purpose of this working group is to 
coordinate the efforts of Federal agencies responsible for overseeing 
the safe and responsible development of onshore and offshore energy 
resources and associated infrastructure in Alaska and the U.S. Arctic 
Outer Continental Shelf (OCS).
    As you know, there is now widespread evidence of climate change in 
the Arctic region, most dramatically observed in loss of sea ice. In 
four of the last 5 years, we have witnessed the lowest sea ice extents 
on record, as well as a 35 percent decrease in thicker multi-year sea 
ice. Shifts are evident in ocean ecosystems from the Aleutian Islands 
to Barrow, and across the Arctic Ocean, due to a combination of Arctic 
warming, natural variability, and sensitivity to changing sea ice 
conditions.
    As sea ice retreats and the Arctic becomes more accessible, 
cascading needs for information, readiness, response, and assistance 
are created. NOAA is receiving increasing requests for timely weather 
forecasts and disaster warnings, improved seasonal and long-range 
forecasts of sea ice and other conditions, more comprehensive and 
current navigation charts, tide tables, and elevation data, improved 
oceanographic information, and more baseline data on protected species 
and ecosystems. The maritime community is anticipating a future open 
Arctic trade route and is concerned about accurate navigation charts, 
weather and disaster forecasts and emergency response capacity. The 
fossil fuel industry is seeking permitting approvals for oil and gas 
exploration in the Chukchi and Beaufort Seas for 2012, with increasing 
information needs concerning potential impacts, behavior of oil in 
frigid waters, and appropriate response capacity.
    Economic drivers can also threaten marine and coastal ecosystems as 
well as Arctic inhabitants already affected by the rapidly changing 
climate. Native coastal communities are requesting assistance in 
relocating entire villages or burial grounds, information about likely 
changes in whales, seals and fish, and more accurate weather and 
oceanographic conditions. They are faced with changing precipitation 
patterns, later freezing and earlier thawing of snow and ice, damaging 
storm surge with loss of the sea ice barrier protecting homes and 
businesses on the coast, and changing sea level. Furthermore, changes 
in the Arctic may affect climate and the functioning of ecosystems 
around the globe, so changes in the region affect us all. Climate 
changes already apparent in the Arctic may portend future changes in 
global climatic conditions.
    As the United States begins to confront these Arctic challenges, it 
is evident that understanding and effectively managing the changing 
ecosystems, expectations, and opportunities in the Arctic requires a 
solid foundation of ecological and socioeconomic information. Yet 
despite the wealth of traditional ecological knowledge, exploration, 
and research to date, even the most basic data are lacking. Interagency 
and stakeholder dialogues, such as the ongoing interactions in 
conjunction with developing the National Ocean Policy's Arctic 
Strategic Action Plan, continually underscore this point: Federal 
agencies need accurate information about human and environmental 
conditions in the region in order to comprehensively manage the various 
U.S. Arctic interests and support effective stewardship and investment 
decisions.
    NOAA recognizes that a strategic approach leveraging our strengths 
and those of our sister agencies with Arctic-relevant missions is 
essential if the United States is to take advantage of emerging 
economic opportunities there without causing irreparable harm to this 
fragile region. As the uses of the Arctic environment evolve, NOAA 
believes it is important that decisions and actions related to 
conservation, management, and use are based on sound science and 
support healthy, productive, and resilient communities and ecosystems. 
We seek to better understand and predict changes there. We recognize 
that because the region has been relatively inaccessible, and without 
widespread need for such information, the Arctic is deficient in many 
of the science, service and stewardship capabilities that NOAA provides 
to the rest of the Nation.
    To facilitate internal and external coordination on Arctic 
requirements, NOAA has developed a comprehensive Arctic strategy that 
integrates and aligns our numerous and diverse capabilities within the 
broader context of our Nation's Arctic policies and research goals, and 
supports the efforts of our international, Federal, state and local 
partners and stakeholders. NOAA's Arctic Vision and Strategy (available 
at http://www.arctic.noaa.gov/docs/arctic_strat_2010.pdf) has six 
priority goals, derived directly from stakeholder requirements:

        (1) Forecast Changes in Sea Ice

        (2) Strengthen Foundational Science to Understand and Detect 
        Arctic Climate and Ecosystem Changes

        (3) Improve Weather and Water Forecasts and Warnings

        (4) Enhance International and National Partnerships

        (5) Improve Stewardship and Management of Arctic Ocean and 
        Coastal Resources

        (6) Advance Resilient and Healthy Arctic Communities and 
        Economies

    These goals were selected because they represent areas where NOAA 
has the expertise to address emergent Arctic issues that meet two key 
criteria: providing the information, knowledge, and policies to meet 
NOAA mandates and stewardship responsibilities; and providing the 
information, knowledge, and services to enable others to live and 
operate safely in the Arctic. We also believe that these are the 
highest priority areas where NOAA can have an impact on environmental 
and economic sustainability in the Arctic.
    Within NOAA's existing capacity for Arctic action, we have had some 
modest successes in implementing our strategic goals. On sea ice, for 
example, NOAA and its partners, including the U.S. Army Corps of 
Engineers Cold Regions Research and Engineering Laboratory, issued the 
2010 and 2011 Arctic Report Cards, showing summer sea ice extent well 
below 1990s levels with sea ice thinning, older sea ice disappearing, 
and ocean temperatures warming. The loss of sea ice affects marine 
access, regional weather, ecosystem changes, and coastal communities. 
As ice cover diminishes, marine food webs are expected to dramatically 
shift from seafloor-dominant systems that favor species such as crabs 
to water column-dominant systems that favor commercial fish species 
such as pollock. The understanding of ice as a habitat also has 
implications for oil spill response and damage assessment. As the 
Arctic Ocean becomes seasonally passable and tourism, oil and gas 
exploration, and shipping increase, floating sea ice and changing 
marine weather will present a major threat to maritime safety and 
increase the potential for oil spills from vessel traffic in the 
region. Sea ice also has significant implications for effective oil 
spill response and assessment.
    NOAA currently conducts operational sea ice analysis and forecasts, 
evaluating sea ice projections through Intergovernmental Panel on 
Climate Change climate models, conducting and analyzing along with 
NASA, satellite and airborne observations of sea ice freeboard or 
thickness, improving satellite image analyses, and contributing to the 
international Arctic buoy program. NOAA's National Weather Service has 
a sea ice desk at the Anchorage Weather Forecast Office, which provides 
operational sea ice forecasting in Alaska. NOAA's National 
Environmental, Satellite, Data, and Information Service partners with 
the Navy and Coast Guard to maintain the National Ice Center in 
Suitland, Maryland, which provides operational analyses and forecasts 
of sea ice conditions and hazards in the Arctic and collaborates with 
the National Weather Service sea ice desk to provide Alaska products 5 
days a week. NOAA also supports the National Snow and Ice Data Center, 
along with NASA and NSF, within the Cooperative Institute for Research 
in Environmental Sciences at the University of Colorado, where a vast 
array of Arctic data are stewarded and made available to both academic 
and public users.
    NOAA's National Weather Service delivers marine weather forecast 
services to protect life and property, enhance the economy and fulfill 
U.S. obligations under international treaties for the safety and 
security of marine transportation, energy (oil and gas) exploration, 
and tourism activities, and to protect northern and western Alaska 
coastal communities from storm surge and other inundation hazards. 
Major stakeholders and partners, including the U.S. Coast Guard and the 
State of Alaska Division of Homeland Security and Emergency Management, 
require more useful weather and water information for planning and 
decisionmaking to protect lives, property, and manage the region's many 
resources. Arctic populations rely heavily on aviation and marine 
weather for safe transportation and access to goods and services.
    The Arctic region has very little of the information infrastructure 
needed to provide weather forecast and warning services of a caliber 
comparable to mid-latitudes. A primary reason for this discrepancy is 
the relative coarseness of observation fields to support meteorological 
and oceanographic modeling and environmental observations and studies 
supporting weather and ice forecasts highly limited in both geographic 
scope and frequency. The Arctic region also presents unique numerical 
modeling challenges with respect to the dynamic coupled interaction of 
the ocean, sea ice and atmospheric processes both in near-term and 
long-term prediction scales. For example, there is inadequate real-time 
meteorological data in U.S. Arctic waters to support accurate 
forecasting of ocean storms, which have the potential to threaten 
marine transportation, offshore oil and gas operations, and the Arctic 
coastal communities. The November 2009 failure of NASA's QuikSCAT 
satellite scatterometer to continue providing ocean surface wind speed 
and direction and sea ice thickness estimates after more than a decade 
of operation, the need for continued access to synthetic aperture radar 
(SAR) data, and the potential for a gap in satellite coverage in 2016-
2017 due to the impacts of reduced funding in Fiscal Year (FY) 2011 for 
our next polar-orbiting satellite, the Joint Polar Satellite System 
(JPSS), pose challenges to Arctic weather and sea ice services 
capability. JPSS will contain the replacement for the NASA MODIS 
instrument, which is a critical tool for mapping sea ice and studying 
other Arctic features, currently in operation on NASA's Terra and Aqua 
satellites, which have already exceeded their expected lifetime.
    In data-sparse areas like Alaska, polar-satellite data is critical 
to weather forecasting. Light aircraft aviation is a $400 million a 
year industry in Alaska and since many Alaskan communities are not 
accessible by roads, residents often rely on aircraft as a primary mode 
of transportation. Furthermore, since geostationary satellite coverage 
is not available in large areas of the Arctic, NOAA's Search and Rescue 
beacon program (SARSAT) relies heavily on polar-orbiting satellites to 
receive signals from distressed mariners and aircraft personnel. NOAA 
did not receive the full $1.060 billion requested in the President's FY 
2011 budget, which was needed to meet the planned launch date for JPSS 
to maintain continuity of observations. As a result, NOAA could face a 
data gap in the U.S. civilian polar orbit, on which both civilian and 
military users rely, beginning in 2016. This information is critical in 
real-time forecasting and warning of events such as rapid sea ice 
formation, river ice jams, and storms carrying hurricane force winds 
that are major hazards for life, property, and economic activities in 
the Arctic. Losing this critical piece of national infrastructure at 
the time when Arctic development is expected to ramp up could 
significantly hamper our Nation's ability to protect U.S. assets in 
this region.
    Improved sea ice and marine weather forecasting would assist the 
energy, maritime shipping and transportation industries, which use 
operational and seasonal forecasts for safety and resource exploration. 
Improvements in the sea ice and weather services that NOAA is currently 
able to provide, particularly model resolution and forecast frequency, 
and the integration of different types of observations (including sea 
ice characteristics and indigenous knowledge) into the forecasts would 
enhance our understanding of the Arctic environment. Accurate forecasts 
and models depend on the ability of NOAA and its partners to deploy a 
variety of sensing devices--from buoys to airborne and satellite 
sensors. NOAA's goal is to provide accurate, quantitative, daily-to-
decadal sea ice projections to support infrastructure planning, 
economic development and ecosystem stewardship.
    These changes in climate and sea ice are also driving changes in 
marine ecosystems (including species abundance and composition) in ways 
not yet fully understood. Biophysical and chemical changes in the 
ocean, combined with increasing human uses will impact the Bering, 
Chukchi, and Beaufort Seas. Currently, commercial harvest of 
groundfish, shellfish, salmon and other resources, primarily in the 
Bering Sea, constitute almost 50 percent of marine fish landings in the 
United States. Further, these same resources, plus various species of 
marine mammals, seabirds, and other marine life are critical to the 
maintenance of the subsistence lifestyle of over 40,000 indigenous 
people who inhabit small towns and villages on Alaska's Arctic 
coastline. Broad-scale biological observations are needed to understand 
how a changing climate and environment will impact the food web and 
other aspects of the ocean ecosystem, and help NOAA evaluate the 
impacts of man-made changes to the equation, such as permitting new 
drilling activity. However, NOAA's current climate modeling capacity is 
too gross to meet user needs for regional and local scales, and the 
uncertainties are large. Similarly, it is beyond the scope of existing 
ecosystem models to provide reliable indications of how loss of sea ice 
and increasing ocean temperatures will impact key species such as 
pollock, cod, salmon, and crab, as well as ice seal species and Arctic 
cetaceans (e.g., bowhead, gray, humpback, and beluga whales). NOAA has 
also worked closely with its international partners for decades to 
monitor changes in atmospheric composition, for which the changing 
arctic is anticipated to have significant influence in the future.
    To support these foundational science needs, NOAA is striving on 
many fronts to improve baseline observations and understanding of 
Arctic climate and ecosystems in order to reduce the uncertainty in 
assessing and predicting impacts caused by a changing Arctic. For 
example, NOAA is conducting ocean acidification experiments on pollock 
and king crab, process studies on Steller sea lions and fur seals, and 
cooperative studies with Department of Interior's Bureau of Ocean 
Energy Management, Regulation and Enforcement (BOEMRE) on bowhead 
whales. NOAA also continues monitoring of atmospheric levels at coastal 
Arctic observatories in partnership with other agencies and nations. 
All of this work is heavily dependent on in situ and remote sensing 
observations of the ocean and atmosphere, shipboard sampling, and long-
term, community-based research on marine species. Due to the 
interconnected nature of Arctic ecosystems, the United States will need 
to continue to improve collaboration and engagement with other Arctic 
nations through international mechanisms, such as the Arctic Council 
and our bilateral relationships, to better understand, observe, 
research, and manage Arctic resources. This includes joint efforts such 
as working with Russia for elements of a distributed biological 
observatory. The 2011 cruise for the Russian-American Long-term Census 
of the Arctic (RUSALCA) to sample and deploy instruments in U.S. and 
Russian territorial waters has just ended. Stemming from a 2003 
Memorandum of Understanding for World Ocean and Polar Regions Studies 
between NOAA and the Russian Academy of Sciences, this annual three-
week RUSALCA cruise collects biological, geological, chemical and 
physical oceanographic samples to benchmark Arctic conditions and 
contribute to foundational Arctic science.
    NOAA also provides leadership and resources to support Arctic 
governance and science organizations. Specifically, NOAA continues to 
support the Arctic Council and its working groups, which monitor and 
assess biodiversity, climate, and the health of humans and ecosystems, 
and contribute to international approaches to oil spill response, 
ecosystem and protected area management, as well as management of 
shipping. Coordination across Federal entities, such as that provided 
by the Interagency Arctic Research Policy Committee and the Committee 
on the Marine Transportation System's Arctic Integrated Action Team, 
are also essential to implement overarching U.S. Arctic Policy goals, 
particularly those identified by the U.S. Arctic Region Policy (NSPD 
66/HSPD 25) and the National Ocean Policy. NOAA's partnerships with 
Alaska Native Organizations to co-manage marine mammals continue as 
important collaborations for stewardship of protected species.
    In May 2011, I signed a Memorandum of Understanding between NOAA 
and BOEMRE to ensure effective scientific and regulatory cooperation on 
OCS energy exploration and development. This agreement is intended to 
facilitate development of baseline observations and environmental 
studies needed to assess Arctic drilling. Leveraging relationships such 
as this to build sustained observations will enable researchers to 
study the effects of oil and gas exploration, sea ice loss, ocean 
acidification, and sea surface temperature warming on Arctic ecosystems 
over time. This information will also inform NOAA's ecosystem 
stewardship, private sector economic development, and Coast Guard and 
Navy missions.
    Currently, Alaska has limited geospatial infrastructure; sparse 
tide, current, and water-level prediction coverage; obsolete shoreline 
and hydrographic data; poor nautical charts; and inadequate oil-spill 
response capacity. Most Arctic waters that are charted were surveyed 
with obsolete technology, some dating back to the 1800s, before the 
region was part of the United States. Most of the shoreline along 
Alaska's northern and western coasts has not been mapped since 1960, if 
ever, and confidence in the region's nautical charts is low. NOAA's 
navigation services provide baseline scientific data, such as 
hydrography, shoreline mapping, oceanography, tides, currents, 
positioning and geodesy, that benefits not only navigation, but also 
supports more informed decisions for other economic development and 
resource management processes. The establishment of an adequate 
geospatial infrastructure would help inform Arctic management and 
policy decisions that seek to balance economic development with 
ecosystem protection and cultural heritage. The National Ocean Policy 
includes an emphasis on the Arctic among its priority objectives and a 
Strategic Action Plan on Changing Conditions in the Arctic, which 
addresses these topics, is under development.
    NOAA has made some progress in support of safe marine 
transportation, coastal resilience and oil spill response readiness, 
including finalizing an Arctic Nautical Charting Plan after 
consideration of stakeholder input. This plan provides a detailed 
scheme for additional nautical chart coverage in U.S. Arctic waters and 
describes the activities necessary to produce and maintain the charts 
for safe navigation. NOAA continues its Arctic hydrographic survey 
effort in FY 2011 with the Survey Vessel Fairweather currently up near 
Kotzebue, to update nautical charts for navigation and support the safe 
installation of an offshore lightering facility for fuel oil. Since 
2007, we have acquired approximately 2,100 square nautical miles of 
hydrographic data with modern survey methods (multibeam sonar) in the 
Arctic as defined by the Arctic Research and Policy Act of 1984. This 
includes about 726 square nautical miles for survey work done in 2009 
to survey the Pribilof Canyon. The U.S. EEZ in the Arctic encompasses 
568,000 square nautical miles, about a third of which is considered 
navigationally significant, and most of which was surveyed with 
obsolete technology dating back to the 1800s. Thirty eight thousand 
square nautical miles of navigationally significant area have been 
identified as highest priority for survey. Building on this need for 
modern survey data, NOAA worked in its role as U.S. representative to 
the International Hydrographic Organization to establish an Arctic 
Regional Hydrographic Commission with other Arctic member states in 
2010 for international collaboration on hydrographic surveying, 
nautical charting, and other mapping activities.
    In addition, NOAA is building on existing partnerships to acquire 
gravity data in Alaska so that by the end of FY 2012 most of the state 
will be covered. This project, Gravity for the Redefinition of the 
American Vertical Datum, will vastly improve elevation measurements by 
correcting meters-level positioning errors to two-centimeter accuracy, 
which will help coastal communities and the private sector to develop 
climate change adaptation strategies and make decisions on 
infrastructure hardening, erosion and flood controls. Based on State of 
Alaska Immediate Action Working Group identified priority areas, NOAA 
also deployed seven short term tide stations to support surveying and 
update tide predictions, as well as for NOAA's Vertical Datum 
Transformation Tool, which links bathymetry to topography to enable the 
development of inundation and erosion models. NOAA is now evaluating 
the technology and strategies needed for long-term monitoring of tides, 
water levels, and currents under harsh Arctic conditions. Finally, 
collaboration with Canada continues on joint seafloor mapping missions 
to help define the limits of the extended continental shelf in the 
Arctic per criteria set forth in Article 76 of the Law of the Sea 
Convention. An expedition is occurring now to map the seafloor using 
multibeam sonar, image the underlying sediment layers, collect dredge 
samples and gravity data, and conduct under-ice Autonomous Underwater 
Vehicle operations. The U.S. could significantly advance our economic 
interests in the Arctic with respect to extended continental shelf and 
other activities by joining the Convention.
    NOAA can also support the spill response capacity of industry and 
Coast Guard first responders and other Arctic stakeholders, including 
coastal communities, Alaska Native villages, and the State of Alaska by 
building the same interactive online mapping tool for the Arctic as was 
used during the Gulf spill response. More commonly known in the 
responder world as the Environmental Response Management Application, 
or ERMA, this powerful tool is a web-based Geographic Information 
System tool designed to assist both emergency responders and 
environmental resource managers who deal with incidents that may 
adversely impact the environment. The data within ERMA also assist in 
resource management decisions regarding hazardous waste site 
evaluations and restoration planning. ERMA also includes human use and 
human dimension data components and, for the Arctic, would include sea-
ice conditions. Federal, state and tribal governments will be able to 
use this information and the ERMA interface not only to address oil 
spill planning and response, but also to assess sea-ice and shoreline 
erosion information. It is NOAA's hope to bring this technology online 
sometime next year. We also know that ERMA is only as good as the 
information within it, so the sharing of new datasets among agencies, 
the state, academia and the private sector to improve the platform is 
essential.
    In conclusion, NOAA is striving to bring its diverse capabilities 
to bear on the cultural, environmental, economic, and national security 
issues emerging as a result of changes in the Arctic. The breadth and 
complexity of these impacts require a concerted, systematic and rapid 
effort with partners from international to local levels. NOAA's 
scientific capabilities are being deployed to increase understanding of 
climate and other key environmental trends, to predict the ecosystem 
response to those trends, and to offer the technical expertise needed 
to develop policy options and management strategies for mitigation and 
adaptation to the environmental challenges in the Arctic region. NOAA's 
service capabilities are supporting safety and security needs for 
fishing, marine mammal protection, marine and other modes of 
transportation, energy, infrastructure, and mineral exploration in the 
unique Arctic environment. The choices we make today will have pivotal 
impacts on the future state of the Arctic. There is a great deal of 
work to be done, and NOAA, in collaboration with our partners, is 
committed to strengthening Arctic science and stewardship, and 
providing the information, products, and services needed by our Arctic 
stakeholders. Key to enhancing these efforts will be the coordinated 
implementation of the National Ocean Policy's Arctic Strategic Action 
Plan.
    Thank you again for the opportunity to present NOAA's role in the 
Arctic. We appreciate your leadership and the time and attention the 
Subcommittee is devoting to this important issue, and look forward to 
working with you in future.
                                 ______
                                 
               Prepared Statement of Fran Ulmer, Chair, 
                U.S. Arctic Research Commission (USARC)
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to offer comments on this important topic. As you know, 
Federal, state and local governments, as well as private industry and 
non-profit organizations, are in the process of creating strategies to 
economically and sustainably develop the Arctic. It is important to 
support scientific research in the Arctic in order to implement 
informed policy that capitalizes on economic opportunities as well as 
implements environmental protections to ensure social and economic 
viability for future generations in the Arctic.
    My name is Fran Ulmer, and I was recently appointed Chair of the 
U.S. Arctic Research Commission (USARC).\1\ My testimony represents the 
view of USARC, an advisory body to the President and to Congress. The 
Commission formulates its positions independently in public meetings 
and publishes these in reports, referred to below.
---------------------------------------------------------------------------
    \1\ Under the Arctic Research and Policy Act of 1984, the seven 
Commissioners of the USARC are appointed by the President and report to 
the President and the Congress on goals and priorities of the U.S. 
Arctic Research Program. The program is coordinated by the Interagency 
Arctic Research Policy Committee, (IARPC), a National Science and 
Technology Council subcommittee, that is chaired by National Science 
Foundation Director Dr. Subra Suresh, who is also an ex-officio member 
of the Commission. See www.arctic.gov for Commission publications, 
including the Commission's Goals Report.
---------------------------------------------------------------------------
    The Arctic Ocean is increasingly accessible, and transformational 
economic opportunities are emerging. Opportunities include oil and gas 
exploration and development, tourism, and commercial shipping. Ice 
coverage is shrinking in the Arctic, and shipping lanes are relatively 
ice-free during the summer for longer periods than in the past.
    Climate change is easily observable in the Arctic: consistently 
warmer temperatures, thawing permafrost (permanently frozen ground), 
melting glaciers, earlier spring thaws and later winter freeze ups, 
less predictable ice cover on interior rivers, more powerful storms and 
dramatic coastal erosion imperiling dozens of coastal villages, and a 
slow but consistent march northward of flora and fauna seeking cooler 
temperatures. The impacts on communities and infrastructure are 
expensive. A few examples follow. Ice cover on the Arctic Ocean serves 
as a blanket, reducing the power of winter storms and wave action. The 
retreat of sea ice means that the storm surges and waves are more 
powerful and more damaging to the coast. As a result of that, and 
higher sea levels, communities are losing private and public 
infrastructure and several dozen villages are seeking funds to 
reinforce coastlines in hopes of protecting people and buildings. Other 
villages are in the process of moving or planning to move. Some areas 
are increasingly inaccessible because permafrost is thawing, making the 
ground ``soft'' for many of the warmer months. Soft, boggy ground 
jeopardizes the limited roads, airports, pipelines, and buildings that 
exist in the Arctic, and reduces the months that both residents and oil 
companies can use ice roads for access.
    Climate change, tourism development, and international investment 
in the Arctic are moving faster than our limited understanding of 
arctic ecosystem functions. The pace of change in both natural systems 
and human use patterns demands increased focus on and attention to 
arctic research. Scientific research must inform policy decisions to 
maximize economic opportunities while ensuring long-term sustainability 
and environmental protection. Timely examples are marine 
transportation, adventure cruises, and oil and gas exploration, all of 
which need shore-based infrastructure to be safe and reliable. Research 
can better inform decisions about where to develop ports that will be 
safe from dramatic coastal erosion or how to address oil spills more 
effectively in an ice-filled environment.
    Baseline mapping of Arctic lands, both on- and offshore is 
essential to improve safety and inform decisions. Arctic observations, 
with an emphasis on weather, climate and environment, and how they are 
evolving, are needed to accurately plan for development in the Arctic.
    There are many Arctic research efforts worth noting and I highlight 
a few. The Alaska Ocean Observing System addresses regional and 
national needs for ocean information--including Arctic regional data. 
This system, primarily funded by the National Oceanic and Atmospheric 
Administration, is a network of air-, land-, and sea-based instruments 
that collects a host of valuable oceanographic, atmospheric, and 
biological data, which are then turned into information and tools for 
the use of the nation.
    The Sea Ice Zone Observing Network (SIZONET) is an 
interdisciplinary project, supported by the National Science 
Foundation, and led by the University of Alaska Fairbanks. SIZONET has 
implemented an integrated program to observe seasonal ice in the 
context of the sweeping environmental, geopolitical, and socio-economic 
change in the North. By assessing the nature and extent of sea ice 
system services, SIZONET is building an integrated observation network 
that will lead to prediction of key trends that provides maximum 
benefit for the broadest range of affected parties.
    Internationally, Sustaining Arctic Observing Networks (SAON), a 
group important in the coordination of Arctic observing data on an 
international scale, has entered a second phase of its work. The 
continuing process consists of representatives from the eight Arctic 
countries, permanent participants in the Arctic Council, and Arctic 
Council working groups. With the inclusion of representatives from the 
International Arctic Science Committee and the World Meteorological 
Organization, SAON is also connected to the Arctic science, observing, 
data management activities and interests of the non-Arctic countries, 
as well as to global observing systems.
    I attach the U.S. Arctic Research Commission's Report on Goals and 
Objectives to provide a more comprehensive overview of Arctic research 
priorities for the nation.
    [To view this report, go to http://www.arctic.gov/publications/
usarc_2009-10
_goals.pdf.]
    Research also provides the data necessary to advance responsible 
development plans and to help protect against potential impacts related 
to development of the Arctic's vast natural resources. The Commission 
is encouraging research in oil spill prevention and containment, 
response and fate/effects. I attach a white paper from the Commission 
on oil spill research priorities that makes specific recommendations on 
these issues.
    [To view the white paper from the Commission on Oil Spill Research 
Priorities go to http://www.arctic.gov/publications/usarc_oilspill_5-
26-10.pdf]
    The Commission appreciates this Subcommittee's interest in research 
to maximize Arctic economic opportunities in the Arctic. Timely Arctic 
scientific research is key to inform pivotal strategic decisions at 
this time in our history.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                                  to 
                       Amassador David A. Balton
    Question. Several Arctic powers that are parties to UNCLOS, namely 
Russia, Denmark, Norway, and Canada, are exploring ways to exert 
sovereign control over the increasingly accessible oil and gas reserves 
of the region. To this end, they have submitted or are in the process 
of submitting expanded continental shelf claims to the Commission on 
the Limits of the Continental Shelf. The U.S., as a non-party to the 
Convention, cannot participate as a member of the Commission and as a 
result cannot submit a claim under Article 76. Ambassador Balton, it's 
my understanding that other Arctic powers, like Russia, are actively in 
the process of submitting claims for expanded continental shelf limits 
claims.

  <bullet> How might an accepted claim of a foreign power affect our 
        sovereignty?

  <bullet> Can we, if it has sound scientific backing, legitimize a 
        claim to an expanded continental shelf when we remain a non-
        party to UNCLOS?

  <bullet> Is it true that even if we were to accede to the Convention 
        tomorrow and submitted an OCS limit claim, we would be stuck at 
        the back of the line?

  <bullet> Are we already too late to the party?

    Answer. As Parties to the Convention, Russia, Norway, and Denmark 
have each made at least partial submissions to the Commission on the 
Limits of the Continental Shelf, an expert body established by the 
Convention that makes recommendations to coastal States relating to the 
outer limits of their continental shelf beyond 200 nautical miles 
(extended continental shelf or ECS). Canada intends to make its 
submission in 2013 and Denmark intends to make another partial 
submission in 2014. As a non-Party, the United States is the only 
Arctic coastal State that is unable to avail itself of this treaty 
procedure.
    The Commission only advises on what is continental shelf and what 
is not. Where two States both claim or could claim a particular area of 
continental shelf, the Commission does not have the authority to make 
recommendations concerning the delimitation of the continental shelf 
between such States. Further, any recommendations of the Commission on 
the outer limits of an Arctic coastal State's continental shelf cannot 
prejudice boundary questions, including subsequent boundary agreements 
that may be negotiated between Arctic coastal States.
    With respect to our own ECS, the United States has established an 
interagency task force to gather and analyze the data necessary for the 
United States to establish the outer limits of its continental shelf, 
including in the Arctic. A State does not need to be a party to the Law 
of the Sea Convention to be entitled to continental shelf beyond 200 
nautical miles. However, joining the Convention would put our customary 
law rights with respect to the shelf beyond 200 nautical miles (nm) on 
the firmest legal footing, that is, treaty law, and it would give us 
access to the procedure set forth in the Convention that provides legal 
certainty and international recognition of such rights. Joining the 
Convention would also allow us to nominate a U.S. national to the 
Commission.
    We are not too late. We should join the Convention as soon as 
possible in order to secure our rights with respect to the shelf, 
secure our navigational rights and freedoms, maximize U.S. influence in 
law of the sea-related institutions, and otherwise take advantage of 
the range of benefits that would accrue to the United States as a 
party.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                       Ambassador David A. Balton
    Question 1. While the U.S. is a non-party to the Convention, past 
and present administrations, and the Armed Forces, operate under the 
premise that UNCLOS is a codification of ``customary international 
law.''

  <bullet> Can you explain what this means?

  <bullet> So can customary international law change over time?

  <bullet> Shouldn't we be concerned that without ratifying UNCLOS, we 
        may be left in the lurch by the changing practices of other 
        states, particularly ones that continually flout international 
        norms or at the very least ones that go against our interests?

    Answer. While we have been relatively successful to date in relying 
on customary international law to protect our interests, that law can 
change based on the practice of countries and is ultimately something 
we cannot control. As a party, the United States would ``lock in'' the 
Convention's favorable set of rules as treaty rights. Moreover, joining 
the Convention would enable the United States to take advantage of 
treaty procedures to nominate/designate experts to treaty institutions 
and to sponsor U.S. companies to secure deep seabed mining rights--none 
of which is the case under customary international law.

    Question 2. The Law of the Sea is recognized by the international 
community as the ``Constitution'' for the world's oceans. Like our own 
nation's Constitution, the Law of the Sea can be amended and changed as 
new situations arise--but only by member nations and the U.S. cannot 
participate in this process because of its failure to ratify the 
treaty.

  <bullet> Which member countries are currently offering amendments?

  <bullet> What types of amendments are these countries offering?

  <bullet> How will these proposed amendments affect U.S. interests in 
        the Arctic, both in the present and the future?

    Answer. To our knowledge, the Parties to the Law of the Sea 
Convention have not yet made any formal proposals to amend the 
Convention. If such a proposal came forward, though, the United States 
would have limited ability as a non-party to influence the 
consideration of that proposal.
    In addition, the United States would be in a much stronger position 
as a party to the Convention to defend its highly favorable provisions 
from being misinterpreted or misapplied--even in the absence of a 
proposal for amendment.
    The Convention provides the basic legal framework applicable to the 
Arctic Ocean. All other Arctic nations are party to the Convention. The 
United States, which has vital interests in this region, is the odd one 
out.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Admiral Robert J. Papp, Jr.
    Question 1. With no heavy icebreaker and only one medium 
icebreaker, U.S. capabilities in the polar regions stand in stark 
contrast to the icebreaking capabilities of other nations in the 
Northern Hemisphere. Most notably, Russia has twenty-five icebreakers--
eight of which are heavy icebreakers--and is using them to assert 
sovereign control over the Arctic region and its many valuable 
resources. Other Arctic countries with significant icebreaking 
capability include Finland, with seven icebreakers; Sweden, with seven; 
and Canada, with six. In this regard, it is worth noting that a May 21, 
2008, letter to the Chairman of the Joint Chiefs of Staff, the 
Commander of U.S. Northern Command, Commander U.S. Transportation 
Command, and the Commander of the U.S. Pacific Command emphatically 
stated, ``To assert our interests in these regions, the United States 
needs assured access with reliable icebreaking ships''. This letter 
also stated that the icebreakers were essential instruments of the 
United States policy in the Polar Regions and included recommendations 
for the construction of new polar icebreakers for the Coast Guard and 
adequate funding to keep existing icebreakers ready and viable.
    Admiral Papp, I understand that operating in the Arctic extends 
well beyond just icebreakers. But everyone agrees, including the Joint 
Chiefs, that icebreakers are crucial to assert U.S. interests in the 
Arctic region. Is it only a lack of funding that is preventing you from 
going ahead and building a replacement icebreaker?
    Answer. Obtaining funding for replacement icebreakers is only one 
critical element to a major acquisition project. Funding is required to 
complete acquisition documentation, survey and design work, and 
construction. Per the Coast Guard's Major Systems Acquisition Manual, a 
sequence of analyses and reports must be completed prior to moving 
forward on an acquisition project. Specifically, a Mission Analysis 
Report, Mission Needs Statement, Concept of Operations and an 
Operational Requirements Document must be completed before moving into 
design and build phases. Additionally, coordination with other Federal 
partners will be necessary to ensure that an icebreaker incorporates 
technical requirements to support the missions of multiple agencies. 
All of the documentation and analysis is critical when considered a 
major acquisition to understand the needs, how it will operate, and 
what alternatives are available, so as to make best use of funding, if 
appropriated.

    Question 2. You have noted in your written testimony that the Coast 
Guard has adopted the ``whole of government'' approach to dealing with 
the Arctic. That presumably means a ``whole of government'' approach to 
your icebreaking needs. Is that correct? Have you used this ``whole of 
government'' approach with any other Coast Guard asset?
    Answer. While the Coast Guard is responsible for operating and 
maintaining the national fleet of polar icebreakers, they are just one 
part of a ``whole of government'' approach to implement national Arctic 
policy. The United States is an Arctic Nation and as such there is a 
need for a whole of government solution to meet U.S. policy objectives 
in the Arctic which are articulated in the National Ocean Policy (Ex. 
Order 13547), 2010 National Security Strategy and National Security 
Presidential Directives 66 and/Homeland Security Presidential Directive 
25.
    As with other Coast Guard missions, a ``whole of government'' 
approach involves partnering with International, Federal, State, and 
local stakeholders to meet mission demands. Depending on the specific 
mission, a ``whole of government'' approach is routinely taken, as 
Coast Guard missions often require close coordination with key 
stakeholders. This approach is especially critical in the Arctic based 
on the limited infrastructure and facilities available. For example, we 
have a longstanding agreement with the National Science Foundation to 
co-support an Arctic Icebreaker Coordinating Committee that advises on 
science outfitting and scheduling of USCG Icebreakers for Arctic 
research. This approach has enabled over a decade of research missions 
primarily on the CGC HEALY by the National Science Foundation but also 
including the polar class icebreakers and other research agencies. 
Additional ``whole of government'' approaches include the recently 
signed International Arctic SAR agreement, coordination with the Alaska 
Air National Guard and the North Slope Borough for SAR cases in the 
Arctic.
    Expected increases in vessel traffic in the Bering Straits and 
north can be expected to increase the risk of collision with marine 
mammals, fuel spills, and displacement of wildlife although there are 
no assessments at this time of the extent of such impacts. The 
capability of the U.S. Coast Guard to perform its vessel safety and oil 
spill response functions has substantial bearing on natural resource 
protection.

    Question 3. With only one functional icebreaker, how will USCG 
maintain crew proficiency in icebreaking operations?
    Answer. The Coast Guard is maintaining crew proficiency in 
icebreaking operations through: icebreaking simulations, temporary duty 
assignments to CGC HEALY and other domestic icebreaking assets. 
Additionally, the Coast Guard is looking at potential international 
professional engagements on foreign icebreaking assets. In fact, a 
Coast Guard Icebreaker Captain is sailing on the Russian vessel that 
NSF is chartering for the McMurdo break-in mission in January 2012.

    Question 4. CMSP has been used in New England to successfully 
reduce conflicts between shipping activities and marine mammal 
migrations. In the Arctic, melting ice has resulted in increased 
shipping access to the Bering Strait, leading to a greater likelihood 
of ship collisions with protected marine mammals. Do you think that it 
is necessary to implement a CMSP process for the Arctic in the near 
term to avoid whale ship-strikes and other user conflicts?
    Answer. The Coast Guard is committed to supporting the 
implementation of Coastal and Marine Spatial Planning (CMSP) in all 
regions of the United States under the auspices of the National Ocean 
Council, consistent with Ex. Order 13547, July 19, 2010, ``Stewardship 
of the Ocean, our Coasts, and the Great Lakes.'' The rationale for CMSP 
is contained in the Final Recommendations of the Interagency Ocean 
Policy Task Force and other materials the Council has prepared and is 
developing. One of the examples of successful interagency cooperation 
to balance the interests of maritime trade, offshore energy, and 
environmental protection as contained in the Final Recommendations was 
that of the Stellwagen Bank National Marine Sanctuary, located just off 
of the always busy Boston, Massachusetts, harbor. Major benefits of 
interagency planning and working closely with all stakeholders were to 
reduce the potential of ship strikes with little adverse impact on 
shipping. The Coast Guard played an active role in that planning and 
review process.
    Alaska/Arctic is one of the nine regions of the country where the 
National Ocean Council is working to implement CMSP. Regional planning 
bodies (RPBs) composed of Federal, State, and tribal partners 
(including Alaska Native entities) will form to develop coastal and 
marine spatial (CMS) plans for each region or, in some cases, sub-
regions. Each RPB will be informed by its members, scientists, 
industry, other concerned stakeholders, and the general public in 
developing their regional CMS plans. Avoidance of collisions between 
ships and marine mammals is one of the many issues that the RPBs will 
consider. The RPB, in implementing key principles and elements of the 
CMSP process, will consider how to mitigate and plan for conflicts 
among human uses as well as conflicts between human uses and the 
environment. The expected increase in commercial vessel traffic in 
Arctic and Alaskan waters will likely pose significant conflict use 
challenges that the RPB will seek to resolve. The Coast Guard is 
committed to being part of this process in all nine regions.
    In the meantime, the Coast Guard is undertaking studies to analyze 
the nature and effects of ship traffic passing through the Bering 
Strait and into the Chukchi Sea to promote vessel safety and the needs 
of all concerned. On November 8, 2010, the Coast Guard published a 
Notice of Study and request for comments for a ``Port Access Route 
Study: In the Bering Strait'' in the Federal Register (75 FR 68568). 
The Coast Guard recently extended the public comment period until 
September 6, 2011. What is learned during this process, as well as the 
routing measures and best practices that are developed, will be 
implemented under existing statutory authority and then incorporated 
into the CMSP process.
    The Coast Guard agrees with the other Federal agencies about the 
importance of ensuring CMSP serves as a tool to promote a more 
integrated and proactive approach to planning and managing the existing 
and emerging uses of our oceans and coasts. Although there is currently 
a low volume of shipping and other opportunities to plan waterway 
safety and environmental stewardship exist, near-term implementation of 
CMSP is the preferred integrated approach to reducing ship strikes and 
resolving other anticipated conflicts. Ship traffic through the Arctic 
and Bering Sea will increase in the future as a result of diminishing 
sea ice; accordingly, it is imperative that an early, proactive 
approach be taken to mitigate the resulting greatly increased noise and 
other potential environmental impacts on marine mammal populations, as 
well as on the native communities which depend upon them through 
traditional subsistence hunting.

    Question 5. How would the implementation of CMSP in the Arctic 
affect Coast Guard operations there?
    Answer. The Coast Guard anticipates no adverse operational impacts 
from implementing Coastal Marine Spatial Planning (CMSP) in the Arctic. 
Implementing CMSP will promote and leverage a broad range of existing 
Coast Guard priorities and equities, including safety, security, and 
stewardship, in the region.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      Admiral Robert J. Papp, Jr.
    Question 1. Given the $4 to $7 billion the High Latitude Study 
identifies in icebreaker needs, there is a lot of discussion about the 
wisdom of outsourcing our homeland security activities by leasing or 
chartering icebreakers. Can you comment on the wisdom of leasing 
icebreakers instead of having government-owned assets?
    Answer. In general, executing Homeland Security activities can be 
accomplished from a leased vessel only if primarily operated by a Coast 
Guard crew and flagged as a U.S. Coast Guard vessel. To fully evaluate 
the applicability of a capital lease, its utility and operational 
flexibility must be considered against the initial acquisition costs. 
Additionally, based on current fiscal policy, scoring of the initial, 
full budget authority for the length of a capital lease must be 
considered when evaluating the benefits of leasing over a capital 
acquisition.

    Question 2. Are there Coast Guard missions that cannot be performed 
on leased or chartered vessels? Are those missions critical 
capabilities or just ``nice to have'' on icebreakers?
    Answer. The ability to conduct inherently governmental missions 
from a leased asset is a critical factor when operating in the arctic. 
All Coast Guard missions could be conducted on a leased vessel operated 
under a demise charter to the Coast Guard, properly marked as a Coast 
Guard Cutter, obtained in accordance with applicable laws and 
regulations, and crewed by all active duty Coast Guard.

    Question 3. In 2010, the cruise ship Clipper Adventurer ran aground 
in the Canadian Arctic, on a shoal which was charted at 60 feet, but 
was actually about 9 ft. and it took the Canadian Coast Guard days to 
reach the vessel. What is the state of our nautical charts in the 
Arctic? Could a similar thing happen in U.S. waters? How long would it 
take the Coast Guard to respond?
    Answer. The National Oceanic and Atmospheric Administration's 
(NOAA) Office of Coast Survey has responsibility for charting waters 
under U.S. jurisdiction to the limits of the Exclusive Economic Zone. 
NOAA considers the nautical charting data in much of the U.S. Arctic to 
be inadequate or nonexistent. According to NOAA's U.S. Coast Pilot, 
much of the Bering Sea area is ``only partially surveyed, and the 
charts must not be relied upon too closely, especially near shore.''
    A nautical chart shows water depths (soundings obtained from 
hydrographic surveys), shoreline, prominent topographic features, aids 
to navigation, and other information pertinent to marine 
transportation. Nautical charts serve multiple purposes. Not only do 
they aid navigation and promote vessel safety, but they also have 
scientific value. Models describing storm influence on coastal erosion, 
for instance, require information on nearshore bathymetry. Acquiring 
adequate bathymetric data for the nearshore zone of the Beaufort and 
Chukchi seas would improve our ability to forecast the condition of the 
rapidly changing arctic coastal zone. Forecasts of coastal zone change 
are important to infrastructure planning, natural resource management, 
and for local communities.
    The water depth information in U.S. Arctic waters is a major 
concern. The soundings along the northern Alaska coast and south to the 
Bering Strait were obtained between 1940 and 1969 from hydrographic 
surveys capable of only partial bottom coverage, some using lead lines. 
The discrete point soundings obtained using lead lines can be more than 
500 meters apart. Widely spaced soundings do not contain enough data to 
detect pinnacles, rocks, shoals, and other obstructions that protrude 
above the sea bottom and may not reflect actual water depths in the 
surrounding area.
    Along the northern Alaska coast, the 10-fathom (60 feet) curve lies 
2 to 20 miles offshore. Soundings inside the 10-fathom curve are 
charted anywhere from one-half to three-quarters of a nautical mile 
apart. However, in some areas, the charted soundings are spaced as much 
as four nautical miles apart. Historical sounding positions were 
obtained using less accurate positioning technology than what is 
available to modern vessels using the Global Positioning System (GPS), 
Differential GPS, Electronic Chart Display, and Information Systems).
    Modern hydrographic surveying technology includes the use of single 
beam and multibeam echosounders, along with side scan sonar. Multibeam 
technology obtains millions more soundings than single beam systems and 
covers a wide swath of the ocean floor, depending on the depth (deeper 
water equates to wider swath, shallower water equates to narrower 
swath). Side scan sonar is towed behind the survey vessel and the data 
obtained assists in detecting objects (wrecks, rocks, or other 
obstructions) that project from the sea floor. Until full coverage 
bottom surveys obtained using multibeam echosounders and/or side scan 
sonar are completed, the extent of potential hazards will not be known. 
Side scan sonar and multibeam systems provide nearly 100 percent bottom 
coverage of the sea floor, greatly enhancing the ability to detect 
hazards undiscovered by earlier, less modern surveys.
    During the 2010 field season, the Office of Coast Survey's 
Hydrographic Surveys Division undertook hydrographic survey projects in 
the Bering Strait, Port Clarence, and Kuskokwim River--collecting over 
300 square nautical miles of hydrographic data. However, this is only a 
small portion of the estimated 40,000 square nautical mile U.S. Arctic 
hydrographic survey requirement. Much of the data needed for improving 
charts in the U.S. Arctic still needs to be obtained through modern 
hydrographic surveys, water level information, geodetic control, and 
shoreline/channel delineation.
    A similar incident could take place in U.S. Arctic waters. The time 
of the year, the location of the incident, and weather conditions would 
determine the length of time it would take the Coast Guard to respond. 
If a Coast Guard icebreaker is not in the area and a Coast Guard High 
Endurance cutter is patrolling the Bering Strait, the High Endurance 
cutter could arrive on scene within 24-48 hours. It would take about 5 
days for a Coast Guard buoy tender to transit from Kodiak to Point 
Barrow, depending on weather conditions.
    The Coast Guard would also likely deploy a C-130 aircraft and an H-
60 helicopter from Coast Guard Air Station Kodiak. Both would have to 
travel approximately 900 nautical miles across the Alaskan mainland. 
The transit time for a C-130 would be approximately 4 hours and it 
would be limited to dropping survival gear at the site The H-60s 
transit time would be approximately 9 hours and would require two air 
crews and one refueling stop.
    The Coast Guard would also likely engage rescue squadrons of the 
Alaska Air National Guard out of Ellison Air Force Base near Fairbanks 
and Joint Base Elmendorf-Richardson near Anchorage for assistance.
    Additionally, the Coast Guard would request assistance from other 
partners, such as the North Slope Borough search and rescue helicopters 
and fixed wing aircraft.
    Search and rescue operations in the U.S. Arctic are extremely 
difficult due to weather, distances, and lack of infrastructure. In 
2011, two exercises focused on U.S. Arctic rescue response were 
conducted. In May, a table top exercise was conducted in Barrow to 
discuss the rescue of a large number of passengers from a cruise ship. 
In July, a joint operations field exercise was conducted with the U.S. 
Air Force and the North Slope emergency response organizations to 
search for people in the water in the Beaufort Sea. Both exercises were 
successful as they worked to build interagency partnerships and 
familiarity with asset capabilities and limitations, while seeking to 
fully understand the challenges that that would be encountered during 
an actual incident.

    Question 4. The Coast Guard has been studying the full range of 
capabilities needed for the Service to meet its statutory mission 
requirements and the requirements of the U.S. Navy in the polar 
regions, identifying gaps in mission capabilities in the regions and 
the number and types of assets--including polar icebreakers--needed to 
close the gaps. I understand the Coast Guard is now taking the results 
of this High Latitude Study and conducting a Mission Analysis Report to 
look at the mission requirements in greater detail. When this is 
complete, a Mission Needs Study will look at various options how the 
Coast Guard will accomplish the missions. How many more studies need to 
occur to take action? And where does the DHS Arctic Study fit into this 
picture?
    Answer. The Coast Guard is using the results of the High Latitude 
Study to inform its planning processes moving forward as maritime 
activity evolves in the region. The Coast Guard will continue to 
monitor and assess activity in the region with its current operations 
and assets and proceed with a risk-based, phased resourcing approach 
designed to address the highest operational needs, including the 
establishment of infrastructure and communications systems to support 
operations as the level of activity requires it. The study will also be 
used to inform a whole of government solution to address U.S. national 
requirements in the Polar Regions.

    Question 5. In your opinion, what is the most important piece of 
information that you learned from the High Latitude Study?
    Answer. Based on the current and projected level of activity in the 
Arctic, the Coast Guard is challenged to meet is statutory mission 
responsibilities now and likely will not be able to meet requirements 
in the future without investment in infrastructure or capabilities 
required for the polar regions.

    Question 6. What is the Coast Guard doing with the results of the 
High Latitude Study?
    Answer. The Coast Guard is using the results of the High Latitude 
Study to inform its planning processes moving forward as maritime 
activity evolves in the region. The Coast Guard will continue to 
monitor and assess activity in the region with its current operations 
and assets and proceed with a risk-based, phased resourcing approach 
designed to address the highest operational needs, including the 
establishment of infrastructure and communications systems to support 
operations as required. The study will also be used to inform a whole 
of government solution to address U.S. national requirements in the 
Polar Regions.

    Question 7. Most of the Chukchi and Beaufort Seas are shallow near 
shore. Arctic coastlines of Alaska lack shore-side infrastructure 
needed to support escalating maritime operations. Ideas such as 
designing an offshore vessel mooring or a deepwater port to support 
operations are being recommended for consideration. Last Congress I 
proposed legislation that would require a study on the feasibility and 
potential of establishing a deep water sea port in the Arctic to 
protect and advance U.S. strategic interests within the Arctic region. 
Do you think there should be a deepwater port in the Arctic?
    Answer. The Coast Guard expects that greater infrastructure will be 
required in Alaska's Arctic region to support the expanding oil and gas 
production, mining activities, shipping, fishing, and other human 
activities of increasing importance there, while protecting the marine 
environment and promoting the interests and equities of the indigenous 
populations. However, given the lack of a natural deepwater port, the 
tremendous challenges to dredging, building, and maintaining such a 
facility, including the huge initial and ongoing capital costs, the 
very small resident population, and significant resource obstacles that 
lie ahead, it will be extremely challenging to invest in the 
infrastructure needed to address the issues previously described. One 
might expect that commercial interests, who also have infrastructure 
needs, could provide leveraging opportunities for Federal agencies as 
the future needs become clearer.
    Note that, the State of Alaska and the U.S. Army Corps of Engineers 
(USACE) completed a joint three-year study to look at the issue of 
whether there should be additional ports and harbors in Alaska. The 
State of Alaska, with matching funds from USACE, is funding the 
project. The Coast Guard, along with National Oceanic and Atmospheric 
Administration and Department of Defense, have actively participated. 
More information is available at http://www.poa.usace.army.mil/en/cw/
AKPortsStudy.htm.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                      Rear Admiral David W. Titley
    Question 1. The Task Force Climate Change was created by the Chief 
of Naval Operations in May 2009 to ensure the Navy is ready to meet any 
potential challenges to mission requirements, force structure and 
infrastructure created by a changing climate. Of any region on earth, 
the Arctic is experiencing climate change effects the most rapidly. As 
the sea ice melts, it is estimated that the Arctic will become 
seasonally navigable by mid-century. What is driving the U.S. Navy's 
interest in climate change?
    Answer. The policy guidance for the U.S. Navy with respect to 
climate change includes ``A Cooperative Strategy for 21st Century 
Seapower,'' known as The Maritime Strategy or CS-21 and the Quadrennial 
Defense Review 2010. CS-21 and QDR 2010 identify climate change as a 
national security priority. Executive Order 13514 ``Federal Leadership 
in Environmental, Energy, and Economic Performance ``also requires 
Federal agencies to set goals for climate change mitigation and energy 
efficiency.

    Question 2. How do climate changes in the Arctic rank as compared 
to other challenges the Navy sees around the world?
    Answer. Nowhere is the Earth's climate changing more dramatically 
than in the Arctic. Decreasing sea ice is making the Arctic Ocean more 
accessible to human activity including oil and gas exploration, 
maritime shipping, commercial fishing, and adventure tourism. The Navy 
views the Arctic as a challenge, not a crisis; the risk of conflict in 
the region is low. In support of U.S. national security interests as an 
Arctic nation, the U.S. Navy is taking a deliberate approach in order 
to be prepared and ready to respond to future tasking in the region to 
ensure the Arctic remains a stable and secure environment.

    Question 3. What are the other climate-related issues around the 
world that the Navy foresees?
    Answer. Climate change has numerous implications for naval force 
structure and operations outside of the Arctic including:

  <bullet> Sea level rise, and increased storm surge may adversely 
        affect Navy coastal installations.

  <bullet> Sea level rise may impact availability of foreign ports and 
        strategic assets.

  <bullet> Changes in the distribution and availability of water, 
        agriculture, fisheries, coastal lands, and other natural 
        resources may increase demand for naval peace-keeping, 
        humanitarian response, and disaster relief missions

    Question 4. How will the increased access to the Arctic through the 
Northwest Passage and Northern Sea Route caused by melting sea ice 
impact the Navy?
    Answer. The Navy must be prepared to operate in the Arctic Ocean 
just as it does in every other ocean. The harsh environment of the 
Arctic, however, will present the Navy with challenges associated with 
the cold weather environment that go beyond those of other oceans. The 
Navy is in the process of assessing the impacts of Arctic operations 
through execution of the Arctic Roadmap.

    Question 5. What are the greatest challenges to Naval operations 
from a changing Arctic environment, and how is the Navy planning for 
these changes?
    Answer. The Navy is currently executing its Arctic Roadmap, which 
is a 5 year plan to identify the challenges posed by a changing Arctic 
and to assess the impact of these changes on naval operations and 
readiness. Phase 1 of the Arctic Roadmap is the study and assessment 
phase which includes an Arctic Mission Analysis and an Arctic 
Capabilities Based Assessment (CBA). Together these studies articulate 
the primary missions of the U.S. Navy in the Arctic and the describe 
the gaps in the Navy's ability to conduct these missions. The Arctic 
Mission Analysis, signed on 15 August 2011, describes the primary 
missions for the Navy in the region and how they will change over the 
next 30 years. The two mission areas that have been identified to 
increase through 2040 are Theater Security Cooperation and Maritime 
Security, which includes search and rescue and Maritime Domain 
Awareness. The Arctic CBA is scheduled to be completed by mid-September 
2011 and will articulate the principle gaps in the capabilities 
necessary for the Navy to operate in the Arctic and form the basis for 
U.S. Navy future year's investments.

    Question 6. After the DOD-NOAA ``divorce'' on polar-orbiting 
satellites, it was agreed that DOD satellites would have a morning 
orbit and NOAA satellites would cover the afternoon orbit. Both provide 
data for numerical weather models, which are a primary forecasting 
tool, for both DOD and civil users. As you know, NOAA now forecasts a 
``gap'' in their polar-orbiting satellite coverage in 2016.--How 
important are accurate weather forecasts to Naval operations, and 
military operations generally?
    Answer. Accurate and timely atmospheric and oceanographic forecasts 
are key components of Battlespace Awareness and Intelligence 
Preparation of the Environment and are critical for safe and efficient 
Naval and military operations.

    Question 7. Does this mean you will be relying on NOAA's Joint 
Polar Satellite Systems for data from the afternoon orbit?
    Answer. The President's decision to restructure the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) assigned 
responsibility for the afternoon orbit to NOAA and the early morning 
orbit to DOD. NOAA and DoD will share data with each other from their 
respective orbits.

    Question 8. Since a gap in JPSS coverage is projected, will not 
having that data degrade weather model output and thus forecast 
quality?
    Answer. Navy uses data from all available U.S. and international 
satellite sources for its global atmospheric and oceanographic models, 
to include all three polar satellite orbits and several geostationary 
satellites. The loss of data from any one orbit or satellite will 
affect the numerical model forecast quality. Quantitative impacts of a 
loss of data from a particular orbit or satellite type will be assessed 
in the context of all available data.

    Question 9. Would this impact affect military weather forecasts 
just for the U.S. or will affect overseas operations as well?
    Answer. Satellite-based data is assimilated into the Navy's global 
atmospheric and oceanographic models which are subsequently scaled and 
tailored to deliver localized environmental (weather and oceanographic) 
forecasts for Naval operations around the globe. Overseas operations, 
particularly over water, around the globe will be more affected by the 
loss of weather satellite data than in the United States.

    Question 10. Icebreaking needs for our Nation were once 
predominately conducted by the Navy but in 1965, the Navy permanently 
transferred responsibility for icebreaking and mission requirements in 
the Polar Regions to the Coast Guard. The Navy has stated that the 
Arctic is critical to national defense and maintaining a continued 
presence in the region on the surface, subsurface, and in the air is 
required.--How critical is the Coast Guard's icebreaking capability to 
the U.S. Navy?
    Answer. The Coast Guard's icebreaking capability supports the U.S. 
Navy's desired end state of maintaining the Arctic as a safe, stable 
and secure region where U.S. national and maritime interests are 
safeguarded and the homeland is protected. Additionally, the Office of 
the Secretary of Defense's 2011 Report to Congress on Arctic Operations 
and the Northwest Passage states ``there is a current and continued 
future imperative to provide a sovereign maritime presence in the 
region.'' This aligns with Annex E to the Memorandum of Agreement 
between the Department of Defense and the Department of Homeland 
Security on the use of Coast Guard Capabilities and Resources in 
Support of the National Military Strategy which states that ``Coast 
Guard icebreakers are the only means of providing assured surface 
access in support of Department of Defense missions.'' As the U.S. Navy 
does not possess any ice-capable surface combatants, the Coast Guard 
has the only icebreaking vessels capable of supporting the six core 
Navy missions in the Arctic.

    Question 11. How concerned is the Navy with the Coast Guard's lack 
of icebreaking capability and is this considered a national defense 
vulnerability?
    Answer. The U.S. Navy is very concerned about the U.S. Coast 
Guard's degraded icebreaking capabilities. Having sovereign icebreaking 
vessels capable of supporting the six core Navy missions and supporting 
the a broad range of Department of Defense and Department of Homeland 
Security missions is important for protecting U.S. national interests. 
With no service icebreaking requirements currently identified, the 
Coast Guard provides the only means for access to much of the Arctic. 
Lacking this enabler, and with the Office of the Secretary of Defense's 
statement of requirement in the 2011 Report to Congress on Arctic 
Operations and the Northwest Passage to be able to persist in the 
Arctic to protect sovereign interests, the Navy may not have the means 
to meet that requirement.

    Question 12. How limited is the Navy in the Arctic without Coast 
Guard icebreakers?
    Answer. The lack of Coast Guard icebreakers currently does not 
impact the Navy's ability to perform its core mission of preventing 
conflict. However, lacking any ice-capable surface combatants, the U.S. 
Navy is limited in the near term to operating only in the ice-free 
waters of the Arctic during those times of year when the sea ice is 
minimal. Coast Guard icebreakers would represent the only military 
vessels capable of conducting Arctic operations year round. The recent 
Navy Arctic Mission Analysis states that the potential for armed 
conflict in the Arctic in the near-term (through 2020) is low. However, 
the Navy is conducting several analyses, including the potential need 
for ice-capable surface combatants, to ensure it can capably perform 
all six core Navy missions to meet expected mid and long term Arctic 
operating needs.

    Question 13. One of the major challenges in the Arctic is the lack 
of infrastructure needed to support escalating maritime operations. The 
vast areas of the Arctic have insufficient infrastructure to support 
safe marine shipping and respond to marine incidents and emergencies in 
the Arctic. This area lacks critical infrastructure components to 
support communications, safe navigation, search and rescue assets, 
pollution response assets, and port facilities where ships may need to 
take refuge, refuel, resupply or discharge waste.--What kind of 
investments in infrastructure is needed to meet Navy strategic 
objectives in the Arctic?
    Answer. The U.S. Navy is continually re-evaluating its Arctic 
infrastructure needs. As such, the Navy is currently participating in a 
number of ongoing studies and assessments related to these 
infrastructure needs. Although military infrastructure in the region is 
limited, the low threat of military conflict between Arctic nations 
currently does not necessitate substantial near-term investments in 
military bases and infrastructure. However, as ice coverage recedes and 
human activity in the Arctic begins to increase, the Navy may need to 
accelerate its need to field capabilities and build infrastructure in 
order to provide a persistent presence in this harsh environment.

    Question 14. Do you think the Navy should be making investments in 
the Arctic in a fiscally-constrained environment?
    Answer. Substantial U.S. Navy near term investment (next 5-10 
years) in the Arctic, especially given the current U.S. Fiscal 
situation, is not currently planned or anticipated. However, it will be 
important to periodically re-evaluate our investment needs to ensure 
our Arctic capabilities investments are sufficient to meet any emerging 
threats to U.S. national security.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Peter E. Slaiby
    Question 1. On Wednesday, August 10, 2011, an oil leak began and 
was detected by Shell UK, stemming from the flow line of its shallow 
water Gannet Alpha platform, located 112 miles east of Aberdeen, 
Scotland in the North Sea. Though the initial leak was stopped, it has 
now emerged that a smaller flow from the same source is ongoing. It is 
estimated that as of Monday, August 15, approximately 54,600 gallons 
(1300 barrels) have spilled into the sea in what has become the worst 
spill in UK waters in the past decade. Though the leak began on August 
10th, why was the British public not informed of its existence until 
August 12th? Is this how Shell would respond if a spill were to occur 
in U.S. Arctic waters as a result of its activities?
    Answer. In this particular instance we wanted to get a full 
assessment of the situation prior to engaging the press. You will note, 
however, that we engaged immediately with the regulatory bodies as 
quickly as the leak was detected. We have provided updated information 
as appropriate while dealing with the situation.

    Question 2. The regulatory regime of the United Kingdom and the 
safety of North Sea production operations are regularly touted as 
industry ``gold standards.'' Yet Shell has admitted that the ongoing 
Gannet Alpha incident constitutes ``a significant spill in the context 
of annual amounts of oil spilled in the North Sea.'' Additionally, 
Shell technical director Glen Cayley has acknowledged that the ongoing 
leak has been difficult to stem because it ``is in an awkward position 
to get to* and really getting into it amongst quite dense marine growth 
is proving a challenge.'' Mr. Slaiby, at the hearing on July 27, you 
indicated Shell would not be working in places like the Arctic if the 
company believed something might happen that you couldn't control. If 
you're having difficulties responding to an incident in an area with a 
well-established history of oil production, shouldn't Americans be 
concerned with Shell's ability to prepare for and respond to a spill in 
an inherently more challenging and remote environment, such as U.S. 
Arctic waters, one where capabilities have yet to be truly tested?
    Answer. While the Gannet Alpha incident is regrettable, the leak is 
not related to a well control incident nor does it correspond with the 
exploration plans we have planned for Alaska. The exploration program 
planned in the Alaskan Arctic is not comparable to a leak in a 
flowline. We continue to have confidence in our ability to operate in 
the North Sea and will learn from this incident as the investigation is 
completed. This learning will improve our operations around the world.

    Question 3. In early August, the United Nations Environment 
Programme (UNEP) released a major report titled, ``Environmental 
Assessment of Ogoniland.'' The report details the findings of an 
independent scientific assessment and demonstrates that the impacts of 
oil pollution from over 50 years of operations in southeast Nigeria are 
far more significant than once thought, potentially warranting ``the 
most wide-ranging and long term oil clean-up exercise ever undertaken 
if contaminated drinking water, land, creeks and important ecosystems 
such as mangroves are to be brought back to full, productive health,'' 
one that may take 25 to 30 years. Beyond its disastrous scientific 
findings, the report implicates Shell Petroleum Development Company as 
a key contributor to this disaster, accusing the company of chronically 
failing to live up to its own safety procedures and environmental 
standards and colluding with government officials to cover up oil spill 
sites. Shell faces hundreds of millions of dollars in damages for two 
massive oil spills that occurred in the region as a result of the 
rupture of the 2008 Bodo-Bonny trans-Niger pipeline; originally 
claiming that less than 40,000 gallons were spilled in Bodo, Ogani, 
Nigeria, your company now accepts liability for a spill experts 
estimate could rival that of Exxon-Valdez. Mr. Slaiby, Shell has spent 
billions upon billions of dollars on spill preparedness in the Arctic, 
and has made considerable efforts to brand itself as a responsible and 
proactive industry leader when it comes to the safety of its oil 
exploration and production activities. Even with everything Shell has 
done in this regard, what kind of credible assurances can you really 
make in the wake of these developments that Shell is and will be, to 
use your words, ``committed to employing world-class technology and 
experience to ensure a safe, environmentally responsible Arctic 
exploration program?''
    Answer. Oil spills in the Niger Delta are a tragedy, and the Shell 
Petroleum Development Company of Nigeria (SPDC) takes them very 
seriously. That is why we have always accepted responsibility for 
paying compensation when they occur as a result of operational failure. 
SPDC has always acknowledged that the two spills in the Bodo area in 
2008, which are the focus of extensive media reports today, were caused 
by such operational failure. Even when, as is true in the great 
majority of cases, spills are caused by illegal activity such as 
sabotage or theft, we are also committed to cleaning up spilt oil and 
restoring the surrounding land.
    It is unfortunate that inaccurate reporting has created the 
impression that SPDC in particular and oil companies in general are 
responsible for all oil spills in Nigeria. The two spills at issue here 
resulted in around 168,000 gallons of spilled oil. It is regrettable 
that any oil is spilled anywhere, but it is wildly inaccurate to 
suggest that those two spills represent anything like the scale which 
some reports refer to, such as a comparison to the Exxon Valdez spill 
(10.8 million gallons). Concerted effort is needed on the part of the 
Nigerian government (which itself owns a majority interest in the 
assets operated by SPDC under a joint operating agreement with the 
Nigerian state oil company, NNPC), working with oil companies and 
others, to end the blight of illegal refining and oil theft in the 
Niger Delta, both of which perpetuate poverty. This is the major cause 
of the environmental damage which media reports have so graphically 
illustrated.
    It is inappropriate to compare the situation in Nigeria with 
exploration in Alaska. Domestic exploration does not experience 
sabotage and civil unrest which are the root causes of most of the 
environmental damage in Nigeria.
    In Alaska, as elsewhere in the world, we are committed to 
operational standards that meet or exceed regulations. We are also 
committed to ensuring the communities that we work in participate fully 
in the economic benefits that oil and gas development will bring. This 
is perhaps at the root of many of the issues in Nigeria.

    Question 4. The Alaska Eskimo Whaling Commission, the organization 
of native communities living in the Arctic which depend on a 
subsistence hunt of bowhead whales for their cultural and nutritional 
health, does not support the expansion of offshore oil and gas 
activities in the Arctic because of the unknowns associated with such 
projects and concerns about oil spills. Local communities are not 
convinced that industry or the government is currently capable of 
remediating an oil spill, and want to make sure that oil and gas 
development does not endanger the communities' resources. How does 
Shell take the indigenous concerns about offshore oil and gas 
development into account in their development plans for the Arctic?
    Answer. Shell takes indigenous concerns very seriously and has been 
working closely with the Alaska Eskimo Whaling Commission (AEWC) to 
address their concerns associated with the potential impacts of oil and 
gas activities on subsistence hunting. In addition, Shell has 
voluntarily committed to a ``zero discharge'' policy for certain waste 
streams in the Beaufort Sea (federal law permits such discharges) in 
response to requests from the AEWC.
    Shell has entered into an agreement with the North Slope Borough 
(NSB) to fund a science program for an initial term of 5 years, which 
is administered by the NSB Mayor's Office. The Steering Committee, 
which governs the direction of scientific studies, is dominated by 
local residents to ensure the incorporation of indigenous concerns.
    Shell also conducts annual Plan of Cooperation meetings with every 
impacted coastal community to share results of science data collection 
efforts, plans for the upcoming season and to solicit questions and 
concerns about Shell's program. The solicitation of input is not just a 
paper exercise; stakeholder input has resulted in a substantial 
mitigation program including:

        1. Communications Plan to avoid conflict with subsistence 
        hunters

        2. Commitment to hire subsistence advisors and marine mammal 
        observers

        3. Development of a robust marine mammal monitoring protocol

        4. Real time ice and weather forecasting

        5. Collaboration with coastal communities on transit routes

    Question 5. In the event of a catastrophic oil spill, how would 
Shell compensate these communities whose nutritional needs and way of 
life depend completely on Arctic natural resources?
    Answer. As in other parts of the world where it operates, Shell is 
committed to being a good neighbor. One example of this is Shell's 
commitment to fund mitigation measures in the unlikely event of an oil 
spill that has a significant potential to affect subsistence species or 
a spill that is followed by a reduction in availability of species for 
subsistence. The Inupiat Community of the Arctic Slope (ICAS), AEWC and 
the NSB could request funds from a third party that would make funds 
immediately available for distribution. Shell's commitment is backed by 
a substantial financial instrument. The purpose of the mitigation funds 
includes transportation of hunters and equipment to alternate hunting 
sites and acquisition and transportation of alternate subsistence food 
supplies.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                            Peter E. Slaiby
    Question 1. As part of larger efforts to improve oil spill 
response, oil companies such as Shell conduct intentional spills of 
limited amounts of oil to better understand the properties of oil in 
the environment. Some Arctic countries, such as Norway, allow this kind 
of testing in their waters. While the EPA has the authority to provide 
Clean Water Act waivers for such testing, our staff is unaware of any 
waivers that have been issued. It's my understanding that your company 
conducts limited controlled spills in foreign waters to better 
understand the properties of spilled oil in the environment. Can you 
share with us how these activities have improved oil spill response 
capabilities?
    Answer. As part of Joint Industry Projects (JIPs) and other R&D 
work, Shell participates in cooperative efforts with industry, 
regulatory agencies, academia, and research institutions that perform 
experimental spills. These experimental spills provide an excellent 
opportunity to further advance knowledge in a laboratory or small test 
basin which can be extrapolated to a larger scale. During an 
experimental spill, testing can take the place of new technology 
dealing with mechanical skimmers, booming, dispersants, in-situ 
burning, detection and monitoring of oil, environmental fate and 
effects, oil behavior in cold environments, and other data gathering. 
While industry keeps as a top priority the prevention of any spill, 
opportunities to test new or advanced technology are limited and 
difficult to perform during an actual spill in which the priority is to 
properly respond and clean up the spill. The last experimental spill 
conducted was in 2009 as part of the SINTEF Oil in Ice JIP which 
resulted in many learnings and significant advancements regarding spill 
response in Arctic conditions. We utilized the information gathered 
from the in-situ burn and the use of dispersants during the 
experimental spill at Svalbard to further enhance the use of these 
response tools in our contingency plan. The results of the SINTEF JIP 
have been reported and the summary can be found at the following link: 
http://www.sintef.no/project/JIP_Oil_In_Ice/Dokumenter/publications/JIP
-rep-no-32-Summary-report.pdf.

    Question 2. Would testing in U.S. waters improve our understanding 
of how spilled oil behaves in the environments of places we'd actually 
be drilling in?
    Answer. Yes, the information gathered during experimental spills is 
very valuable in learning how oil behaves in the environment although 
we don't believe the work done in Norway is less relevant. It also 
would be of great benefit for testing new and advanced technology, 
developing strategies and tactics for response, improving modeling of 
oil movement and dispersion, and other areas. When a JIP performs an 
experimental spill, detailed planning goes into effect to maximize the 
knowledge and data gathering that occurs during the test.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                   to Andrew T. Metzger, Ph.D., P.E.
    Question 1. One of the major challenges in the Arctic is the lack 
of infrastructure needed to support escalating maritime operations. The 
vast areas of the Arctic have insufficient infrastructure to support 
safe marine shipping and respond to marine incidents and emergencies in 
the Arctic. This area lacks critical infrastructure components to 
support communications, safe navigation, search and rescue assets, 
pollution response assets, and port facilities where ships may need to 
take refuge, refuel, resupply or discharge waste. Dr. Metzger, what are 
the greatest challenges for building marine infrastructure in the 
Arctic?
    Answer. From the perspective of civil engineering and construction, 
I believe the four greatest challenges for building marine 
infrastructure in the U.S. Arctic are as follows:

        Permitting--The permitting process for construction of marine 
        infrastructure, both coastal and offshore, will be difficult 
        for anyone to gauge in advance. However, one should expect 
        considerable lead time before ground is broken on any new 
        construction project in the Arctic marine environment. I would 
        anticipate one to several years of permitting lead time, 
        depending on the scope of the project.

        Logistics--It would be difficult to overstate the logistical 
        challenges of construction in an Arctic maritime environment. 
        This is due primarily to remoteness and the fact the region is 
        relatively undeveloped. Almost every component of a constructed 
        facility will be shipped to the site from considerable 
        distance; probably by barge from the west coast of the 
        contiguous United States. The Barrow Replacement Hospital, 
        presently being constructed in Barrow, Alaska, is a good 
        example of this situation. Every beam, window, door know, 
        screw, and all other construction materials needed for a modern 
        hospital was shipped via barge from Seattle, Washington. 
        Shipments also included vehicles, equipment, construction 
        worker housing, fuel and most other supplies required for the 
        2-year project. The planning for such a project must be 
        comprehensive and precise. A forgotten or damaged item must be 
        flown in, often from outside Alaska, or barged in the following 
        summer. One should anticipate mobilization and material costs 
        to be in excess of what could be expected along the East, Gulf, 
        West or Great Lakes coasts. It should be anticipated that the 
        project will take longer (than analogous facilities in the 
        contiguous US) to construct due to these complications; coupled 
        with the very short construction season in the Arctic.

        Existing Civil Infrastructure--As stated in both my written and 
        oral testimony: the lack of basic shore side civil 
        infrastructure, including lodging, water, wastewater and 
        electrical power facilities, will obstruct marine 
        infrastructure development in the Arctic. The civil works at 
        most communities in this region cannot support more than 
        minimal influx of additional people. New civil works (lodging, 
        water, wastewater, power) will likely be required to 
        accommodate any significant workforce as well as operators of a 
        finished facility.

        Incomplete Knowledge Base--The Arctic is a severe environment. 
        Marine civil infrastructure built in this environment must 
        withstand extreme environmental conditions. Numerical 
        quantities describing the extremes of environmental are needed 
        to build facilities with reliable performance. While the 
        scientific community has studied the Arctic for quite some 
        time, and in considerable detail, we have very little 
        information available about actual numerical values of extremes 
        (e.g., wind, waves, sea-ice conditions) over time. Extreme 
        values are needed to build civil infrastructure with reliable 
        performance.

    Question 2. How robust is the research on building in the Arctic?
    Answer. I would describe research on building terrestrial 
infrastructure in the Arctic as ``robust.'' A substantial amount of 
scientific literature and experience-based expertise for on-land 
projects exists. Notable examples of successful land-based projects 
include: the Trans-Alaska Pipeline (TAPS), facilities at Prudhoe Bay, 
the Dalton Highway adjacent to the TAPS route, as well as a host of 
other constructed facilities.
    Specific areas in which I would refer to our knowledge base as 
``robust'' include: construction in/on terrestrial permafrost, material 
performance in cold temperatures, Arctic utilities (water, wastewater 
and housing).
    Research and experience designing and constructing marine civil 
infrastructure is not as developed as the storehouse of knowledge for 
land-based Arctic infrastructure. However, examples of successful 
projects do exist. A port has been constructed in in Nome, Alaska; 
artificial islands, like the Northstar project, have been constructed 
at the Prudhoe Bay facility.
    Topics in which further study, from an engineering perspective, is 
warranted include sub-sea permafrost, the coastal transition zone, and 
sea-ice. Sea-ice represents a major challenge for designing, 
constructing and maintaining coastal and offshore marine 
infrastructure. A considerable amount of information was gained during 
the first ``push'' to develop oil resources in the Arctic, circa 1980s. 
However, much of this information warrants updating given recent 
knowledge of geophysical processes in the Arctic.

    Question 3. You mentioned in your testimony that environmental 
conditions in the Arctic are not conducive to currently building 
reliable Arctic infrastructure. What do engineering societies and 
academia need to develop Arctic design standards?
    Answer. To develop Arctic design standards, the engineering 
community and academia will need a robust understanding of the 
magnitude of environmental metrics and their probability of occurring 
over time. This understanding must also account for changes in 
environmental parameters occurring as a result of climate change. As 
stated in my testimony, we do not design for the mean; we must design 
for the extreme. Rationally derived quantities for extreme values of 
environmental demands including wind, wave and ice conditions are 
necessary to conclude, with certainty, that a facility is ``reliable.''

                                  <all>

</pre></body></html>
